<html>
<title> - TO PROTECT AND SERVE: JOINT LAW ENFORCEMENT EFFORTS IN BUILDING SAFE TRIBAL COMMUNITIES AND STOPPING DANGEROUS DRUGS FROM ENTERING INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 116-57]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-57

                    TO PROTECT AND SERVE: JOINT LAW 
 ENFORCEMENT EFFORTS IN BUILDING SAFE TRIBAL COMMUNITIES AND STOPPING 
              DANGEROUS DRUGS FROM ENTERING INDIAN COUNTRY

=======================================================================

                                HEARING

                              BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-564 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9feff0dffceaecebf7faf3efb1fcf0f2b1">[email&#160;protected]</a>                        
                      
                     
                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2019...................................     1
Statement of Senator Hoeven......................................     1
Statement of Senator Cramer......................................     4

                               Witnesses

Addington, Charles, Director, Office of Justice Services, Bureau 
  of Indian Affairs, U.S. Department of the Interior.............    28
    Prepared statement...........................................    31
Armstrong, Hon. Kelly, U.S. Representative from North Dakota.....     5
Azure, Hon. Jamie, Chairman, Turtle Mountain Band Of Chippewa 
  Indians........................................................    62
Brugh, Judy, Council Member, Mandan, Hidatsa And Arikara Nation 
  Tribal Council.................................................    59
Burgum, Hon. Douglas James, Governor, State of North Dakota......     6
    Prepared statement...........................................    10
Faith, Hon. Mike, Chairman, Standing Rock Sioux Tribe............    44
Jackson, Lisa, Council Member, Sisseton Wahpeton Oyate...........    51
    Prepared statement of Hon. Ella Robertson, Chairwoman, 
      Sisseton-Wahpeton Oyate....................................    52
Pearson, Hon. Myra, Chairwoman, Spirit Lake Nation...............    48
Salter, Richard, Special Agent In Charge, Drug Enforcement 
  Administration, U.S. Department of Justice.....................    23
    Prepared statement...........................................    25
Sanborn, Jill, Special Agent In Charge, Federal Bureau of 
  Investigation, U.S. Department of Justice......................    19
    Prepared statement...........................................    21
Stenehjem, Hon. Wayne, Attorney General, State of North Dakota...    13
    Prepared statement...........................................    16

                                Appendix

Response to written questions submitted by Hon. Tom Udall to 
  Charles Addington..............................................    71
Written questions submitted by Hon. Tom Udall to Jill Sanborn....    73

 
                    TO PROTECT AND SERVE: JOINT LAW 
                    ENFORCEMENT EFFORTS IN BUILDING 
  SAFE TRIBAL COMMUNITIES AND STOPPING DANGEROUS DRUGS FROM ENTERING 
                             INDIAN COUNTRY

                              ----------                              


                       WEDNESDAY, MARCH 20, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in the 
James Henry Gymnasium, United Tribes Technical College, Hon. 
John Hoeven, Chairman of the Committee, presiding.

    *Due to indiscernible audio recordings; there are areas of 
missing text throughout this field hearing.*

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. Thank you for being with us 
today. We appreciate it very much. And to the honor guard and 
to the singers, we appreciate it, again. We appreciate all of 
you being here at UTTC on behalf of all the tribes in Indian 
Country.
    Since we changed the law, when I was governor, and 
[indiscernible] was convinced as well [indiscernible] we really 
appreciate the [indiscernible]. And thank you all for being 
here today as part of this field hearing. I want to thank the 
individuals who will be testifying as well.
    Obviously, the purpose of the hearing is to focus on what 
we can do in Indian Country to promote safety and to strengthen 
law enforcement. So you are going to hear from the right 
individuals today in terms of what they can do with you. We 
really are trying to understand it, from people who are dealing 
with these issues on the reservation, in Indian Country every 
day. So that is the focus.
    The testimony here will be made part of the record for our 
use in the committee in the Senate. And its purpose is to 
support the passage of legislation that will enable us to do 
more in Indian Country to promote safety, promote safety for 
women, for children, for everybody, to strengthen the hand of 
law enforcement as well as the tribal attorney and anybody else 
who is trying to make life better and more secure across this 
Nation for all of our Native people. That is the purpose of the 
hearing today. Again, I thank all of you for being here.
    I want to thank Senator Cramer for being part of this 
hearing. We appreciate your being here as well and providing 
some opening remarks. As well as our Congressman, Kelly 
Armstrong, for being here. It is very important that they be 
here, because I think these kinds of steps, getting this kind 
of hearing, putting it on the record for the Senate Indian 
Affairs Committee helps us move important legislation. We have 
to move it not just through our committee, which we are going 
to be able to do, I am pretty confident of that. As chairman of 
the committee, I am pretty sure of it. We have already moved 
how many bills through our Committee?
    Mr. Andrews. Eighteen.
    The Chairman. We have already moved 18 bills through our 
Committee, we have already moved 18 bills in this Congress, 
this year. We have already moved 18 bipartisan bills through 
the Committee. So we are a good Committee, very bipartisan. Tom 
Udall is the Ranking Member, Democrat from New Mexico. He and I 
are good friends, he is a good guy, I really enjoy working with 
him.
    It is a little tough on the Senate Floor but can move 
across the Senate Floor an amendment [indiscernible] across the 
House [indiscernible]. So I very much appreciate both Senator 
Cramer and Congressman Armstrong, because they are a very, very 
important part of that effort. And these are bills like 
legislation I put in called the SURVIVE Act. What does the 
SURVIVE Act involve? Every year the Crime Victims Fund 
nationally takes in about $3 billion, I should say it provides 
about $3 billion to help law enforcement across this Nation and 
help victims of violent crime, $3 billion a year. If we can 
pass my SURVIVE Act, 5 percent of that, about $150 million a 
year, will go to Indian Country.
    So now we work to appropriate that, and we do pretty well. 
I think last year we were in the $130 million range. But this 
would provide, on an ongoing basis, $150 million of that crime 
victims money that would go to Indian Country. That makes a 
difference for victims on the reservation. That makes a 
difference to law enforcement on the reservation. That is one 
example of how legislation is passed, again, making 
[indiscernible] in this period, once [indiscernible] it is hard 
making that case. That is the [indiscernible].
    Another example would be the Tribal Law Enforcement Act. We 
call it TLOA. But essentially that would be, many of the best 
practices that are going on across the Country in terms of 
rehabilitation through our penal system and those kinds of 
things available for Native Americans. That is incredibly 
important to reduce recidivism. It is incredibly important so 
when someone is incarcerated, they are not just incarcerated, 
and they come out and they leave from the times they are 
incarcerated, they are incarcerated, but they are 
rehabilitated. And [indiscernible] incarceration, too, we need 
to make those available to law enforcement on our reservations.
    That is another example of legislation that we are working 
on, many of you are also familiar with Savanna's Act, which 
focuses on reducing crime committed against children 
[indiscernible] on the reservation. These are examples of the 
kinds of legislation we want to move in this Congress and have 
them become law.
    So this record is part of doing that [indiscernible]. So we 
work on these things, we always have the goal, the results 
[indiscernible]. That is what this is about. So as we hear from 
these important witnesses, they are part of lending their voice 
to making sure that we make those kinds of tools, those 
important resources available on the reservations across this 
Country.
    It is not just about discussing the challenges and 
understanding them. It is about translating that important 
input and testimony into results that can make a difference. 
That is one of the reasons we are here, and I appreciate so 
much all of you coming.
    I want to welcome, of course, our first panel. But first, 
we also have some others. We have with us our Lieutenant 
Governor, Brent Sanford. We thank you for being here. We will 
hear from him.
    [Applause.]
    The Chairman. [indiscernible]. Scott Davis, with Indian 
Affairs, Standing Rock, thank you for all you do.
    [Applause.]
    The Chairman. If I am not mistaken, weren't you appointed 
originally by the former governor? Because you have been here a 
long time, and you are really, really fantastic. So I don't 
know who that guy was, but I will tell you, he sure got a good 
one when he recruited you. Thanks for all you do.
    We have some sheriffs here, Sheriff Nathan Gustafson from 
Rolette.
    [Applause.]
    The Chairman. And then we have both Chiefs Jason Ziegler 
and Dan Fredericks from Mandan in Bismarck [indiscernible].
    [Applause.]
    The Chairman. So the guy behind me who I ask for input all 
the time is my Committee director. His name is Mike Andrews. He 
is our staff director for the Indian Affairs Committee in the 
Senate, and he is excellent. He is excellent. He is a law 
school graduate, but the thing that he is most famous for is he 
actually kicked for the Chicago Bears, I kid you not. He was a 
Chicago Bears kicker. Now, I know there is probably one or at 
most [indiscernible] Saints in this audience. He could probably 
kick a field goal or two and beat your favorite team 
[indiscernible], just so you know.
    [Laughter.]
    The Chairman. But he is a great guy, and he is an 
incredible resource. Mike Andrews, he is our Committee staff 
director. He is excellent. If we can help you, don't be afraid 
to talk to him, I don't mean just today, but get hold of him 
and let him know what you need. You will love him. He is a 
great guy. He might kick for perhaps the wrong team, but he is 
a great guy and extremely helpful.
    Thank you, everyone. We are now officially on the record. 
All right. We are calling the meeting to order officially, in 
order to take testimony. Today the Committee will hold an 
oversight hearing to discuss an important and timely topic in 
Indian Country, intending to examine public safety efforts 
between drug enforcement and the challenges facing tribal 
communities.
    Again, I want to thank President McDonald for hosting, and 
also, we are very pleased to be here at UTTC, as I have said 
before.
    And here is an interesting statistic. I didn't realize it, 
but UTTC has provided over 10,000 American Indian students from 
more than 75 federally-recognized Indian tribes across this 
Country, they have provided education services to those 
individuals. I think that is wonderful, 75 different tribes 
from across the Nation. So I appreciate that very much.
    All right. The members of the honor guard, Robert Fox, U.S. 
Air Force, E.D. Willis, U.S. Marine Corps, Tom Red Bird, U.S. 
Army, and Todd Goodsell, with the U.S. Marine Corps. Burris 
Henry, the drummer, Stone Rich. And also, we have with Senator 
Udall's staff, as I mentioned before, Tim Moxley, and Connie 
[indiscernible], also with Senator Udall. Thanks.
    With that, I am going to ask Senator Cramer for his 
comments, before we go to testimony from our Governor and the 
three gentlemen on the first panel. Senator Cramer?

                STATEMENT OF HON. KEVIN CRAMER, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Cramer. Thank you, Chairman Hoeven. And thanks 
[indiscernible] echo all his [indiscernible] particularly the 
last [indiscernible]. I'd like [indiscernible] Senator and 
Chairman [indiscernible] when he had [indiscernible]. I know 
that because [indiscernible] all his papers [indiscernible] he 
is an instructor and [indiscernible].
    We all know the challenge, we all know the issues. We all 
know each other. I want to highlight something Senator Hoeven 
said, and that is, the importance of this record should not be 
understated or underestimated. In fact, what we ought to do is 
point to some personal and self [indiscernible] patriotic 
[indiscernible]. You all have a disproportionate amount of 
influence over [indiscernible] because of this right here, 
because of this right here, us in relationship one with the 
other and all of us together. And I think that speaks more than 
all the laws [indiscernible]. And while we are working hard to 
pass legislation to help reconcile and recognize some of those 
relationships [indiscernible] Senator Hoeven is 
[indiscernible].
    I also want to echo what John said about [indiscernible]. 
This is [indiscernible], that is all I can tell you, this 
[indiscernible] all the people who I have worked for he is 
among the best. So we are grateful to him coming and for being 
here and for his leadership on this important issue as well.
    I might just add, my [indiscernible] tribe a long time ago 
[indiscernible]. It is not as [indiscernible]. But anyway, this 
is great to be part of family there. My clan [indiscernible] 
and [indiscernible]. I know it's a big day, but while we are 
having this Congressional hearing, there is some really 
important stuff going on down at the State Capital today as it 
relates to the relationship [indiscernible]. We are really 
looking forward to [indiscernible]. It is really important. 
This [indiscernible] celebrate [indiscernible] in cooperation 
with [indiscernible].
    As I look forward to the solutions to some of the 
challenges, my goal is to find solutions that will honor the 
integrity of sovereignty while at the same time honoring the 
integrity of U.S. citizenship. You would think it is easy, it 
has its challenges. You guys [indiscernible] right out of 
college pretty much looking for [indiscernible] 100 years ago. 
And there are first [indiscernible] really easy and you tell 
them [indiscernible] more challenges [indiscernible].
    So we have come some way but we have a long way to go. But 
I just want to say this, [indiscernible] strongest word of 
encouragement that I have for you. That is, while we have some 
great former governors and is this great [indiscernible], we 
[indiscernible] today [indiscernible] taking the foundation and 
building [indiscernible] tremendous way.
    The Chairman. You just said a lot there.
    Senator Cramer. He is a [indiscernible]. Doug, and I mean 
this with all my heart, you know that, I am sincere. What you 
have done to help [indiscernible] strengthen [indiscernible] in 
relationship in Indian Country and our State really, it is 
[indiscernible]. In fact, [indiscernible] I thank you for that. 
And I submit to you, as much as this is important, 
[indiscernible], and that means all of us, I think is better 
today because of [indiscernible].
    With that, [indiscernible].
    [Applause.]

              STATEMENT OF HON. KELLY ARMSTRONG, 
             U.S. REPRESENTATIVE FROM NORTH DAKOTA

    Mr. Armstrong. Thank you, Chairman Hoeven. I just want to 
say, thanks for having the opportunity to be here.
    I especially appreciate, in this area, this is something we 
have been working on at the State level for a long time. I 
think it is important to recognize that when it comes to 
trafficking and enforcement and those types of crimes, we rely 
heavily on Federal resources, whether it is DEA, FBI, BCI at 
the State level. And we deal with all those issues while 
recognizing sovereignty and jurisdictional issues.
    But I think one of the things that we have to factor in 
particularly in a lot of this is rural America [indiscernible] 
those resources right now [indiscernible] when it comes to 
addiction. Resources can oftentimes [indiscernible] come from 
in Indian Country, and people can see the work there. Because 
by the time that gets to the Federal level [indiscernible] 
related crimes.
    We have had three [indiscernible] opportunities at the 
local level to get to that addict, and we have worked on 
focusing on those issues, too. Because this is worthwhile. We 
need to be able to provide any Federal resources and Federal 
legislation possible. But we need to be able to do it in a way 
that is flexible and usable at 2:30 a.m. on the side of the 
road, and not just in committee hearing, whether it is at the 
State Capitol or in Washington, D.C. And we have a lot of 
people that have done a lot to reduce the stigma, a lot of 
people who [indiscernible]. Now it is our job to make sure that 
there is grant money and resources available.
    I want to say thank you to the first lady, who is sitting 
over there, who has done more for driving [indiscernible] 
across the State than anybody. It is important, because if we 
can deal with a young addict at 19, 20 years old, and if we can 
get [indiscernible] somewhere else, then we don't have to deal 
with them in a Federal correctional facility.
    So I appreciate everybody having the opportunity here, and 
I just hope we continue to [indiscernible]. I would much prefer 
to wrap them up and get them on the right track, and that is, 
after their second [indiscernible], than deal with them coming 
out of the Federal penitentiary in seven and a half years. So 
if we can do that on the front end of the use and crack down on 
[indiscernible] trafficking we will be a long way 
[indiscernible].
    So thank you all for participating.
    [Applause.]
    The Chairman. Again, I would like to thank both Senator 
Cramer and Congressman Armstrong for being here today, as well 
as the first lady. Thank you for being here. I want to lend my 
thanks as well, and for all of the work that you are doing to 
lead on the important issue of recovery and addressing the 
issue. Thank you.
    [Applause.]
    The Chairman. We will now hear from our witnesses. We will 
have three panels. In the first panel, we will hear from 
Governor Burgum, followed by Attorney General Wayne Stenehjem. 
On the second, we will hear from Federal law enforcement 
officials from the FBI, the DEA and BIA law enforcement. On the 
third panel, we will hear from the elected tribal chairmen and 
chairwomen in North Dakota. I encourage you to stay and listen 
to the testimony of these individuals. Again, I appreciate very 
much them being here and providing their important testimony 
today and making it part of the record.
    With that, I want to welcome both the Governor and the 
Attorney General. Thank you for being here. We welcome you, 
Governor Doug Burgum.

  STATEMENT OF HON. DOUGLAS JAMES BURGUM, GOVERNOR, STATE OF 
                          NORTH DAKOTA

    Mr. Burgum. Thank you, Chairman Hoeven. Good morning, 
everyone. Thank you, Senator Cramer, for the kind comments. And 
Congressman Armstrong, thank you for bringing your expertise to 
this discussion as well.
    Let me just respond first to the kind words of Senator 
Cramer. This has been a team effort, and that team effort not 
only includes Lieutenant Governor Sanford and the first lady, 
but to my right, Attorney General Stenehjem, who has been 
fighting for justice in North Dakota on tribal lands for the 
last two decades and continues to do that. We have progress 
being made, this afternoon, you mentioned, with the tribal tax 
agreement moving from 50-50 to 80-20. We have had great 
leadership from some of our legislators, tax commissioner Ryan 
Rauschenberger, playing a key role. And of course, Scott Davis 
and others. There has been a big team of people that are all 
behind what we are doing. And of course, this is one of the 
five key initiatives of our administration, is trying to 
improve relationships. We do that, because we know if we talk 
about, today we are here to talk about crime and safety, but we 
have also all acknowledged the work of the first lady. But lots 
of crime that is occurring in our State, whether it is on or 
off reservation, is related to the disease of addiction. And 
the disease of addiction, we know, touches all 57 organizations 
that we held reviews with last year as part of the strategic 
review process. It permeates everything we do in corrections 
and law enforcement. So we can't really separate, these days, 
talking about safety and the disease of addiction. So these two 
come together.
    This is very important that you are here, and I want to 
thank Chairman Hoeven and the staff for holding this hearing in 
North Dakota. I do agree with what has been said here, there is 
a unique opportunity given the people who are in the audience 
and those of us that are here on stage, to actually become a 
model for the United States about how to solve some of these 
complex problems that have been dogging the Country for decades 
and decades. Of course, the legal framework for handling crime 
and safety on tribal lands is very complex, and there is a 
complex history.
    But at the end of the day, we are all relatives, and we 
need to understand that there is an opportunity to try to solve 
these. I would like to think that maybe in North Dakota, we can 
do it here first and better, and set a model for the rest of 
the Country on how this can be resolved.
    We have been fortunate in our administration to have great 
partnerships with the leadership of the tribes. I know that 
they are going to be up here later, but I do want to thank 
Turtle Mountain Chairman Jamie Azure, Standing Rock Chairman 
Mike Faith, Spirit Lake Chairwoman Myra Pearson, and Sisseton 
Wahpeton Oyate Chairwoman Ella Robertson, and Mark Fox from MHA 
Nation. They have all been great partners as we have worked 
with them individually. Each of their needs and opportunities 
are different. But we have been, Kathryn and Brent and I have 
been made to feel welcome and supported in the true spirit of 
collaboration in all of our meetings with them that have been 
occurring over the last several years.
    I know also that we have representatives of the FBI, the 
DEA, the BIA and others who are here today. We have enjoyed a 
strong collaboration with those organizations since the day 
that we took office during a time of extreme conflict. We 
really appreciate the partnerships there as well.
    One of the things, of course, that we are working on, 
doesn't require passing a law. But one of the important things 
we have tried to establish is trust. We need to have trust and 
understanding. There have been so many decade and decades of 
mistrust and trying to understand that we build on trust to 
create a new era of opportunity.
    One of the ways that we have done that is just through 
listening. I have spent a lot of time trying to really listen 
and understand. It is really remarkable in this day and age 
that we can have still so much misunderstanding among people 
who live so close to each other. But we are moving forward with 
partnerships that are really based on good faith, on 
consultation, listening and learning, understanding, mutual 
respect, and through the idea that we really have government-
to-government relationships with leadership, Scott Davis and 
lots of other people, including partnerships with the Federal.
    We have held two government-to-government conferences where 
we have convened in each case over 300 people. The tribal chair 
leaders and their elected officials have been there. We have 
had law enforcement from Federal and State who have been there. 
Dozens of State agencies have been at these convenings.
    And I would like to also suggest that that model might be a 
model for other States, because I know that we are going to 
have great fruit that is going to be born from that. We have 
had two annual, they are going to get bigger and better. But 
there have been real constructive things that have come from 
that.
    One of the things that has come from that is the 
understanding of the things we can do here locally that don't 
require Federal assistance, and that is just between tribal and 
State, mutual aid enforcement. We have, again, complex 
geography. MHA Nation touches six counties. We have six elected 
sheriffs. Each of those require separate MOUs. We have 
established within our highway patrol, for the first time, a 
cultural liaison officer who is working, she is here today, 
working with the counties trying to build these MOUs, whether 
it is in a hot pursuit team, extradition.
    It is 2019, and I would like to think that the day should 
be over when someone calls 9-1-1 and then instead of, they call 
9-1-1, they pick up the phone and instead of saying, how can we 
help or what is the emergency, the first question they ask is, 
are you an enrolled member. I would like to think, in North 
Dakota, that we can figure out a way where we are concerned 
about the issue they are calling about first and then worry 
about identification.
    [Applause.]
    Mr. Burgum. So anyway, we are making some movement on that. 
McLean County is one where we have an MOU and are moving 
forward. The other thing, through this collaboration, we have 
also identified that there were some outdated potential flaws 
in the laws within North Dakota. BIA police officers did not 
exist under the definition of Federal agents in North Dakota 
law.
    We have a bill supporting a change to that. We are 
optimistic it will pass. It has passed the House and we are 
optimistic it will pass the Senate. But when they are not 
listed as Federal agents, it creates liability for BIA agents 
if they were actually involved in a law enforcement action. So 
correcting that will help us with the MOUs.
    Another initiative that is going forward is with 
collaboration, again, through Attorney General's, strong 
leadership of the BCI, Bureau of Criminal Investigation, the 
FBI, county and local police, BIA tribal officers is beginning 
these drug task force efforts.
    One example is up on Turtle Mountain, the first of its 
kind, initiated in 2018. Great opportunities for cross-
deputization of Federal agents to work both on and off trust 
lands. Because when we have the complex legal environment, it 
is, I think, well-known that the tribal lands become magnets 
for areas of criminal activity, including drug trafficking and 
human trafficking, because of the complexities that are there 
makes it easier for criminals to operate. I am including non-
tribal, non-North Dakota criminals that are finding space to 
operate within our State.
    So as we work to reduce the drug trade on the supply side, 
we also have to continue to address the behavioral health, 
addiction and the long-standing trauma to children of people 
who have parents who have been dealing with the disease of 
addiction. It becomes a multigenerational issue.
    And as acknowledged here, the first lady is doing some 
great work on this front, of reducing shame and stigma of 
addiction. But she is also working with individual tribes. 
Chairman Azure has created a Turtle Mountain Youth Commission 
that the first lady has been engaging with and again, getting 
the youth involved, supporting this.
    For the Federal folks who are here, there are three 
requests that we have from a State level as part of this 
testimony. One is, we know that we are short of BIA officers. 
And we know this is a shortage that is nationwide. But when we 
have Standing Rock, including the portion that goes into South 
Dakota, that is larger than Connecticut, I think it is 
authorized for 24 agents. At the time when we took office a 
couple of years ago, I think they were not fully staffed. They 
might have had 16 officers at the time.
    So achieving full staffing, obviously there is a workforce 
shortage around the whole Country. But there is also a training 
opportunity. Today, the primary training location for BIA 
officers is in New Mexico. Unfortunately, the student failure 
rates, the graduation rates, either way you describe it, is 
only about 50 percent out of that facility.
    Of course, we know that it is a culturally-predominant fact 
that if you are farther away from family and support groups 
when you are trying to tackle something new, that you may be of 
less success rate. We would like to promote that there is an 
opportunity for collaboration between the State and the Federal 
here. Because we believe that we can create a premier BIA 
tribal police officer training facility in North Dakota at Camp 
Grafton, in conjunction with the Lake Region Law Enforcement 
Academy in Devils Lake. This is very close to Spirit Lake 
Nation, and not only could this help solve the problem in North 
Dakota, but for South Dakota, Wyoming, Montana, Minnesota, 
Wisconsin. Everybody has shortages of BIA agents. Maybe a 
second high-quality educational academy here could help address 
that.
    Secondly, you have mentioned this. Of course, in the last 
two years, it has been unfortunate that North Dakota has made 
national headlines on two cases, one involving Savanna Greywind 
and the other, Olivia Lone Bear. But I think through this we, 
particularly in the latter case, revealed the absence of an 
organized law enforcement framework when we are crossing 
multiple jurisdictions. There are lessons we can learn from 
that as we continue to move forward.
    The third one, which we have prior provided separate 
testimony on this, but there is a 70-year old outdated law on 
the books, Federal law, for the Spirit Lake Nation. We are 
supporting the tribe in a formal request to repeal this 
outdated, unused law that is related to North Dakota having 
supremacy over misdemeanors on Spirit Lake. There was a bill 
introduced in the 115th Congress, Senate Bill 2788, so the last 
Congress, that would help resolve that. We are shoulder-to-
shoulder with Spirit Lake in having that repealed.
    So in conclusion, again, I want to just thank the Committee 
and the staff members who are here. I want to thank all the 
tribal leaders for their partnership. I want to thank the 
Attorney General for his partnership as we work through these 
complex issues.
    I appreciate the opportunity to testify before the 
Committee today. Thank you.
    [The prepared statement of Mr. Burgum follows:]

  Prepared Statement of Hon. Douglas James Burgum, Governor, State of 
                              North Dakota
    Chairman Hoeven and Committee Members of the Senate Committee on 
Indian Affairs,
    Welcome to our beautiful state, and thank you for the opportunity 
to testify on an ever-important topic in our State and the Tribal 
Nations with whom we share geography: ``To Protect and Serve: Joint Law 
Enforcement Efforts in Building Safe Tribal Communities and Stopping 
Dangerous Drugs from Entering Indian Country.''
    Through the course of meeting with tribal leadership from every 
Native American tribe headquartered in the state--the Mandan-Hidatsa-
Arikara (MHA) Nation in New Town, the Turtle Mountain Band of Chippewa 
Indians in Belcourt, the Standing Rock Sioux Tribe in Fort Yates and 
the Spirit Lake Nation in St. Michael--as well as the Sisseton Wahpeton 
Oyate, our administration continues to identify areas of opportunity 
for government-to-government collaboration between the State of North 
Dakota and Tribal Nations. This partnership, based on good-faith 
engagement, consultation, listening, learning, understanding and mutual 
respect, continues to be one of the five strategic initiatives for our 
administration.
    Within this ongoing dialogue, our cabinet agencies have launched 
collaborative efforts to assist those North Dakotans who are dual 
citizens as enrolled members of their respective Federally Recognized 
Tribes with issues related to public safety. It is my strong belief 
that by establishing trusting relationships, sharing resources and 
identifying strengths and needs across federal, state, local and tribal 
jurisdictions, we can build safe communities, ensure stable and highly 
effective law enforcement and promote joint efforts to enhance Tribal-
State mutual aid agreements and drug task forces.
    Together, we also can address the issues our Bureau of Indian 
Affairs (BIA) police officers face in North Dakota due to a lack of 
major resources, staffing and training facilities, as well as the 
epidemic of missing and murdered indigenous peoples and the repeal of 
outdated laws regarding criminal jurisdiction in Indian Country.
    In keeping with the spirit of the Tribal Partnership initiative, 
various cabinet agencies have been cooperating to establish Tribal-
State mutual aid law enforcement agreements. Some of the first of their 
kind were created as Tribal-County mutual aid law enforcement 
agreements. For example, McLean County, which shares a significant 
portion of land with MHA Nation, entered an agreement with MHA for both 
jurisdictions and their law enforcement to assist one another in 
specific cases where time was of the essence and public safety was at 
stake, such as hot pursuit, detainment and extradition. It also 
fostered better communication when navigating the complicated waters of 
criminal jurisdiction in Indian Country. Officers were able to more 
quickly respond and better determine the enrollment status of those who 
had committed a crime or were in the process of doing so, which made 
for clearer lines of due process and making accurate decisions about 
who had jurisdiction.
    In July 2018, the North Dakota Indian Affairs Commission (NDIAC) 
and North Dakota Highway Patrol (the Patrol) began monthly meetings to 
explore this issue at a statewide level, and potential mutual aid 
agreements between Tribes and the Patrol to better and more quickly 
serve the citizens of North Dakota. These agencies began focusing on 
language for potential Memorandums of Understanding (MOU's) and 
Memorandums of Agreement (MOA's) between Tribal Nations and the Patrol 
for cross-deputization, hot pursuit, detainment or other avenues to 
improve public safety.
    The two agencies identified potential legal flaws within North 
Dakota Century Code (NDCC), and found that BIA police officers did not 
exist under the definition of ``Federal Agents'' under NDCC  29-06-
05.2. After discussions with BIA police officers, this issue was 
identified as a liability concern for BIA police officers, as well as a 
trust concern between the BIA and their fellow law enforcement officers 
around the State. Without the protection of being identified as a 
Federal Agent under state law, BIA police officers could not cross from 
trust to fee land without creating liability risk. To other law 
enforcement officers, the BIA officers were viewed as unwilling to 
assist fellow law enforcement officers. In fact, BIA police officers 
continually put their lives, liability, and job at risk in order to 
protect and serve not only the citizens of North Dakota but also their 
fellow law enforcement officers, regardless of identification or 
jurisdiction.
    At the beginning of the 66th North Dakota Legislative Session, HB 
1234 was introduced with the support of both the Highway Patrol and 
NDIAC. The bill recognized ``Bureau of Indian Affairs police'' and 
``federal law enforcement officers'' as ``Federal Agents'' under North 
Dakota Century Code. HB 1234 passed the House of Representatives and is 
currently awaiting a conference committee hearing in the Senate. We 
anticipate the bill will pass.
    Turning to today's topic, it is the initiative of the NDIAC, with 
its partners, the North Dakota Highway Patrol, North Dakota Bureau of 
Criminal Investigation (BCI), the FBI, county and local police, and BIA 
and Tribal police officers, to begin Drug Task Force efforts.
    The Turtle Mountain Drug Task Force, the first of its kind, was 
initiated mid-year in 2018. This cross-jurisdictional approach includes 
resource sharing; with the assistance of the FBI's Safe Trails Program, 
certain officers may be cross-deputized as federal agents. This program 
will allow these officers to work both on and off Trust lands with no 
issues of liability or jurisdiction, focusing on the large amounts of 
drugs travelling on and off reservation.
    Although the Turtle Mountain Drug Task Force is still in its 
infancy, it brings together law enforcement from Rolette, Bottineau and 
Pierce counties, Turtle Mountain BIA police and Tribal officers, as 
well as BCI, FBI, and other agencies. With this work, we anticipate 
additional agreements to authorize cross-jurisdictional work and the 
recognition of felony warrants both on trust and fee land. The goal is 
to significantly reduce drug trade in this high-trafficked area. 
Separately, this task force will address behavioral health, addiction 
and longstanding trauma experienced by those living in the Turtle 
Mountains, to end the shame and stigma of addiction--a goal First Lady 
Kathryn Burgum has adopted as her platform--and make real progress in 
giving hope to those affected by the disease.
    In order for these efforts to succeed, our Tribal Nations and the 
State of North Dakota must support the BIA police officers who reside 
and work within the State, protecting and serving its diverse citizens. 
There is a shortage of BIA officers nationally; the Tribal Nations in 
North Dakota are currently operating at between 40 percent and 50 
percent of their authorized staff. At the NDIAC Strengthening 
Government to Government Partnerships and Relationships Conference, a 
law enforcement panel was tasked with discussing these issues. The 
panel shared their experiences resulting from inadequate staffing 
numbers. One officer discussed waiting more than two hours for backup 
to arrive and assist him. The same officer said that when dealing with 
individuals who are or might be in the process of committing a crime, 
he regularly pretends to be in conversation with another officer, to 
give the appearance that law enforcement reinforcements are on the way. 
We ask the Department of Justice and Department of Interior to assist 
with this shortage by authorizing additional BIA officers in North 
Dakota.
    Our BIA police officers are sometimes viewed as transient, staying 
six months or less in a location. Turnover hinders consistency in law 
enforcement. Every officer who is re-stationed within a short period of 
time results in a lack of ownership and follow through on critical 
cases. This is especially important in our missing and murdered 
indigenous people cases, where time is of the essence.
    One way to address this problem is by creating a premier BIA and 
Tribal police officer training facility in North Dakota. With the 
support of the U.S. Department of Justice and the U.S. Department of 
Interior, we believe our Camp Grafton training facility located near 
the Spirit Lake Tribe is an ideal location for a law enforcement 
training facility. It may require an agreement with the Federal 
Government to approve and certify such a program. We believe such a BIA 
training facility will produce a talented and robust pool of much-
needed BIA and Tribal police officers trained at the highest level.
    Currently the central training facility for BIA law enforcement is 
in Artesia, New Mexico. Failure rates are currently around 50 percent 
for those who attend this facility. It is a culturally predominant fact 
that the success of Tribal members is heightened when they are closer 
to their homes, friends, family and culturally important ties, such as 
their spiritual practices. Camp Grafton offers amenities readily 
available such as housing, meals, classroom space, gun ranges, driving 
ranges, etc. Nearby, and often used at Camp Grafton, the Lake Region 
Law Enforcement Academy is utilized for other law enforcement officers 
and provides initial training to entities including the Fargo, Grand 
Forks and Minot police departments and even the MHA Nation. Preliminary 
discussions with the administration at this facility indicates that 
incorporating the BIA curriculum into the existing programs would not 
be difficult. Similarly, the Tribal Colleges in North Dakota could 
incorporate some or all of the academic curriculum as a course of 
study. A Department of Justice-approved law enforcement training 
facility in tandem with BIA training could serve not only the Tribes 
within the geography of North Dakota, but also Montana, Wyoming, South 
Dakota, Minnesota and Wisconsin, to name a few.
    A regional law enforcement training center located at Camp Grafton 
and the Lake Region Law Enforcement Academy could be a beacon of hope 
for those who want to work in a field to protect the lives of others, 
particularly the lives of some of our most vulnerable citizens. It 
would create a workforce much in demand, with the chance that Tribes 
with training monies from the Federal Government (particularly Public 
Law 638 training monies) could be used toward continuing to improve the 
facilities of Camp Grafton. In addition, Tribal Colleges may also be 
interested in participating in this way, playing a crucial role in 
receiving grant monies and forwarding recruits to this type of training 
facility.
    This proposal is also a good stopping point to reflect on an 
ongoing epidemic across the United States and Indian Country--missing 
and murdered indigenous peoples. This epidemic continues, for reasons 
we still have not entirely identified. With the lack of judicial and 
law enforcement resources in Indian Country, this epidemic is seemingly 
growing. In the last year, North Dakota has had several cases involving 
prominent missing and murdered indigenous people, including the deaths 
of Savanna Greywind and Olivia Lone Bear. In the latter case, the 
absence of an organized law enforcement framework across multiple 
jurisdictions was painfully evident. The NDAIC was eventually asked to 
moderate and coordinate multi-jurisdictional law enforcement efforts, 
but not until long after the crucial first several hours and days of 
the case. These efforts resulted in a training session in New Town, 
N.D., where a national advocacy group provided a curriculum for the 
community to aid in search efforts in cases like these. We believe this 
type of curriculum could exist at a training facility such as the one 
we have proposed at Camp Grafton.
    Training and educational resources for these types of cases are the 
foundation for our support for the federal legislation known as 
Savanna's Act, which unanimously passed in the U.S. Senate. This bill 
requires the Department of Justice to update the online data entry 
format for federal databases relevant to cases of missing and murdered 
Native Americans to include a new data field for users to input the 
victim's tribal enrollment information or affiliation. In addition, 
this bill requires that DOJ must:

  <bullet> make standardized law enforcement and justice protocols that 
        serve as guidelines for law enforcement agencies with respect 
        to missing and murdered Native Americans,

  <bullet> develop protocols to investigate those cases that are guided 
        by the standardized protocols,

  <bullet> meet certain requirements to consult with Indian tribes, and

  <bullet> provide tribes and law enforcement agencies with training 
        and technical assistance relating to the development and 
        implementation of the law enforcement and justice protocols.

  <bullet> Federal law enforcement agencies that investigate and 
        prosecute crimes related to missing and murdered Native 
        Americans also must modify their law enforcement and justice 
        protocols to comply with the standardized protocols.

    Though I have provided separate testimony on the support to repeal 
60 Statute 229, an antiquated law giving the state jurisdiction over 
criminal matters on the Spirit Lake Nation, I want to close out my 
testimony by again highlighting this important endeavor. The Spirit 
Lake Tribe has gone on record to formally request the repeal of 60 
Stat. 229, an Act that previously conferred criminal jurisdiction over 
reservation misdemeanor crimes to the State of North Dakota. We request 
support in repealing this outdated and unused law through passage of a 
law like S. 2788, which was introduced in the 115th Congress.
    With the great strides that the Spirit Lake Nation has made in the 
past 70-plus years, there is no need for the State of North Dakota to 
prosecute crimes occurring on the reservation beyond what is permitted 
by federal laws generally applicable to Indian Country as a whole.
    We request support to formally repeal 60 Stat. 229, thereby 
supporting Spirit Lake's efforts to move forward with criminal justice 
system enhancements while preventing unnecessary interference with 
Tribal sovereignty by the State of North Dakota. This is an important 
step to reinforce existing current federal policy aimed at fostering 
Tribal self-determination. It is also an important step in establishing 
continued goodwill between the State of North Dakota and one of the 
Tribal Nations it shares geography with. Repealing this outdated law 
will foster future collaboration that respects each of the sovereign's 
ability to exercise and enforce public safety.
    In conclusion, I would like to thank this Committee again for your 
time, for visiting our beautiful State, and for taking into 
consideration the testimony I have provided today. The Tribal Nations 
with whom we share geography are each important bastions of historical 
cultures, showing strength, perseverance and resilience. Each has a 
beautiful history, rich in importance to the history of North Dakota. 
Their enrolled members, being citizens of North Dakota and citizens of 
the United States, deserve safe homes and communities. Healthy, vibrant 
communities will allow all jurisdictions to reach their fullest 
potential, with safety and justice consistent with all other lands in 
this Nation.
    Thank you again, Chairman Hoeven and Members of the Senate 
Committee on Indian Affairs.

    The Chairman. Thank you, Governor. We appreciate your being 
here. We appreciate your testimony. Most of all, we appreciate 
your important work, and very diligent work, in this area, 
along with the first lady. You have really demonstrated a 
commitment to making a difference, and we thank you.
    Mr. Attorney General.

 STATEMENT OF HON. WAYNE STENEHJEM, ATTORNEY GENERAL, STATE OF 
                          NORTH DAKOTA

    Mr. Stenehjem. Thank you, Mr. Chairman, and Governor, thank 
you for your kind words. It is wonderful, having the working 
relationship that we do, on so many of these issues.
    Thank you for organizing this meeting. This is very 
important, and your support for law enforcement all across the 
State of North Dakota spans many years. I certainly appreciate 
the support you gave to law enforcement when you were governor. 
You could not have been more supportive and helpful in all of 
our efforts. We do recognize that criminal activity is taking 
place all across the State of North Dakota. It doesn't matter 
where it is. It affects all of us.
    So we thank you for that. Senator Cramer, you have been 
very helpful. When you were in the House of Representatives, I 
appreciated that. And Congressman Armstrong, I so want to call 
you Senator. You were so helpful and effective when we were 
working together in the legislative chambers on the Justice 
Reinvention, on the enactment of state of the art human 
trafficking legislation in North Dakota, together with the 
funding that we needed to get that. The efforts that we have 
worked on together and that you spearheaded in the legislature 
are extremely important. So to the three of you, thank you for 
everything that you have done.
    I want to recognize, too, a true resource in North Dakota, 
and that is Scott Davis. Scott is someone who never hesitates 
to come into my office or elsewhere to talk about issues that 
are important, be it criminal law or anything else. He is a 
true resource for North Dakota, and I consider him a good 
friend, and I value that.
    Then I want to introduce the new director of the Bureau of 
Criminal Investigation, Lonnie Grabowska. Stand up, Lonnie, so 
everyone knows who you are.
    [Applause.]
    Mr. Stenehjem. He things about these issues from a 
statewide perspective all the time. It is a pleasure to be able 
to work with him. He is a resource for all of you, as well. So 
any questions that come up, please talk with me or direct them 
to Lonnie, and we will see that they get taken care of.
    I know I have five minutes, I hope that the time I spent 
congratulating everybody doesn't count in my five minutes. I 
will start my clock right now.
    [Laughter.]
    Mr. Stenehjem. And I want to start by outlining some of the 
things we do together, collaborative efforts that work well. 
Then I want to conclude with some of the areas where I think 
you, as members of Congress, can help us with the scourge that 
we have, with drugs and other issues here in North Dakota.
    So first, I want to start with our North Dakota Human 
Trafficking Task Force. As we know from experience, there is a 
strong relationship between narcotics trafficking and human 
trafficking crimes. The Human Trafficking Task Force that we 
initiated in my office was founded with the help of a grant, by 
the way, from the U.S. Attorney's Office, BCI and the North 
Dakota Council on Abused Women's Services. That task force has 
focused on tribal relations, forming a subcommittee 
specifically devoted to Indian affairs, and the executive board 
was expanded to include Sandra Bercier. I don't know if Sandy 
is here. If she is, I want to thank her. She is a valuable 
resource. She is from the First Nations Women's Alliance in 
Devils Lake, and is a valuable member of the commission.
    The other issue we contend with is internet crimes against 
children. BCI is the statewide coordinator for the Bureau of 
Justice Assistance. That program has expanded to multiple 
municipal, county, State and Federal agencies to expand our 
response to affiliate involvement.
    By definition, it has worked with tribal jurisdictions to 
offer training and make tribal and Federal jurisdictions 
affiliate agencies to also disseminate DVDs that contain 
cybercrime safety information, net-smart tools that are aimed 
at educating children all across the State on appropriate 
internet use. These initiatives continue to support narcotics 
investigations on both State and tribal lands and various 
records for narcotics investigations are retained and 
disseminated on electronic media.
    The 24-7 program is a program that I initiated in my office 
that we borrowed from South Dakota. It is designed to stop and 
defeat driving under the influence offenses by requiring as a 
condition of a sentence or bond that there be no alcohol 
consumption. And that to assure compliance, those participants 
in the program have to go in twice a day to be tested. And it 
is working very well. In 2013, we had about 8,000 DUI 
convictions in North Dakota. And last year, I think in large 
part because of this program, that number was cut in half to 
4,000. It has been very effective.
    We are now working with Standing Rock on a trial pilot 
program based on the 24-7 sobriety. We have donated several 
preliminary breath test devices, and 10 of those scram ankle 
bracelets for testing, for transdermal testing, to Standing 
Rock so they can begin their work. We are also working with MAK 
to introduce the 24-7 program to them. We are happy to work 
with anybody else to assure that we can establish those 
programs elsewhere.
    The narcotics task force, we started with a metro area 
narcotics task force in the Bismarck-Mandan area. 
Multijurisdictional task force that is coordinated out of 
Bismarck. That task force has been the only task force in North 
Dakota that was designated as a Federal Bureau of Criminal 
Investigation Safe Trails Task Force. It has continued to 
involve the BIA as a participating partner.
    In the Lake region, a multijurisdictional task force is 
coordinated out of Devils Lake. The task force has worked with 
BIA and the Spirit Lake tribe for about 20 years, and BIA 
special agents have been assigned to the task force. The 
Midwest high intensity drug trafficking area is something that 
is funded federally, and is of significant importance to us 
throughout the Midwest. BCI agency grants funds to allocate 
tribal narcotics investigation.
    We now are working on a statewide program that will allow 
State and tribal domestic protection orders to be shared and 
enforced in full in both tribal and State courts. That shared 
data base is a landmark initiative that will protect tribal and 
State victims of domestic violence, regardless of the 
jurisdiction where they live.
    We coordinate the sex offender registration, working with 
tribal agencies to identify, classify and monitor individuals 
convicted of a sexual offense or crime against children. 
Various tribal nations have worked on their tribal laws to 
mirror the numerous offenses already established through the 
State law. BCI works with the tribal sex offender registration 
groups to share current State tracking tactics and offender 
assessment tools and offender data bases.
    Through current law, BCI has decided to be proactive in 
narcotics investigations and reactive in criminal 
investigation. That authority has allowed the Bureau to 
participate in ten multijurisdictional task forces. We have 
also worked with Representative Ruth Buffalo on important 
legislation in support of two bills she introduced to relate to 
missing and murdered indigenous women. This is something that 
we are going to salvage now in our office, so we have a central 
data base of individuals who have been reported missing or 
potentially victims of homicide.
    [Applause.]
    Mr. Stenehjem. I want to get now to the recommendations 
that I have and where all of you could come in. That is in the 
support for continued narcotics task force groups. The BIA 
could assign special agents to our established local task 
forces within the geography of the current tribal nations and 
the State. Criminal investigators could and should be placed at 
the following units in Bismarck, with the metro area narcotics 
task forces, which would coordinate with Standing Rock Sioux 
Nation.
    In Minot, the Ward County Narcotics Task Force, to 
coordinate with MHA and with Turtle Mountain Indian 
Reservation. In Washburn, South Sacajawea Narcotics Task Force, 
to coordinate with MHA as well. The Williams County Narcotics 
Task Force, to coordinate with the Trenton tribal lands. Devils 
Lake with the Lake Region Narcotics Task Force, who would 
coordinate with Spirit Lake and Turtle Mountain Indian 
Reservation. In Grand Forks, the Grand Forks Narcotics Task 
Force, to coordinate with Spirit Lake as well. And Wahpeton in 
the southeast, multi-county agency to coordinate with Sisseton 
Wahpeton of the Lake Traverse Reservation.
    The other thing that is important is to re-establish and 
expand the Native American Drug Task Force in Belcourt. This 
unit historically has existed at various times, depending on 
manpower and tribal involvement. This unit should be 
coordinated as a State task force to ensure State, local and 
tribal involvement is maintained and an executive board created 
to ensure that oversight. And then also reestablish the FBI 
Safe Trails Task Force Initiative to coordinate tribal 
narcotics efforts to existing State task forces.
    These are all very important. I want to emphasize that we 
work very closely with an over-stretched Federal law 
enforcement community. That is why it is extremely important 
that we have the efforts from the Federal level to work 
together with our State and local law enforcement agencies.
    I want to say this. When I talk to my counterparts across 
the Country who have law enforcement authority within their 
State, I think it is fair to say that our relationship with our 
local, our State and our Federal law enforcement agencies is 
better than anywhere else. The problem is there just aren't 
enough of them on the Federal level. I hope that that is 
something you would be able to address.
    Thank you for taking the time to come here and listen to 
this. Thank you, everybody, also, in the audience, who are 
here. We on the State level and certainly from criminal 
investigation, look forward to continuing the work with all of 
you as we deal with a common issue, and that is the pervasive 
drug problem in North Dakota.
    [The prepared statement of Mr. Stenehjem follows:]

Prepared Statement of Hon. Wayne Stenehjem, Attorney General, State of 
                              North Dakota
1. ND Human Trafficking Task Force (NDHTTF)
    As field experiences have shown, there is a very strong relation 
between narcotics trafficking and human trafficking crimes. The Human 
Trafficking task force was established under a cooperative grant 
between the United States Attorney's Office (USAO), the North Dakota 
Bureau of Criminal Investigation (NDBCI), and the ND Council on Abused 
Women's Services (ND CAWS). The task force has focused on tribal 
relations, forming a subcommittee on Indian Affairs. The committee's 
Executive Board was expanded to include Sandra Bercier of the First 
Nations Women's Alliance of Devils Lake, ND.
2. ND Internet Crimes Against Children (ND ICAC)
    BCI is the statewide coordinator of the Bureau of Justice 
Assistance's (BJA) ICAC program. The ICAC program has expanded to 
multiple municipal, county, state and federal agencies to expand ICAC 
response through affiliate involvement. The ICAC initiative has worked 
with tribal jurisdictions to offer ICAC training and make tribal and 
federal jurisdictions ICAC affiliate agencies. ICAC has also 
disseminated DVDs containing Cyber Safety information and NetSmartz 
tools, aimed at educating children on appropriate Internet use and 
online safety practices.
    The ICAC initiatives continue to support narcotics investigations 
on both State and Tribal lands as various records for narcotics 
investigations are retained and disseminated on electronic media.
3. 24/7 Sobriety Program
    BCI is the statewide coordinator of the state's 24/7 Sobriety 
Program. Participants on the 24/7 program are commonly suffering from 
addictions to alcohol and illegal and illicit drugs.
    BCI has been working with the Standing Rock Sioux Tribe on a tribal 
pilot program based on the 24/7 sobriety program. BCI has donated 
several preliminary breath test (PBT) devices along with (10) SCRAM 
bracelets for transdermal testing to Standing Rock to begin the 
program. BCI is in negotiations with the Mandan Hidatsa Arikara (MHA) 
Nation to introduce 24/7 gear to the Three Affiliated Tribes (TAT).
4. Metro Area Narcotics Task Force (MANTF)
    The MANTF is a multi-jurisdictional drug task force coordinated out 
of the Bismarck BCI field office. The MANTF has historically been the 
only task force in ND that was designated as a Federal Bureau of 
Investigation (FBI) Safe Trails Task Force (approximately 2005-2008). 
MANTF has continued to involve the Bureau of Indian Affairs (BIA) as a 
participating partner and has had a BIA special agent assigned to the 
MANTF since approximately 2005. The primary function of this 
specialized unit is the enforcement of drug laws across the entire 
state, including on Tribal lands.
    This relationship has led to productive narcotics investigations 
and the identification of multiple drug trafficking organizations 
(DTO's) on and off tribal lands. BIA is planning on placing two BIA 
special agents at the MANTF.
5. Lake Region Narcotics Task Force (LRNTF)
    The multi-jurisdictional drug task force is coordinated out of the 
Devils Lake BCI field office. The task force has worked with BIA and 
the Spirit Lake Tribe for approximately 20 years, and BIA special 
agents have been assigned to the task force. The task force conducts 
investigations to identify, disrupt and dismantle drug trafficking 
organizations operating on state and tribal lands.
6. Midwest High Intensity Drug Trafficking Areas (HIDTA) Program
    BCI is the state coordinator for the Midwest HIDTA program through 
the Office of National Drug Control Policy (ONDCP). Through Midwest 
HIDTA, NDBCI has received $30,000 in grant funds to allocate to tribal 
narcotics investigations. BCI has coordinated with the MHA Department 
of Public Safety and has plans to provide the grant funds for agent 
overtime and narcotics buy funds for the MHA Drug Enforcement, to 
assist in the efforts to detect, disrupt and dismantle tribal drug 
trafficking organizations. BCI hopes to be able to apply for continued 
allocated grant funds in coming years.
7. State and Tribal Protection Orders
    This office is currently working on a statewide program that will 
allow state and tribal protection orders to be shared and enforced in 
both State and Tribal courts. This shared database system is a landmark 
initiative that will protect tribal and state victims of domestic 
violence, regardless of the jurisdiction of the victim.
8. Sex Offender Registration
    This office, through the BCI's Sex Offender Registration Division, 
works with tribal agencies to identify, classify and monitor 
individuals convicted of a sexual offense or crimes against children. 
Various tribal nations have worked on their tribal laws to mirror the 
numerous offenses already established in the state law. BCI works with 
tribal sex offender registration groups to share current State tracking 
tactics, offender assessment tools (ND Sex Offender Registration 
Assessment Committee--SORAC) and offender databases (such as the Tribal 
Sex Offender Registration (TSOR) program related to compliance with the 
Sex Offender Registration Notification Act (SORNA).

    9. Through current ND Century Code (12-60) NDBCI is assigned to be 
proactive in narcotic's investigations and reactive in criminal 
investigations. This legislative authority has allowed NDBCI to 
participate in/oversee (10) Multi-jurisdictional Drug Task Forces 
across the State. NDBCI assists all five designated tribes and their 
law enforcement agencies with any narcotics and criminal investigations 
requested. NDBCI continues to work to maintain and expand upon the 
professional relationships the NDOAG has with all Tribal governments.

    10. My office has been working with Representative Ruth Buffalo in 
support of two bills she introduced this legislative session, relating 
to missing and murdered indigenous people. The bills seek to provide 
assistance and tools for use by state, local, federal, and tribal 
efforts in these multijurisdictional investigations.

    House Bill 1311 authorizes the Attorney General's Human Trafficking 
Commission to provide training to state's attorneys, the ND POST Board 
and state and local law enforcement agencies addressing the unique 
aspects of these investigations. That bill passed the House last month 
and is scheduled for a senate committee hearing today (March 20).
    House Bill 1313 seeks to fill a void by authorizing my office to 
create and implement a statewide repository for state, local, and 
tribal law enforcement agencies to enter demographic information about 
missing persons. The bill passed the House last month and the Senate 
committee heard the bill yesterday morning (March 19).
Recommendations for continued narcotics success for Tribal Governments
    1.  BIA could assign special agents to NDBCI's established local 
task forces. With the geography of the current Tribal Nations within 
the State, BIA criminal investigators could be placed at the following 
units:

         a. Bismarck: Metro Area Narcotics Task Force (currently slated 
        for (2) BIA Criminal Investigators). Coordinate with Standing 
        Rock Sioux Nation.

         b. Minot: Ward County Narcotics Task Force. Coordinate with 
        the MHA Nation and Turtle Mountain Indian Reservation.

         c. Washburn: South Sakakawean Narcotics Task Force. Coordinate 
        with the MHA Nation.

         d. Williston: Williams County Narcotics Task Force. Coordinate 
        with Trenton Tribal Lands.

         e. Devils Lake: Lake Region Narcotics Task Force. Coordinate 
        with Spirit Lake Nation and Turtle Mountain Indian Reservation.

         f. Grand Forks: Grand Forks Narcotics Task Force. Coordinate 
        with Spirit Lake Sioux Nation.

         g. Wahpeton: South East Multi-County Agency (SEMCA) Task 
        Force. Coordinate with the Sisseton Wahpeton Oyate of the Lake 
        Traverse Reservation.

    2.  Reestablish and expand the Native American Drug Task Force in 
Belcourt. This unit historically has existed at various times, 
depending on manpower and Tribal involvement. This unit should be 
coordinated as a State Drug Task Force to ensure State, Local and 
Tribal involvement is maintained, and an Executive Board would be 
created to ensure this oversight. This would require the funding of an 
NDBCI agent to act at the Task Force Coordinator or Assistant Task 
Force Coordinator of the unit.

    3.  Reestablish a FBI Safe Trails Task Force Initiative to 
coordinate tribal narcotics efforts through existing state task forces. 
This role would be administrative in nature and could consist of one 
FBI agent coordinating Tribal narcotics efforts and acting as the State 
Coordinator of Tribal investigative efforts. This person would work 
directly with the State Task Force Coordinators and the BIA 
representatives assigned to those task forces. A previous attempt at an 
FBI Safe Trails Task Force Initiative in ND (MANTF in Bismarck from 
2005 to 2008) stalled because of limited investigative resources and 
personnel, which also reduced the geographic scope of operational 
responses. To overcome these issues, the FBI Safe Trails Initiative 
should offer vehicles and overtime funding to BIA and FBI personnel who 
are assigned to a state task force, which will aid effective responses 
in the areas of Tribal Nations and connection with state task force 
assets.

    The Chairman. Thank you, Attorney General. To both of you, 
thank you for your current work, some of which you detailed 
here. You are absolutely right, both of you, in regard to 
needing more resources. That starts with personnel.
    Today we are going to hear from FBI, DEA, and BIA law 
enforcement. Every single law enforcement agency I know, and 
that extends down to county and city level, too, the sheriff's 
departments and local PD. But across the board, we cannot get 
enough law enforcement officials, whether you are talking about 
BIA, FBI, DEA, Customs and Border Protection. Every single 
agency, we need more people.
    So here we are at this great college for young people 
looking at going into a career of law enforcement. We want to 
encourage them. Because across the board, we need you. So you 
are 100 percent spot on. In our Tribal Law Enforcement Act, one 
of the bills I mentioned earlier at the outset, for example, we 
have provisions that deal with trying to get more BIA law 
enforcement personnel, exactly what both of you talked about. 
That is something that is in the legislation. For example, we 
expedite background checks to try to get them through and 
approved and trained and out in the field.
    This is what I was talking about earlier. You are speaking 
directly to the need and directly to what can make the 
difference, so that when we put this legislation forward, and 
they look at the record, you now have just said, this is why we 
need these things passed. That is exactly what we are talking 
about. Same thing with the coordination we talked about on 
these task forces, making sure that we have the jurisdiction 
and the authorizations to do that. So again, right on point. I 
appreciate your testimony here today.
    One other final point I would make in regard to the Spirit 
Lake bill, we are working with, of course, Mr. Scott Davis on 
that piece of legislation. You probably knew, he is already on 
top of it. I think that is something that he can get done.
    Again, that is why your testimony is so important, why we 
appreciate so much your being here. I would ask Senator Cramer, 
are there any closing comments for these witnesses before we go 
to our next panel?
    Senator Cramer. I really don't have anything, but it 
prompted a couple of questions for future witnesses. So thank 
you.
    The Chairman. Again, thank you.
    [Applause.]
    The Chairman. That couldn't have been better. That was spot 
on. That is exactly what we need.
    All right, we will call our hearing back into session and 
hear from our second panel. Second panel, we will hear from Ms. 
Jill Sanborn, Special Agent in Charge, Federal Bureau of 
Investigation, U.S. Department of Justice, Minneapolis, 
Minnesota. We will also hear from Mr. Richard Salter, Special 
Agent in Charge, Drug Enforcement Administration, U.S. 
Department of Justice, from Omaha, Nebraska. And from Mr. 
Charles Addington, Deputy Bureau Director, Office of Justice 
Services, Bureau of Indian Affairs, U.S. Department of the 
Interior, Washington, D.C.
    We thank all three of you very much for being here. We 
appreciate the testimony today. We particularly appreciate the 
incredibly important work that you do and the difference that 
you make. So with that, we will begin with Ms. Sanborn.

  STATEMENT OF JILL SANBORN, SPECIAL AGENT IN CHARGE, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Ms. Sanborn. Good morning, Chairman Hoeven, Senator Cramer, 
Representative Armstrong, partners and community members.
    I appreciate the opportunity to appear before you today to 
discuss the FBI's ongoing efforts with our partners in 
protecting our Indian Country communities. Today I will 
highlight the FBI's role in Indian Country, specifically here 
in the Dakotas and northern Minnesota.
    I am grateful for the opportunity to discuss with you the 
FBI's investigative role in Indian Country and how we 
accomplish our mission. Most importantly, I hope to convey to 
you and your constituents the FBI's ongoing commitment to 
keeping our communities safe, especially our Indian Country 
communities.
    Let me begin by acknowledging our tribal enforcement 
partners. The majority of crimes investigated and prosecuted in 
tribal communities continues to be handled in tribal justice 
systems. Tribal systems hold criminals accountable, protect 
victims and provide prevention programs.
    The FBI's highest Indian Country criminal priorities focus 
on crimes of violence, including homicide, child sexual and 
physical abuse, sexual abuse of adults and violent assault. 
These priority investigations account for approximately 80 
percent of all of FBI investigations in Indian Country.
    In the Dakotas, our primary investigative focus is 
homicide, followed by sexual assault and other violent 
assaults. That said, some of our toughest cases involve the 
physical and sexual abuse of children. Those cases make up 40 
percent of our investigative cases, yet require 80 percent of 
the investigative agent's time.
    Additionally, crime related to gangs and drugs is an 
increasing concern for the FBI. The FBI devotes significant 
resources to Indian Country. The FBI's national Indian Country 
program includes more than 140 special agents, 40 victim 
specialists and 36 field officers. In fact, one-third of the 
FBI's victim specialists and half of the FBI's child-adolescent 
forensic interviewers work directly with victims and families 
in Indian Country.
    In the Minneapolis Division, we have gone so far as to 
place one of the assistant special agents in charge in the 
Rapid City resident agency to oversee our Indian Country 
investigations. Nearly 30 percent of the investigative agents 
in the Minneapolis Division work Indian Country matters. Those 
agents account for nearly 70 percent, 70 percent of our 
division's total violent crime arrests.
    The FBI is committed to making sure each agent has the 
tools and ability to effectively investigate crimes that occur 
within Indian Country. The Minneapolis Division also offers 11 
victim specialists to serve communities in Indian Country. That 
number represents 25 percent of the total number of victim 
specialists assigned to Indian Country nationwide.
    Our Indian Country agents are not only specially trained, 
but they live here, too. They are committed at the community 
level to keeping our communities safe.
    In addition to our investigative resources, the FBI has 
leveraged considerable intelligence collection and analytical 
capabilities in support of our Indian Country efforts. This 
past summer, FBI Minneapolis hosted an inaugural Indian Country 
criminal intelligence summit. This summit brought together FBI 
Indian Country analysts and operational specialists from across 
the Country who are focused on criminal threats in Indian 
Country.
    Although often difficult to predict and prevent criminal 
behavior, we can continue to develop new and valuable ways to 
use intelligence assets to not only support our ongoing cases 
but attempt to identify emerging trends in our reservation 
communities. We are fully aware that the FBI cannot accomplish 
our mission alone. We share it with our BIA, DEA, State, and 
tribal partners across the United States to deliver quality law 
enforcement service. We remain fully committed to our role in 
Indian Country and to our partnerships.
    Due to the unduly high volume of violent crimes with Indian 
Country, our partnerships are critical. Our partners provide 
substantial assistance in intelligence on every case. While we 
have agents assigned and on duty every day of the year in our 
resident agencies, it is very important to point out that the 
FBI often responds to crimes within Indian Country only after 
receiving notification from our well-established tribal and BIA 
partners.
    Our agents, BIA partners, and tribal police work hand in 
hand to process crime scenes, collect evidence, ensure victim 
safety, conduct interviews and locate suspects. Partnerships 
are paramount in protecting tribal communities.
    As my colleagues at the DEA can attest, the growing and 
evolving threat of opioids and other dangerous drugs presents 
great challenges to law enforcement. To combat this threat, the 
FBI has established 18 Safe Trails task forces nationwide to 
concentrate on drug crimes in and around our reservation 
communities. In the Minneapolis Division, we have three Safe 
Trails task forces, one in Minnesota, one in North Dakota and 
one in South Dakota, that provide a significant presence in the 
fight against drug and violent crime offenders.
    Our task force efforts have had great success. In fact, 
here in North Dakota, we are expanding our task force efforts.
    In summary, the FBI remains fully committed to working with 
its partners at all levels to keep our Indian Country 
communities safe. We look forward to continuing the important 
work, and we completely appreciate the support of this 
Committee.
    In conclusion, the FBI is focused on battling Indian 
Country crime in this region with a common shared goal of our 
partners, to build safe tribal communities and keep them free 
of illegal and dangerous drugs. Thank you for the opportunity 
to appear before you today. I look forward to answering any 
questions that the Committee might have.
    [The prepared statement of Ms. Sanborn follows:]

 Prepared Statement of Jill Sanborn, Special Agent In Charge, Federal 
          Bureau of Investigation, U.S. Department of Justice
    Good morning Chairman Hoeven, Senator Cramer, and Representative 
Armstrong. I appreciate the opportunity to appear before you today to 
discuss the Federal Bureau of Investigation's (FBI) ongoing efforts to 
support our partners in federal, state, local, and tribal law 
enforcement. Today, I will highlight the FBI's role in combatting 
violent crime and drug trafficking in Indian Country specifically here 
in the Dakotas and Northern Minnesota. I am grateful for the 
opportunity to discuss with you the FBI's investigative role in Indian 
Country and how we accomplish that mission. I will also share some 
success stories from the field. Most importantly, I hope to convey to 
you and your constituents the FBI's ongoing commitment to keeping our 
communities, especially our Indian Country communities, safe.
    Let me begin by acknowledging our tribal law enforcement partners. 
The majority of criminal offenses committed, investigated, and 
prosecuted in tribal communities continue to be adjudicated in tribal 
justice systems. Through their hard work, tribal law enforcement and 
justice systems hold criminals accountable, protect victims, provide 
prevention programs, and confront precursors to crime such as alcohol 
and substance abuse. These efforts are often in partnership with 
federal agencies or accomplished with support from federal programs and 
federal funding opportunities.
    Our highest Indian Country criminal priorities focus on crimes of 
violence including murder, child sexual and physical abuse, sexual 
abuse of adults, and violent assault. These priority investigations 
represent almost 80 percent of all FBI investigations in Indian 
Country. In the Minneapolis Division, our primary investigative focus 
is homicide followed by sexual assault and other violent assaults. That 
said, some of our toughest cases involve physical and sexual abuse of 
children. Those cases comprise 40 percent of our investigations, yet 
require 80 percent of our agents' investigative time. Additionally, 
crime related to gangs and drugs is an increasing concern in our 
reservation communities.
    In addition to investigations, the FBI also offers substantial 
training resources to our agents and law enforcement partners. The FBI 
provides a comprehensive training program that includes intermediate 
and advanced classes on various topics related to the investigation of 
crimes in Indian Country. Many of these trainings are open to tribal 
law enforcement officers, Safe Trails Task Force officers and Bureau of 
Indian Affairs, Office of Justice Services (BIA-OJS) officers and 
agents. These courses are designed to support Indian Country agents in 
the field and to develop and implement strategies to address the most 
egregious crimes committed in Indian Country. Additionally, the FBI's 
partnership with the Department of Justice's National Indian Country 
Training Initiative has hosted more than 15 courses specific to Indian 
Country crime over the last several years.
    In order to accomplish our mission and support our law enforcement 
partners, the FBI devotes significant resources to Indian Country. The 
FBI's Indian Country program includes more than 140 Special Agents (SA) 
and 40 Victim Specialists (VS) in 36 Field Offices. Indeed, one third 
of the FBI's Victim Specialists and half of the FBI's Child and 
Adolescent Forensic Interviewers (CAFIs) work directly with victims and 
families in Indian Country. In the Minneapolis Division, we have 
assigned one of our four Assistant Special Agents in Charge to the 
Rapid City resident agency to oversee Indian Country criminal 
investigations. Nearly 30 percent of the agents assigned to the 
Minneapolis Division are assigned to work Indian Country criminal 
matters. Indian Country agents in our division typically come to the 
Bureau with substantial prior law enforcement experience and each agent 
assigned to Indian Country attends a specialized, intensive training 
course for FBI and BIA agents in Artesia, New Mexico. The FBI is 
committed to making sure each agent has the tools and ability to 
effectively investigate crimes that occur within Indian Country. The 
Minneapolis Division also offers 11 Victim Specialists to serve 
communities in Indian Country--that number represents 25 percent of the 
total number of Victim Specialists employed in Indian Country 
nationwide. Our Indian Country agents are specially trained and live in 
the Dakotas and Northern Minnesota. They are part of the communities we 
are committed to keeping safe.
    In addition to our investigative resources, the FBI has leveraged 
considerable intelligence collection and analytical capabilities in 
support of our Indian Country efforts. This past summer, FBI 
Minneapolis hosted an Indian Country criminal intelligence summit. This 
first of its kind event brought together FBI Indian Country analysts 
and operations specialists from across the country focused on criminal 
threats in Indian Country. Recognizing the challenges posed to law 
enforcement efforts in predicting and preventing criminal behavior, we 
continue to develop new and valuable ways to use our intelligence 
assets to identify emerging criminal trends in our reservation 
communities.
    The FBI cannot accomplish this mission alone. We share it with our 
BIA, Drug Enforcement Administration (DEA), and state and tribal 
partners across the United States to deliver quality law enforcement 
service. We remain fully committed to our unique role in Indian Country 
and to our partnerships with other federal, state, local, and tribal 
law enforcement agencies. Our partnerships with the BIA-OJS, DEA, and 
state and tribal law enforcement are critical in resolving the unduly 
high volume of violent crimes and death investigations within Indian 
Country. While we have agents assigned and on-duty 365 days a year at 
each of our resident agencies, we often respond to crime scenes within 
Indian Country only after receiving notification from our tribal and 
BIA-OJS partners. Our agents, BIA partners and tribal police work hand 
in hand to process crime scenes, collect evidence, ensure victim 
safety, conduct interviews and locate suspects. The cooperation between 
the FBI, BIA-OJS, and tribal law enforcement is paramount to solving 
crime and protecting tribal communities.
    As my colleagues at DEA can attest, the growing and ever evolving 
threat of opioids and other dangerous drugs presents great challenges 
to law enforcement in our reservation communities. To combat this 
threat, the FBI has established 18 Safe Trails Task Forces (STTFs) 
nationwide focused on drug crimes in and around our reservation 
communities. In the Minneapolis Division, we have three STTFs, located 
in Minnesota, North Dakota, and South Dakota, with approximately 30 
full-time Task Force Officers (TFOs) who provide a significant force 
multiplier in the fight against drug and violent crime offenses.
    We continue to evolve our efforts and supplement resources to meet 
new law enforcement challenges. We recognized the need to surge 
personnel in order to confront the growth of drug distribution networks 
in the Bakken region of Western North Dakota. As a result, in 2015, FBI 
Minneapolis opened the Williston Resident Agency, the first new FBI 
office established in over 20 years. Just last year, the Minneapolis 
Division enhanced our STTF in North Dakota to continue those efforts. 
In the coming year, the FBI hopes to add other STTFs, and to increase 
the number of county, state, tribal, and federal officers nationwide. 
Our task force efforts have had great success and we continue to devote 
expanding resources to address violent crime and drug trafficking on 
our reservations.
    While we are always looking for better ways to address criminal 
threats and safety concerns in our reservation communities, we can also 
point to some remarkable success. The Minneapolis Division currently 
has nearly 700 pending cases in Indian Country communities. In 2018 
alone, the division opened 572 new cases and made nearly 400 arrests. 
We are actively investigating 162 pending Controlled Substance Act 
cases in Indian Country in the Minneapolis Division alone. Eighty-nine 
(89) of those cases were opened in 2018, and we arrested 15 subjects in 
those cases last year.
    The numbers alone tell only part of the story, however. In 2014, 
FBI Minneapolis, the Rosebud Sioux Tribal Police, BIA and DEA began an 
investigation of a growing methamphetamine epidemic on the Rosebud 
Sioux Tribal Reservation. During the course of the investigation, the 
FBI and its partners uncovered a large scale drug trafficking operation 
responsible for bringing several pounds of meth per week to the 
reservation. This deadly drug arrived from locations as near as Rapid 
City and from as far as Denver, Houston, and Phoenix. After more than 3 
years of complex investigation, our investigative team identified and 
convicted 9 major drug dealers with sentences ranging from 10 to 15 
years.
    In 2015, FBI Minneapolis, the Cheyenne River Sioux Tribal Police 
and other tribal, state, and federal law enforcement partners 
identified yet another large scale methamphetamine trafficking 
operation on the Cheyenne River Sioux Tribe Reservation. In that case, 
the primary source of narcotics sold between $30,000 and $50,000 of 
meth per month. This multi-year joint investigation led to the 
conviction of 8 drug traffickers resulting in sentences ranging from 3 
to 13 years.
    Just last month, a North Dakota Federal Judge sentenced two Spirit 
Lake men for the murder of Carla Yellowbird. Carla was 27 years old in 
2016, when she and a friend drove from Mandan, North Dakota to the 
Spirit Lake Reservation. Though she made the trip intending only to 
sell drugs, the transaction turned violent. Unbeknownst to Carla, she 
had become the target of a robbery plot. During the robbery, Carla was 
shot once and died immediately, her body dragged off and hidden in the 
brush. With the cooperation of our law enforcement partners, and 
through dogged investigation, we uncovered the full nature of the 
conspiracy that led to the murder and were able to find justice on 
behalf the community. Carla's case illustrates the very real danger 
that drug trafficking presents to our reservation communities and the 
devastating effect of the associated violence. Each of these examples 
illustrates the FBI's strength in conducting large scale 
investigations, leveraging successful law enforcement partnerships, and 
combatting dangerous drug trafficking operations in Indian Country.
    In summary, the FBI remains fully committed to working with its 
partners at all levels on the issues raised in this hearing today. We 
look forward to continuing this important work and appreciate the 
support of this committee. In conclusion and to be clear--the FBI is 
focused on battling Indian Country crime in this region with a common 
goal shared among our partners--to build safe tribal communities and 
keep them free of illegal and dangerous drugs. Thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions.

    The Chairman. Thank you, Ms. Sanborn. Mr. Salter.

  STATEMENT OF RICHARD SALTER, SPECIAL AGENT IN CHARGE, DRUG 
               ENFORCEMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Salter. Good morning, Chairman Hoeven, Senator Cramer 
and Representative Armstrong. Thank you for the opportunity to 
appear before you today to discuss DEA's efforts and challenges 
in combating drug trafficking organizations supplying North 
Dakota's Native American communities. DEA works in 
collaboration with our Federal, State, local and tribal law 
enforcement counterparts wherever and whenever possible 
throughout your State.
    Drug abuse, addiction and the violence associated with it 
is a complex social problem, and identifying and prosecuting 
those responsible is most successful when law enforcement 
combines our collective resources. Illicit drugs and criminal 
organizations that traffic them continue to represent 
significant threats to public health, law enforcement and 
national security in the United States.
    Drug overdose deaths are the leading cause of injury death 
in the United States and are currently at their highest ever-
reported levels. In 2017, approximately 192 people died every 
day from drug overdoses. The opioid threat, which includes 
controlled prescription drugs, synthetic opioids, and heroin 
has reached epidemic levels. Meanwhile, as the ongoing opioids 
crisis justly receives national attention, other threats 
continue to evolve and re-emerge. The methamphetamine threat 
remains prevalent, the cocaine threat is rebounding, and a new 
synthetic psychoactive substance of synthetic drugs continue to 
emerge and enter the illicit U.S. drug market.
    DEA's mission is to identify and dismantle the world's most 
significant foreign and domestic drug traffic organizations 
that are ultimately responsible for the poisoning of our 
communities for profit. To that end, we work closely with our 
domestic and international counterparts to collaborate on 
training efforts as well as intelligence and resource sharing.
    At the core of DEA's success is our task force-centric 
organizational structure, which allows our agents to work in 
close partnership with other law enforcement elements on a 
daily basis, especially the areas such as North Dakota, where 
manpower resources are limited. These multiagency drug task 
forces facilitate intelligence sharing and serve as force 
multipliers for all task force agencies.
    The vast majority of drugs seized in North Dakota originate 
outside of the State. A majority of seized methamphetamine and 
fentanyl laced heroin by North Dakota law enforcement 
originates in Mexico and is smuggled through the southwest 
border by Mexican drug cartels. Once in the United States, the 
drugs are repackaged for interstate transportation and supplied 
to North Dakota-based drug trafficking organizations.
    Pharmaceutical and counterfeit painkillers and heroin 
comprise the majority of illegal opioid use in North Dakota. 
While prescription drug abuse has increased significantly, 
prescription rates have been reduced by the medical community, 
which has resulted in a supply deficit of the diverted 
pharmaceutical opioids. Mexican cartels have responded by 
manufacturing illicit counterfeit opioids that are visually 
indistinguishable from pharmaceutical opioids.
    These drugs are being smuggled into the United States with 
cocaine, heroin and methamphetamine shipments. These 
counterfeit opioids and heroin containing fentanyl and other 
powerful synthetic opioids in illegal dosages as compared to 
the legitimate pharmaceutical opioids. Unfortunately, the 
consumption of counterfeit opioids pills can have tragic 
consequences for the unwitting users, often leading to overdose 
and/or death.
    DEA's presence in North Dakota consists of our Fargo 
resident office and Bismarck post of duty, both of which have a 
combined force of five special agents and eight federally-
deputized State and local task force officers. Over the past 
ten months, DEA's efforts in coordination with the North Dakota 
U.S. Attorney's office, the Bureau of Indian Affairs, MHA Three 
Affiliated Tribes Task Force, and the North Dakota Bureau of 
Criminal Investigation has resulted in six very successful 
investigations, targeting methamphetamine and fentanyl laced 
heroin drug trafficking cells responsible for supplying several 
of the tribal reservations in North Dakota. These 
investigations were successful in tracking the supply chains of 
six North Dakota trafficking cells to their ultimate wholesale 
sources of supply in California, Arizona, Las Vegas and New 
Mexico. These cases are all in various stages of prosecution 
and/or pending prosecution before the North Dakota U.S. 
Attorney's office.
    In conclusion, as Federal, State, and tribal law 
enforcement partners continue to combat drug trafficking 
organizations, the clear and present dangers of 
methamphetamines, synthetic opioids, heroin and the recent 
resurgence of cocaine will continue to plague and cause harm to 
our communities. Tribal lands with international borders are 
also of significant concern, as DTOs will continue to exploit 
weaknesses in the integrity of the U.S. international borders.
    As such, DEA is committed to enhancing the government-to-
government relationships that exist between this Nation's 
tribes and Federal government. We respect tribal government 
authority to exercise their inherent sovereign powers, and we 
will continue to find areas of mutual collaboration that will 
enhance the enforcement of our Nation's drug laws and protect 
the health and safety of the public.
    Thank you again for the opportunity to appear before the 
North Dakota delegation today. I look forward to answering your 
questions.
    [The prepared statement of Mr. Salter follows:]

  Prepared Statement of Richard Salter, Special Agent In Charge, Drug 
         Enforcement Administration, U.S. Department of Justice
    Chairman Hoeven, Senator Cramer, and Representative Armstrong: on 
behalf of the Department of Justice (Department), and in particular the 
approximately 9,000 employees of the Drug Enforcement Administration 
(DEA), thank you for the opportunity to appear before you today to 
discuss DEA's efforts and challenges in collaboration with tribal 
communities in our law enforcement activities.
    Illicit drugs, as well as the transnational and domestic criminal 
organizations that traffic them, continue to represent significant 
threats to public health, law enforcement, and national security in the 
United States. Drug overdose deaths are the leading cause of injury 
death in the U.S. and are currently at one of their highest-ever 
recorded levels. Every year since 2011, drug overdose deaths have 
outnumbered deaths by firearms, motor vehicle crashes, suicide, and 
homicide. In 2017, approximately 192 people died every day from drug 
overdoses. \1\ The opioid threat (controlled prescription drugs, 
synthetic opioids, and heroin) has reached epidemic levels in the U.S., 
affecting large portions of the population. Meanwhile, as the ongoing 
opioid crisis justly receives national attention, other threats are 
developing in the background. The methamphetamine threat remains 
prevalent; the cocaine threat has rebounded; New Psychoactive 
Substances (NPS) are still a challenge; and the domestic marijuana 
situation continues to evolve.
---------------------------------------------------------------------------
    \1\ https://www.dea.gov/documents/2018/10/02/2018-national-drug-
threat-assessment-ndta
---------------------------------------------------------------------------
    Our mission is to identify, investigate, disrupt, and dismantle the 
world's most significant drug trafficking organizations responsible for 
the production and distribution of illegal drugs. To that end, we work 
closely with our Tribal, local, state, federal, and international 
counterparts by following the evidence wherever it leads.
North Dakota Drug Statistics and Information
    North Dakota State and Local Intelligence Center (NDSLIC) assesses 
with high confidence that illegal drugs continue to pose a high threat 
to North Dakota. Marijuana continues to be the most seized drug in the 
state, followed by methamphetamine.\2\ Additionally, record amounts of 
both marijuana and methamphetamine were seized within the state in 
2017. The majority of the seizures within the state were the results of 
traffic stops on vehicles traveling through the state enroute to 
Minnesota. \3\
---------------------------------------------------------------------------
    \2\<SUP>,\3\</SUP> North Dakota State and Local Intelligence Center 
``North Dakota Drug Threat Assessment'' (July 2018)
---------------------------------------------------------------------------
    The NDSLIC also assesses with high confidence that the price of 
illegal drugs sold in North Dakota is considerably higher than the 
traffickers' home states, which makes the risk of bringing drugs to 
North Dakota and maintaining a criminal network in-state a worthwhile 
gamble. \4\ Members of Mexican Transnational Criminal Organizations 
(TCOs), Outlaw Motorcycle Gangs (OMGs), and U.S.-based street gangs 
have relocated to North Dakota in order to take advantage of these 
elevated profits, and will likely increase their efforts to expand 
their share of the illegal drug market within the state.
    According to the NDSLIC, drugs seized in North Dakota are primarily 
grown or manufactured outside of the state and trafficked into each 
county. The majority of seized marijuana within the state was grown in 
California, Colorado, Washington, or Oregon and destined for Minnesota. 
Likewise, the majority of seized methamphetamine and heroin originated 
in Mexico and was smuggled into California by Mexican TCOs. The drugs 
were then divided into smaller shipments by California street gangs and 
transported to North Dakota. \5\
    Pain killers comprise the majority of illegal prescription pill 
abuse in North Dakota and are usually taken orally, or, to a lesser 
extent, smoked in a pipe or heated on aluminum foil and smoked. 
Although it is difficult for law enforcement to estimate the number of 
illegal prescription pills diverted from legitimate sources, the 
majority of diverted pills are likely thefts from legitimate ultimate 
users in small numbers. \6\ As controlled prescription drug (CPDs) 
abuse has increased significantly, a supply deficit has resulted. 
Traffickers are now disguising illicit opioids as CPDs in attempts to 
gain access to new users by manufacturing counterfeit pills. The 
counterfeit pills often closely resemble legitimate pills and contain 
fentanyl and fentanyl related substances and are then moved into the 
illicit U.S. market, to meet the epidemic proportionate demand for 
prescription opioids. Unfortunately, the consumption of counterfeit 
pills can have drastic consequences for the user easily leading to 
overdose or death. Determining if one of these fentanyl-laced 
counterfeit prescription pills contains fentanyl based on sight alone 
is impossible; the presence of fentanyl can only be detected upon 
laboratory testing.
    North Dakota's overdose related deaths in 2017 showed a slight 
decline. According to the Centers for Disease Control and Prevention 
(CDC), North Dakota reported 68 overdose deaths in 2017 compared to 77 
in 2016. \7\ However, this statistic does not tell the whole story 
because some police departments within the state have actually seen an 
increase in overdose deaths. For example the Grand Forks Police 
Department reported 32 opioid overdoes in 2017 resulting in 4 deaths, 
which is an increase from 28 overdoses in 2016, which led to 3 deaths. 
\8\
---------------------------------------------------------------------------
    \7\ CDC ``Drug Overdose Deaths'' https://www.cdc.gov/drugoverdose/
data/statedeaths.html
    \4\<SUP>,\5\</SUP><SUP>,\6\</SUP><SUP>,\8\</SUP> North Dakota State 
and Local Intelligence Center ``North Dakota Drug Threat Assessment'' 
(July 2018)
---------------------------------------------------------------------------
DEA Tribal Collaboration in Drug Enforcement Efforts
    DEA is committed to working with the American Indian and Alaskan 
Native Communities. We recognize that each Tribe's history and culture 
is unique and a solution that works for one Tribe may not be suitable 
for another. DEA acknowledges the various traditional cultural 
practices of each Tribe and is sensitive to the need for effective 
cross-cultural communication. DEA is committed to helping protect all 
Native Americans from illicit drugs and the crimes that follow drug 
trafficking. Collaboration between federal law enforcement and Tribal 
Nations is vital to protecting citizens of both domestic nations. \9\
    DEA supports the Tribes' efforts to build innovative approaches to 
law enforcement, public safety, and victim services. We work to 
facilitate communication and build relationships among our federal 
partners that are engaged with Tribal governments to promote the 
sharing of federal resources and expertise. \10\
---------------------------------------------------------------------------
    \9\<SUP>,\10\</SUP> Office of the Attorney General ``Attorney 
General Guidelines Stating Principals for Working With Federally 
Recognized Indian Tribes'' Federal Register Vol. 79, No. 239 (December 
2014)
---------------------------------------------------------------------------
    DEA currently has two headquarters liaisons assigned to Indian 
Country who coordinate with the Bureau of Indian Affairs (BIA) 
frequently on all drug-related matters. DEA also frequently 
communicates with the BIA--Office of Justice Services Deputy Bureau 
Director, Mr. Charles Addington, to coordinate and collaborate on drug 
investigations. DEA's Regional and Local Impact Section (DEA/OGR) has 
assisted in bringing together DEA, the Federal Bureau of Investigations 
(FBI), and BIA Agents to coordinate drug investigations in DEA's area 
of responsibility. DEA/OGR has an outstanding relationship with Mr. 
Addington and his BIA staff. Also, members of DEA/OGR have attended 
several meetings for the Indian Country Federal Law Enforcement 
Coordination Group (ICFLECG) as DEA's liaisons, and have briefed senior 
level executives from various federal agencies on Tribal matters.
    The Department and DEA components regularly conduct Tribal Land 
trainings for staff. These trainings range from investigative and 
prosecutorial techniques to law enforcement collaboration and cultural 
sensitivity. The next training is scheduled for May 7, 2019 and is 
titled, ``Collaborative Drug Enforcement in Indian Country--
Investigative and Practical Techniques.'' Also, DEA attended the 
December 19, 2018 meeting/seminar entitled ``Strengthening Government 
to Government Partnerships and Relationships'' hosted by the North 
Dakota Indian Affairs Commission. The emphasis of this seminar was 
taking a ``team approach'' in our collaborative activities.
    DEA has also worked with Tribal Nations in implementing DEA's 360 
program in places such as Albuquerque, NM and Flagstaff, AZ. The DEA 
360 Strategy takes an innovative, three-pronged approach to combating 
heroin/opioid abuse through:

        1.  Coordinated law enforcement actions against drug cartels 
        and heroin traffickers in specific communities;

        2.  Diversion Control enforcement actions against DEA 
        registrants operating outside the law and long-term engagement 
        with pharmaceutical drug manufacturers, wholesalers, 
        pharmacies, and practitioners; and

        3.  Community Outreach through local partnerships that empower 
        communities to take back affected neighborhoods after 
        enforcement actions and prevent other Drug Trafficking 
        Organizations from filling the void left by removal of 
        violators.

    DEA's Diversion Control Division (DC) maintains a strong working 
relationship with the Tribal Nations through their collaboration during 
the National Take Back Initiatives (NTBI) that occur biannually 
throughout the United States. Tribal Nations have partnered with DEA 
since the inception of NTBI in 2010. In September 2010, the DEA held 
its first ever National Drug Take Back Day. This initiative addresses a 
vital public safety and public health issue by disposing of unused, 
unwanted, and expired CPDs. The American public turned in more than 
242,000 pounds of prescription drugs for safe and proper disposal. More 
than 4,000 take back sites were available in all 50 states.
    Since 2010, the DEA has held a total of sixteen (16) Take Back Days 
resulting in the collection of 10,878,950 pounds of unused, unwanted, 
and expired medication. Additionally, since 2010, the number of 
collection sites has grown to 5,839 with 4,770 law enforcement 
participants. The most recent National Take Back event held on October 
27, 2018 resulted in DEA collecting and destroying close to one million 
pounds--nearly 457 tons--of potentially dangerous expired, unused, and 
unwanted prescription drugs.
    Prior to the October 2018 NTBI, the DC re-engaged with BIA to re-
focus efforts on increasing Tribal Nation participation in NTBI. By 
partnering with FBI, BIA, and Tribal law enforcement, the DEA was able 
to facilitate greatly expand Tribal participation in the Take Back 
program. DEA remains committed to supporting public safety in American 
Indian and Alaska Native communities. In fact, during the fall of 2018, 
BIA direct-service law enforcement locations resulted in over 1,710 
pounds of unwanted and unused medications collected and disposed of by 
DEA; this is the second largest amount collected by our Tribal partners 
during the National Take Back events.
DEA Challenges on Tribal Lands
    Prescription drug monitoring programs (PDMPs) are state-run 
electronic database systems used by practitioners, pharmacists, medical 
and pharmacy boards, and law enforcement, but access varies according 
to state law. These programs are established through state legislation 
and are tailored to the specific needs of each state. DEA strongly 
champions robust PDMPs and encourages medical professionals to use this 
important tool to detect and prevent doctor shopping and other forms of 
diversion. Currently, all 50 states have an operational PDMP.
    While PDMPs are valuable tools for prescribers, pharmacists, and 
law enforcement agencies to identify, detect, and prevent nonmedical 
prescription drug use and diversion, PDMPs do have some limits in their 
use for detecting diversion at the retail level. For example, drug 
traffickers and drug seekers willingly travel hundreds of miles to gain 
easy access to pain clinics and physicians that are operating 
unscrupulously and outside of the law, making interconnectivity between 
PDMPs vital. As a result, the Office of National Drug Control Policy 
(ONDCP) and the Bureau of Justice Assistance (BJA) currently offer 
assistance for interstate and state-Tribal PDMP linkages. Federal 
partners are working to address the interoperability of PDMPs. Examples 
range from Brandeis University's PDMP Training and Technical Assistance 
Center, funded by BJA, assisting the Indian Health Service (IHS) to 
improve interoperability between IHS, its pharmacies and PDMPs to CDC 
working in states to enhance and maximize PDMPs as a public health and 
clinical tool.
    Law enforcement access to request, view, and utilize PDMP data in 
support of ongoing investigations in a manner that protects personally 
identifiable information is vital. Access to information in support of 
active state, federal, and tribal investigations varies widely from 
state to state, with some states requiring a court order for law 
enforcement to obtain data.
    As DEA along with all of its federal, state, local and Tribal 
partners continue to combat Drug Trafficking Organizations (DTOs), it 
is clear that the resurgence of cocaine and methamphetamine will 
continue to plague our citizens. Areas of Tribal land that have an 
international border are also of concern. DTO's will continue to take 
advantage of weaknesses in the integrity of the United States. It is 
imperative that DEA and its partners continue to work together to 
identify those areas of concern, share law enforcement and intelligence 
information regarding DTO's exploits and dedicate resources to mitigate 
those threats as a team.
Conclusion
    DEA is committed to enhancing the government-to-government 
relationship that exists between this nation's Tribes and the federal 
government. We respect Tribal government authority to exercise their 
inherent sovereign powers and will work to find areas of mutual 
collaboration that will enhance the enforcement of our Nation's drug 
laws and protect the health and safety of the public. Thank you again 
for the opportunity to appear before the North Dakota delegation today. 
I look forward to answering your questions.

    The Chairman. Thank you, Mr. Salter. And now we will turn 
to Mr. Addington.

  STATEMENT OF CHARLES ADDINGTON, DIRECTOR, OFFICE OF JUSTICE 
           SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Addington. Good morning, Chairman Hoeven, Senator 
Cramer, Representative Armstrong. My name is Charles Addington, 
I am the Director for the BIA Office of Justice Services out of 
Washington, D.C. I am pleased to provide a statement on behalf 
of the Department on the topic of keeping dangerous drugs out 
of Indian Country.
    First of all, I want to recognize all of our partners out 
here in the audience and here on this panel, our Federal, 
tribal, and State partners that we deal with on a daily basis. 
We have great working relationships with these agencies, 
because we have to have that partnership to do our job in 
Indian Country with the lack of resources in Indian areas.
    So drug-related activity in Indian Country is a major 
contributor to violent crimes and poses serious health and 
economic hardships on Indian communities. The abuse of 
methamphetamines, heroin, and other illicit drugs continues to 
have devastating effects on tribal families and communities and 
puts a strain on collective efforts to confront this issue.
    The use of illicit drugs that relates to impaired behavior 
that can result in violent and other criminal behavior. In 
fiscal year 2018 alone, BIA tribal law enforcement programs 
reported a 47 percent increase in drug cases, more than a 28 
percent increase in drug-related deaths on the reservations 
throughout the Nation. A 47 percent increase, that we have seen 
every year that are drug-related, and cases continue to go up. 
So the prevalence of drugs in Indian Country continues to be a 
problem.
    Indian Country saw a substantial increase in 
methamphetamine seizures in 2018 and that was one of the 
leading factors that we had a 385 percent surge in overall 
seizures, total [indiscernible] 2018 and were reported to the 
BIA through its BIA and tribal law enforcement programs.
    While methamphetamines continue to be the most prevalent 
drug seized in drug [indiscernible] in Indian Country, our 
field drug agents are also seeing an increase in heroin being 
sold in Indian Country, so we may be [indiscernible] seeing in 
different communities across the Nation.
    An abundance of methamphetamine [indiscernible] distributed 
by drug cartels has led to lower prices and easier access to 
methamphetamines. We have seen a number of heroin seizures in 
2018 that increased by 190 percent in heroin that was seized in 
Indian Country. Crystal methamphetamine seizures went up 342 
percent. [indiscernible] methamphetamine seizures went up 658 
percent. These are large numbers, what we are seeing, seizures 
of drugs in Indian Country. And it continues every year to 
increase.
    Specific types of illicit drugs found in Indian Country 
varies by region, and is largely influenced by what drugs are 
available in larger cities near reservations. Why meth and 
marijuana and methamphetamines [indiscernible] substances since 
we most likely see abuse of prescription drugs and heroin. The 
use has increased in tribal communities.
    It has been our experience with illicit drugs 
[indiscernible] in Indian Country are now [indiscernible] 
active on the reservation, they are trying to [indiscernible] 
get in Indian Country by any [indiscernible] either through 
travel to nearby cities, also numerous border towns to purchase 
drugs, primarily from well-known organized drug trafficking 
organizations. The primary illicit drug trade that is reported 
in the Great Plains region are methamphetamine, marijuana, and 
prescription pills. It has been BIA's experience that the 
majority of the methamphetamine on the reservations in the 
Great Plains region is coming in from neighboring communities 
who have historically been supplied by sources in metropolitan 
areas.
    Just in the month of January 2019, the BIA Office of 
Justice Service made five drug-related arrests during two 
separate incidents on the Standing Rock Reservation, just south 
of our location here. During the first encounter, a BIA officer 
arrested two individuals found in possession of 75 grams of 
methamphetamine, and $7,500 in cash from sales of the drugs on 
the reservation. During the second encounter, the BIA officers 
arrested three individuals found in possession of 96 grams of 
methamphetamine and 240 prescription pills and a large number 
of cash and wire transfer checks. With the reservations lacking 
in resources necessary to proactively address the overall drug 
threat they are experiencing, OJS is engaged in a number of 
wide-reaching, multi-pronged efforts to prevent the spread of 
dangerous drugs in Indian Country.
    The BIA Office of Justice Services has a specialized 
national drug enforcement division specifically designed to 
investigate the distribution of illegal drugs in Indian 
Country. In 2018, the Division of Drug Enforcement was 
comprised of only 28 drug agents stationed throughout the 
Nation, and mostly assigned to Federal, tribal and State drug 
task forces across the Nation. These partnerships allow us to 
employ a force multiplier [indiscernible] to combat illicit 
drugs in Indian Country. In the two areas, tribal law 
enforcement has been assigning officers to these task forces. 
[indiscernible] the number of law enforcement agencies has 
played a significant role in increasing our ability to address 
drug issues in Indian Country. And BIA has a great working 
relationship with our DEA and SCI and tribal and State drug 
task force offices.
    In the beginning of 2018, an intense effort was put forth 
by BIA Division of Drug Enforcement, [indiscernible] State and 
tribal law enforcement and our Federal and State law partners 
to tackle drug trafficking on the reservations. The Department 
of Interior established a DOI opioid task force that 
specifically targeted high traffic drug areas throughout the 
year. BIA successfully led the joint multi-pronged operation, 
which resulted in 372 arrests and the seizure of approximately 
3,287 pounds of illegal narcotics, with an estimated street 
value of approximately $9.8 million.
    BIA has also teamed up with our Federal, tribal and local 
partners to do community outreach about opioid abuse 
[indiscernible]. In 2018, 58 community workers advanced 
throughout Indian Country, reaching over 1,087 community 
participants. The DEA also partnered with Office of Justice 
Services to provide materials that provided awareness to 
educate members of the communities on opioid awareness.
    One other thing that BIA Office of Justice Services did for 
drug enforcement is we implemented a 4-1-1 tip drug app, to 
actually download on your mobile phone, either on iPhones or an 
Android phone, where a user can actually make reports of drug 
activity and actually communicate directly with our drug agents 
through that app, or they can do it anonymously. We have 
implemented that and received a lot of great information from 
community members willing to step forward and help address the 
drug problems on the reservation.
    In conclusion, Mr. Chairman, I want to thank you for the 
opportunity to address the Committee regarding this important 
matter. Although we have implemented some sound measures to 
stop illegal drugs from entering Indian country, we have a lot 
of work ahead of us. The Department will continue to work 
closely with our Federal, tribal and State partners to 
strengthen our effort to battle these illegal drugs and prevent 
further devastation of our Indian Country communities.
    We were able to increase our drug enforcement staff here in 
the region. We have assigned some new staff up here, we have 
some in Turtle Mountain now, we have one at Spirit Lake, a new 
position, a drug enforcement position. We have another here in 
Bismarck we just assigned, that we are going to be filling. We 
also added, I think the [indiscernible] positions 
[indiscernible] in our BIA law enforcement agencies and some of 
our local agencies here in North and South Dakota.
    So with that, I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Addington follows:]

 Prepared Statement of Charles Addington, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall and members of 
the Committee. My name is Charles Addington and I am the Director for 
the Office of Justice Services (OJS) in the Bureau of Indian Affairs 
(BIA) at the Department of the Interior (the Department). I am pleased 
to provide a statement on behalf of the Department on the topic of the 
Committee's oversight hearing focused on keeping dangerous drugs out of 
Indian Country.
Overview
    The BIA has a service population of about 1.9 million American 
Indians and Alaska Natives who belong to 573 federally recognized 
tribes. The BIA supports 191 law enforcement programs with 34 BIA-
operated programs and 157 tribally-operated programs. Approximately 70 
percent of the total BIA OJS programs are contracted with tribes as 
authorized under Public Law 93-638, as amended, or compacted with 
tribes as authorized under Title IV of the Indian Self Determination 
and Education Assistance Act, as amended. Additionally, many tribes 
supplement OJS funding with funding from their tribe's treasury, grants 
from the Department of Justice (DOJ), or other sources. Under Public 
Law 83-280 and similar legislation, the remaining tribes rely on state 
and local law enforcement to combat crimes occurring on the 
reservation.
    OJS provides a wide range of law enforcement services to Indian 
Country. These services include uniform police services, criminal 
investigations, detention program management, tribal courts, drug 
enforcement, internal affairs and officer training conducted by the 
Indian Police Academy. OJS is statutorily responsible for enforcing 
federal law and, with the consent of a tribe, tribal law within Indian 
Country. With this great responsibility, OJS takes every opportunity to 
enhance our abilities to protect our tribal citizens and communities.
    Drug-related activity in Indian Country is a major contributor to 
violent crime and imposes serious health and economic hardships on 
Indian communities. The abuse of methamphetamine, heroin, and 
prescription drugs continues to have devastating effects on tribal 
families and communities and has put a strain on collective efforts to 
confront this issue. Furthermore, the abuse of these illicit drugs 
typically leads to impaired behavior that can result in violence and 
other criminal behavior. In Fiscal Year (FY) 2018, BIA and tribal law 
enforcement programs reported a 47 percent increase in drug cases 
worked and a 26 percent increase in drug related arrests made on 
reservations throughout the nation.
    Indian Country saw a substantial increase in methamphetamine 
seizures and marijuana eradications in FY 2018, leading to a 385 
percent surge in the overall seizure totals in 2018. The increase is 
contributed to the abundant amounts of illegal narcotics that are being 
distributed in Indian Country and the increased seizures by BIA Drug 
Agents and DOI Opioid Task Forces. Methamphetamine continues to be the 
most prevalent drug seized from drug operations in Indian Country. 
Field drug agents reported an increase in the heroin being sold in 
Indian Country. The abundance of methamphetamine being distributed by 
Mexican cartels has led to lower prices and easier access to 
methamphetamine. In FY2018, the number of heroin seizures reported 
increased by 190 percent, the number of crystal methamphetamine 
seizures increased by 342 percent, the number of powder methamphetamine 
seizures increased by 658 percent, the number of marijuana plants 
seized increased by 592 percent, and the number of processed marijuana 
increased 211 percent.
    Opioid-related overdoses in some Indian Country communities have 
been linked to fentanyl, a Schedule II synthetic opioid originally 
developed to serve as both an analgesic (painkiller) and an anesthetic. 
The strong opioid properties of fentanyl have made it an attractive 
drug of abuse. The ease of with which fentanyl can be acquired 
compounded by its potent narcotic effects has drastically increased the 
risk of overdoses and deaths in our tribal communities.
    The specific type of illicit drugs found in Indian Country varies 
by region and is largely influenced by what drugs are readily available 
in larger cities near reservations. While marijuana and methamphetamine 
are the illicit substances we see most widely abused, prescription 
drugs and heroin use have increased in many tribal communities. It has 
been our experience that most illicit drugs available throughout Indian 
Country are not manufactured on the reservations, but rather 
transported into Indian Country by independent dealers who travel to 
nearby cities, also known as border towns, to purchase the drugs 
primarily from well-organized Drug Trafficking Organizations (DTOs). 
While individual drug abusers generally engage in property crimes to 
support their addiction, drug traffickers often engage in violent 
crimes to facilitate their operations. Mexican DTOs, the principal 
wholesale suppliers and producers of most illicit drugs available in 
tribal communities, pose the greatest ``organized'' threat.
    The primary illicit drug threats reported in the Great Plains 
Region are methamphetamine, marijuana and prescription pills. However, 
alcohol abuse continues to be the most significant challenge we 
encounter in the course of our work. It has been the BIA's experience 
that the majority of the methamphetamine on the reservations in the 
Great Plains Region is coming from neighboring communities who have 
historically been supplied by sources in the Denver, Colorado and 
Minneapolis, Minnesota metropolitan areas.
    Just in the month of January 2019, BIA Office of Justice Services 
made 5 drug related arrests during two separate incidents on the 
Standing Rock Reservation. In the first encounter, BIA Officers 
arrested 2 individuals found in possession of 75 grams of 
methamphetamine and $7,500 in cash. During the second encounter, BIA 
Officers arrested 3 individuals found in possession of 96 grams of 
methamphetamine, 240 Oxycodone, Xanax and Hydromorphone pills, and 
$9,872 and $27,100 in wire transfer checks.
    BIA OJS has a specialized national drug enforcement division 
specifically designed to investigate the distribution of illegal 
narcotics in Indian Country. In FY2018, the BIA Division of Drug 
Enforcement was comprised of 28 BIA Drug Enforcement Agents that are 
mostly assigned to federal, tribal or state Drug Task Forces across the 
United States. These partnerships allow us to employ a force multiplier 
approach to combat illicit drugs in Indian communities. In a few areas, 
tribal law enforcement has the ability to assign officers to these task 
forces. Teaming up with other law enforcement agencies has played a 
significant role in increasing our ability to address drug issues in 
Indian Country.
    At the beginning of 2018, an intense effort was put forth by BIA 
Drug Enforcement Agents, tribal police officers and our federal and 
state law enforcement partners to tackle the drug epidemic on the 
reservation. The Department established DOI Opioid Task Forces that 
specifically target hightraffic drug areas throughout the year. BIA OJS 
successfully led these joint law enforcement efforts which resulted in 
372 arrests and the seizure of approximately 3,287 pounds of illegal 
narcotics with an estimated street value of approximately $9.8 million 
dollars.
    Ultimately, most reservations remain economically depressed and 
thus lack the resources necessary to proactively address the overall 
drug threat they are experiencing. With that in mind, OJS has engaged 
in a number of wide-ranging, multipronged efforts to prevent the spread 
of these dangerous drugs in Indian Country.
Community Awareness Efforts
    OJS has teamed up with federal, tribal, and local partners to begin 
conducting community outreach meetings in which community members are 
provided with opioid awareness training. In FY2018, 58 opioid community 
awareness events were conducted throughout Indian Country, reaching 
over 1,087 community participants. The Drug Enforcement Administration 
(DEA) has also partnered with OJS and provided numerous materials that 
are provided during these awareness meetings to educate members of the 
communities on opioids.
    BIA OJS also implemented a 411Tip application that allows community 
members to report drug activity directly to BIA Drug Enforcement Agents 
through a smart phone app or text message. The new tools have been 
promoted through social media and 411Tip flyers placed in local 
communities.
Training Efforts
    According to the BIA Indian Police Academy, in 2018 a total of 489 
law enforcement officers received drug training from BIA OJS, a 20 
percent increase over the number trained in 2017. OJS Tribal Justice 
Support (TJS) coordinated with DOJ to develop a drug training 
curriculum and in March 2018 approximately 42 tribal prosecutors 
received training on trial skills associated with prosecuting opioid 
abuse and violent crimes.
    In efforts to train approximately 300 more tribal court personnel, 
10 additional training sessions will be held throughout Indian Country. 
This training will be similar to those received by state and federal 
prosecutors and will also focus on trial skills. This training is based 
on the National Institute for Trial Advocacy Training, modified for 
tribal courts which includes: best practices in charging specific 
crimes, opening statements, introduction of evidence, direct and 
crossexamination techniques, and closing arguments. Additionally, since 
October 30, 2017, OJS TJS has provided funding to tribes to train 
tribal court personnel on opioid awareness and opioid abuse. Over 200 
tribal court personnel have taken advantage of these trainings.
Partnership Efforts
    To equip BIA law enforcement officers with the tools they need to 
reverse the effects of an opioid overdose, OJS entered into a 
Memorandum of Understanding with the Indian Health Service (IHS) to 
train and equip BIA officers with Naloxone. The partnership with IHS 
has allowed BIA officers to carry and administer naloxone in an 
emergency situation. In 2015, IHS started providing hands-on training 
for opioid overdose rescue kits (also known as Narcan) containing the 
naloxone nasal spray and, following completion of the training, the 
rescue kits are issued by IHS to BIA officers. In 2017, IHS began 
training BIA officers to be Naloxone Trainers, allowing the BIA to take 
over and sustain its own training program. As of December 2018, IHS had 
trained 321 BIA Law Enforcement Officers as well as certified 48 BIA 
Law Enforcement Officers as naloxone trainers. In 2018, the BIA began 
working with IHS to expand the training out to tribal law enforcement 
programs. This partnership is already a proven success and has 
demonstrably saved lives in Indian Country as BIA officers have 
deployed Narcan during emergency responses to overdoses.
    OJS is also collaborating with DEA on identifying the sources of 
heroin/fentanyl being distributed to Indian Country through a 
partnership with a DEA special laboratory. The special laboratory 
provides a more detailed analysis of the heroin seized in Indian 
Country investigations, giving drug investigators information on the 
type, mixture, level of potency and origin of the heroin.
    OJS TJS is collaborating with the DOJ Office of Juvenile Justice 
and Delinquency Prevention to assist several communities in creating 
Juvenile Wellness Courts. OJS TJS has worked with tribal court 
personnel in Barrow, Alaska by providing one time funding for tribal 
court positions focusing on juveniles involved with illegal narcotics 
and opioids, and by advocating for the need to address the opioid 
epidemic among juveniles and young adults in Barrow.
Conclusion
    Mr. Chairman, thank you for the opportunity to address the 
Committee regarding such an important matter. Although we have 
implemented some sound strategies to stop dangerous drugs from entering 
Indian Country, we have a lot of work ahead of us. The Department will 
continue to work closely with our federal, tribal and state partners to 
strengthen our efforts in combatting these illegal drugs and preventing 
them from further devastating our Indian Country communities.
    I will be happy to answer any questions you may have.

    The Chairman. Thank you, Mr. Addington. Thanks to all three 
of our witnesses. We will start with five-minute rounds of 
questioning.
    I want to begin with you, Ms. Sanborn. The FBI, as you 
detailed, is charged with investigating the most serious crimes 
in Indian Country. So give us some sense of how successful, or 
what your success rate is, in solving those crimes, and maybe 
the biggest barrier that prevents you from solving more.
    Ms. Sanborn. The vast majority of the violent crimes in 
North Dakota specifically are those crimes that are mentioned, 
which are crimes against children. Forty percent of our cases, 
80 percent of our time. But in 2018 alone, I think what speaks 
to the success of our work collaboratively with our partners, 
is almost 400 arrests in my territory here in Minnesota, North 
Dakota and South Dakota. That is an arrest rate of almost one 
arrest per day.
    And when you look at the fact that that is coming from 30 
percent of my workforce, it makes up 70 percent of my overall 
division stats, that is a pretty impressive number. I believe 
it shows a commitment on behalf of our partners, my agency and 
the Department of Justice.
    On the cases involving, against the children, those are 
tough cases, and the solvency rate is probably not as high on 
those as we would like. Here are some of the reasons those make 
those tough cases. Oftentimes the reporting, the disclosure of 
that violation happens weeks, days, years after it actually 
happens, which then leads to memories and evidence fading. 
Oftentimes the young age of the victim really impedes their 
ability to be a productive part of that investigation with us.
    I will tell you on one of my first trips out here, I went 
to Turtle Mountain to visit specifically a young female whose 
perpetrator had just been acquitted. The look on her face, 
despite the acquittal, made it clear to me that as important, 
if not more important, was the service we provide that victim, 
and not necessarily always the successful prosecution. The 
ability to give her the support she needed and the voice in 
that crime was paramount to me when I saw the look on her face 
when she saw the victim support individual show up.
    The Chairman. So the biggest barrier to addressing more of 
the crime or solving more of the cases?
    Ms. Sanborn. Those cases in particular involve a 
perpetrator and a witness, a victim. And oftentimes those are 
the only two pieces of evidence, no physical trail. And those 
make those very difficult cases.
    The Chairman. Attorney General Stenehjem talked about the 
work of the Missouri River Safe Trails Task Force. Can you 
update us where we are with that, and their work and the status 
of that task force?
    Ms. Sanborn. Absolutely. That task force was established a 
couple of years ago. Within this last year, we have really 
tried to energize our efforts to reinvigorate and get more task 
force participation. I can tell you that task force 
participation in general across the three States has increased, 
has tripled, within the last decade. So for the first time in 
the last decade, we have almost an equal number of task force 
officers and agents working Indian Country matters. We are 
almost at 70 individuals in those three States working Indian 
Country matters. So really, increased our task force 
participation by about triple within the last decade.
    The Chairman. So that task force is operating?
    Ms. Sanborn. It is operating.
    The Chairman. You are committed to it. And I would ask, for 
all three of you, when the Attorney General says that, these 
tasks forces in Bismarck, Minot, Williams County, Devils Lake 
and so forth, you are all committed to participating in those 
task forces, particular BIA, I think you referenced, in making 
sure that you have, again, we know that we are short of people 
across the board. It is something we are going to try to work 
on here, your testimony bringing out the importance of that.
    But a commitment from all three of you that you will, for 
the people you have that are actively engaged in those task 
forces, so important from a jurisdictional, let alone 
coordination and ability to address cases perspective. You are 
all committed to these task forces?
    [Chorus of agreement.]
    The Chairman. Okay. I think those were my questions. At 
this point, I will turn to Senator Cramer.
    Senator Cramer. Thank you. Thanks to all of you for your 
testimony.
    I would like to focus a little bit on BIA. John was 
alluding to something the Attorney General said about BIA not 
being part of the task force. I don't remember what the 
specific reason was for that. Has that been resolved? Has there 
been State or Federal recognition of some sort?
    Mr. Addington. Thank you for the question. The reason that 
we are not a part of the task force is usually because we do 
not have staff here to place on the task force. With the BIA, 
our drug enforcement agents, we have so few of those across the 
Nation, we have to be part of the task force in order to be 
effective.
    So we place those drug agents actually on either an FBI 
Safe Trails, a DEA task force or a State task force, either 
with BCI or someone sharing a State or tribal task force. So we 
would be putting actual staff on those ones, we get those 
[indiscernible].
    Senator Cramer. So let's drill down a little bit then on 
the resource issue, mainly the human capital issue. If we had 
all the money in the world, that still wouldn't solve some of 
your challenges, at least for the people. I think Senator 
Hoeven referenced earlier that the TLOA bill expedites the 
background check process. It is my understand BIA uses the 
Office of Personnel Management, which has sometimes it's 
hundreds and thousands of background checks.
    As you look at TLOA and you look at that challenge, do you 
see some way where we can streamline and expedite that process, 
so that it doesn't become a deterrent, and while at the same 
time maintaining the importance, obviously the integrity of the 
background check?
    Mr. Addington. Absolutely. We are a full supporter of the 
bill that was introduced in the last Congress to actually use 
the pilot program that has been included in the Tribal Law and 
Order Act. It will give us the ability to be able to put 
someone on a background investigation a lot sooner than OPM is 
doing them currently.
    Now, the flip side of that is, we don't have resources to 
do the backgrounds. So that is the flip side of that. But it 
will give us the ability, so if I need a police officer 
tomorrow at Standing Rock or Spirit Lake, I can actually go do 
that background on that applicant and get that done a lot 
quicker than OPM can do it, and actually get it through the 
process and get that and get that cop there on the ground a lot 
quicker. That is what is going to be great about the bill.
    Senator Cramer. Yes. So this gets to, and I am just going 
to think out loud, which is dangerous to say. As you think 
about the collaboration and cooperation of all these 
partnerships, everybody, one of the frustrations in North 
Dakota, I know, having worked in government a long time, and 
even some of the issues we are dealing with now is the military 
[indiscernible] response to that [indiscernible], is there is a 
resistance within stakeholder groups to allow cross, sort of 
agency recognition, right? Whether it is through certification 
of some sort, education, training, all those types of 
protections.
    Do you see there could be some improvement there? Because 
if there is a background check and there is a backlog 
somewhere, or a choking point somewhere in the pipeline, could 
you see better relationship across, I don't want to call it 
deputization, because that implies something different, but 
just cooperation that would maybe loosen that bottleneck and 
provide you more opportunities, maybe more places 
[indiscernible] for background checks [indiscernible]?
    Mr. Addington. Oh, yes, and the language, I believe, that 
is going to be introduced in this pilot program actually allows 
the BIA to accept a, or tells OPM that they have to accept a 
tribal background or a State background if it meets the 
standard. So I think that is going to be really beneficial to 
us as well, so if we have someone who is coming from the State 
who already has a State background that meets our standards, 
why would we do another background on that same individual and 
take that additional time?
    So I think that is going to help eliminate some of those 
obstacles, to be able to accept other backgrounds, or maybe we 
only have to do some that meet our standards, something small 
that might take a week instead of having to go through that 
full background.
    Senator Cramer. So then along a similar line, I know one of 
the other challenges we have that has come up is training, and 
the lack of training, and places for training. Yet here we sit 
in this spectacular United Tribes Technical College and we know 
we have tribal colleges around the State, the Attorney General 
talked about the Academy, and the recognition, maybe, or lack 
thereof. Do you see that happening maybe for a northern tier 
training facility that would help that pipeline of talent?
    Mr. Addington. It depends on what level of academy we are 
looking at. Of course, our training academy at Artesia, New 
Mexico is sort of the law enforcement training center. So that 
is regional, it is at a facility where it would be recognized 
and get certification from them.
    We actually looked up in North Dakota, several years back 
at putting maybe a northern academy of some sort up here. The 
Tribal Law and Order Act has since expanded to where we can 
accept State academy and tribal colleges if they are recognized 
by the State. So that has eliminated some of the problem.
    So if someone went to the classes here at the college, at 
United Tribes, it is recognized by the State of North Dakota as 
being their peace officer basic training program, we could 
actually accept that. Then all we would have to do then is send 
that officer to a criminal jurisdiction in Indian Country, even 
on the Federal side, which we can't bring out to Indian 
Country.
    Senator Cramer. I would like to see that reciprocity both 
ways. I think that on our side, on the State side, since I am 
[indiscernible]. But I thank you for that.
    The Chairman. TLOA.
    Senator Cramer. Yes.
    Mr. Addington. Yes. It fixed a lot of issues that we were 
having with accepting State academy or tribal colleges by TLOA.
    Senator Cramer. Thank you. And I am going to feedback off 
that for a second and talk about the background checks. At 
least, even if you still have to conduct yours, is there a 
mechanism that they can work while it is going on, if they have 
a State one [indiscernible] meet your requirements and there 
are two different sides to this, right? We have to go get the 
Federal certifications. But also, can they work while they are 
going in it? Because they have the State background check.
    Mr. Addington. If it meets our standards, then we could 
actually allow them to work in some instances. There is a 
waiver process if they haven't been to training to where we can 
actually do a waiver and waive the regulations and actually 
bring them on and get them into training while they are waiting 
on that. So there are a couple different avenues. But actually 
putting them to work on the street without having that 
background that meets the Federal standards, we are not able to 
do that just because of the [indiscernible].
    Senator Cramer. State training has to be [indiscernible].
    Mr. Addington. Yes.
    Senator Cramer. I am going to go back to Ms. Sanborn 
[indiscernible]. I was fully anticipating talking to you about 
drugs and trafficking but now I want to get into the child sex 
crimes issue. There are specific facts in these cases that make 
them uniquely horrifying and oftentimes if it is not a family 
member, it is somebody very close to the family, there are 
denial issues, there are all kinds of different reasons why 
these cases [indiscernible], not to mention the age of the 
victim and those types of issues.
    I am assuming your clearance rate when you have forensic 
evidence is so much higher than when you don't. These cases 
make it hard. But also, the real nature oftentimes of how we 
[indiscernible], and it is no one's fault? It is not to a 
local, whether it is a local tribal officer, a county officer 
maybe called in and we meet jurisdictional challenges before 
the FBI or BIA or anybody is brought into the case. 
Immediately, a family and a victim's response with this type of 
case is now seven different law enforcement agents, then the 
frustrating part of that. I think there could be some abilities 
in that [indiscernible].
    That is a long drawn-out way of saying, if we had better 
and quicker avenues to collection of forensic evidence in these 
cases, they just get reported [indiscernible]. And each case is 
unique. I am sorry to speak in generalities.
    Ms. Sanborn. Right.
    Senator Cramer. But if we can provide better ways for 
sexual assault nurse examiners, issues like that that we do in 
rural areas, would that be helpful in some cases? Or is it just 
the nature, they don't get reported early enough?
    Ms. Sanborn. Most of them don't get reported early enough, 
but always forensic evidence and other witness testimony is 
incredibly helpful in supporting that victim's statement. So 
absolutely, the added forensic evidence, if they reported early 
and we can obtain that, would be value-added.
    Senator Cramer. Then another question which I think at 
least bears having this conversation about particularly the 
child victims, we have done this in the State court on several 
occasions, have you been involved in any cases where the victim 
has been appointed a legal guardian, like a lawyer that helps 
them maneuver through the process?
    Ms. Sanborn. I have not been, personally, but I am aware of 
those.
    Senator Cramer. My experience with those is you have a much 
more higher likelihood of a victim following through with a 
case all the way to trial if they have some, a defense attorney 
has their role, prosecutor has their role. But oftentimes the 
victim's needs and wants aren't necessarily the same as the 
prosecutor's needs and wants.
    Ms. Sanborn. One hundred percent. So our victim services 
division, their priority is the victim, secondary is the 
investigation. Their goal is to do what that victim needs, 
regardless of what we, the investigator or the prosecutor, 
might need.
    Senator Cramer. I am just thinking of lower level resource 
areas where we could potentially really help guide a family and 
a victim through the criminal justice process.
    Ms. Sanborn. Any of that I believe would be incredibly 
valuable.
    Senator Cramer. And the victim services from the Federal 
level do a fantastic job, but they are often not lawyers.
    Ms. Sanborn. Most of them are not, correct, they are social 
workers.
    Senator Cramer. The single most stressful part of that case 
for a 12-year old victim is going to be whether they have to 
testify in court with their abuser in the same room.
    Ms. Sanborn. Absolutely. I can't underestimate the bravery 
it takes.
    Senator Cramer. That is all I have.
    The Chairman. I will speak loudly. I have a few more 
questions.
    Mr. Salter, in 2008, the DEA produced an Indian Country 
drug threat assessment. Would the DEA consider doing that 
again, what they put out in 2008 in Indian Country, the drug 
threat assessment? I think that was a valuable tool for tribal 
law enforcement. And so my question is, what about doing that 
again?
    And the other thing is, metrics for, you have talked about 
the increase in drugs. What kind of metrics do you have so that 
we see what you are accomplishing in terms of interdicting 
those drugs and arresting the people that are dealing drugs, 
transporting drugs, the perpetrators? How are you tracking your 
success rate? You gave us some statistics, both of you did. How 
are you doing at combatting that, and how are you measuring it?
    So first, an overall threat assessment so that we know what 
we are dealing with, which you alluded to. But then how are you 
measuring your success? How do we know if you are gaining or 
losing ground?
    Mr. Salter. Well, in answer to the first question, we could 
certainly take that back to our decision makers at headquarters 
and see about doing a threat assessment specific to tribal 
lands. On the other hand, we do, there are several threat 
assessments, different organizations that do threat 
assessments, HIDTA does threat assessments, DEA does threat 
assessments. They are usually regional, just various parts of 
the Country. Because the threat does change from region to 
region.
    So there is a HIDA threat assessment, and this is the 
first, since I reported here last week, it was the first thing 
I read, was the threat assessment. So I know where our problem 
areas are and where we need to concentrate resources.
    They are pretty accurate. There is an information gap, I 
believe, just based on what I have learned since I have gotten 
here. In the tribal lands themselves, I don't know if it is 
lack of communication, but we will work on that and try to get 
into these tribal communities and to dig down at the ground 
level to find out what the specific threats are in those areas. 
Typically, it is not going to be any different than a small 
town, small town American when we come in there and we see 
retail trafficking, we see addiction, addition is a big 
problem. These addicts need help, they need treatment.
    On a higher governmental, local governmental level, we need 
to be talking about, among law enforcement, among the medical 
community, the community treatment, we need to be all talking 
together to kind of nail down the local threat and what it is, 
and talk about where the drugs are coming from, who the dealers 
are, so that DEA can find its place and we can target these 
trafficking organizations.
    Because they are connected from the retail dealer all the 
way to the source of supply. They are connected. And the retail 
dealer in a small town in North Dakota, we are going to connect 
him to a mid-level dealer in one of the source cities closer, 
the large source cities, and we are going to connect them 
through various investigative techniques and hopefully, there 
will be enough evidence there that we can prosecute the entire 
organization up and down the supply chain.
    And we do that quite often. In the six cases that I have 
mentioned earlier, that is absolutely what has happened. And 
with two agents in Bismarck, we are very productive, because we 
partner and we co-locate with the BCI. It is a force 
multiplier. The intelligence sharing and the camaraderie that 
has developed from co-location, it is the best model out there 
to work drug trafficking in a local area.
    The Chairman. Do all the drugs come from outside the 
Country? What are your metrics in terms of determining whether 
you are getting on top of it or not?
    Mr. Salter. Okay, to answer that question, it is a 
difficult question, but we only know what we know. So we 
measure part of the drug threat by what is being interdicted on 
the highways. We measure the drug threat by the price of drugs, 
whether they are going up and down. And I can tell you, 
throughout the Country, that seven years ago, methamphetamine, 
we were paying probably $1,100, $1,200 an ounce for 
methamphetamine. Now we are paying $275 an ounce.
    So we look at the economics of that. We know that the 
Country is saturated with methamphetamine. We look at overdose 
rates, we look at trends. So we know methamphetamine is a major 
problem, so we attack methamphetamine traffickers, dealers. And 
it is not difficult, because we take the cases as they come. If 
the cases are methamphetamine in this region, that is the cases 
we work.
    They typically lead to other drugs, usually a lot of 
addicts are not just going to be using one drug, they are going 
to using other drugs. So it will lead to other investigations 
in other States.
    The Chairman. We talked about getting more people. So I 
guess, Mr. Addington, what is your thought? What would be most 
effective to get more BIA officers? You talked about getting 
some more BIA officers out here. We need more. So it is good 
that you brought some more. But we continue to need more. And 
that is true across the Country.
    What do we do? How do we get more BIA law enforcement 
officers, both into the force and, in your opinion, what do we 
need to do?
    Mr. Addington. It is a two-pronged approach that we are 
having to deal with. First of all, you have to have more 
resources to hire more people. They you have to have the people 
to be able to hire to put into positions.
    So we are dealing with two separate things here. We do the 
unmet needs report under TLOA that we submit, I think just on 
the law enforcement side, and the needs for reservations across 
the Nation. It was like $1.3 billion, I think, and then maybe 
just in the law enforcement side. But then you have to, if you 
had those resources, then you have to get----
    The Chairman. So are we talking about, in TLOA, expediting 
the process, getting some flexibility, trying to get the 
jurisdictions to match so we can train them not only federally 
but hopefully with some State institutions. And we talked about 
more resources.
    One, we need those, you would agree with that?
    Mr. Addington. Right.
    The Chairman. Is there something else we should have in 
there that would also help get the job done?
    Mr. Addington. I think the hiring restrictions that we deal 
with a lot of times hinders us from getting folks on the 
ground, too. Because the HR process is so cumbersome, it keeps 
people from either following through to actually show up to the 
job because if it takes eight months or a year to go through a 
process, somebody's going to go get a job somewhere else.
    So I think if there are things we can do to streamline the 
hiring process and some of the obstacles --
    The Chairman. Why don't you get those for us, and make sure 
that Mike has them, so that we can look at possibly including 
them, to streamline the process?
    Mr. Addington. Okay.
    The Chairman. Gang activity. You have seen increasing gang 
activity on the reservation. What are you doing about it?
    Mr. Addington. Well, it depends on where you are at, 
depends on the region, depends on which reservation you see 
some gang activity. The local gangs are, with what we are 
dealing with on the drug side of the house, and we have been 
pretty successful, has been the prison gangs that have actually 
run the drug trade in a lot of the tribal communities. In some 
areas, Rich's shop, where he just came from in Oklahoma, and 
RBIA and tribal law enforcement partners, they just work 
multiple big operations where prison gangs were actually 
running all the drug trade on some of the tribal lands down 
there.
    So we have been identifying those gang members and actually 
working cases, working conspiracy cases, not only for the gang 
members that are inside the prison, but the folks that are 
outside that are actually distributing the drugs and committing 
other violent crimes in tribal communities.
    So we are identifying those, and we are actually putting 
efforts to break those organizations up across Indian Country.
    Senator Cramer. Mr. Addington, I just want to follow up on 
the training. Does BIA only engage in training in New Mexico, 
or is there some other arrangement that they do not gain, is it 
up to the tribe?
    Mr. Addington. Basic police officer training, basic 
correction training, yes, we pay for all that at the academy, 
because that is where we have the lodging, we have the deal 
with FLETC, we can house them and pay for their meals and all 
those kinds of things for tribal programs. Now, if it is an 
advanced training program, our Indian police academy pays for 
that training and take it out in the field if we bring training 
out somewhere, but not the basic. Because we get very limited 
money for our basic training academy. So there is not funding 
there to actually pay for a tribal officer to go to a State 
academy.
    Senator Cramer. I see, so, tuition does not follow this 
student.
    Mr. Addington. Correct.
    Senator Cramer. But rather, you have a facility where there 
are efficiencies. Well, that may be worth exploring a little 
bit.
    I want to follow up on something, a question with you, Ms. 
Sanborn, that Mr. Addington talked about. It is one really near 
and dear to me. With regard to the child crimes, this issue is 
so, I know you know how enormous it is, I know very well how 
enormous it is. Do we have the adequate resources to even 
understanding, on our reservations, how important this is to 
the prosecution and the healing process for a child victim? 
Because I worry, I will tell you right now, I worry that we do 
not, and that many child victims go it alone without a real 
advocate that is knowledgeable and trained and educated. Am I 
right, and if I am not, what can you tell me?
    Ms. Sanborn. I agree with you, how important they are. I 
feel slightly at a luxury because my AOR has so much of that 
victim support for the victims in my communities. I can't 
underscore enough how important that advocacy is across all 
crimes, whether it is on the reservation or off. The ability 
for that victim to heal and get back in society healthy is so 
important.
    Senator Cramer. So as a policy maker, I am thinking about 
Indian children. And I am thinking, okay, do tribes have 
individual laws relating to this? Or do we have some 
responsibility at the Federal level to require this? Do you 
know what I am saying? This is something I feel so strongly 
about, because I have seen it so often [indiscernible]. I am 
wondering if there is more we can do as policy makers besides 
wish.
    Ms. Sanborn. I think there is room for awareness. I can't 
speak to every agency's victim program. I only know in detail 
about the FBI's and Department of Justice's, because of the 
value. I think if any agency became aware of that value, they 
would be all in in creating a program for themselves.
    The Chairman. I have something right to this point. Thank 
you, Senator Cramer, for bringing that up. That is so 
important. And you just emphasized it, I think, extremely well. 
In the SURVIVE Act, remember I talked about it, there is $3 
billion a year in the crime victims. The SURVIVE Act would make 
$150 million of that available on the reservation, including 
for victims.
    So specifically for that service, that is how you could get 
the money to deliver that service. Again, that is why it is so 
important that we have this input, because we are making the 
case.
    Senator Cramer. And I really appreciate that.
    Ms. Sanborn. Yes, we didn't learn that the easy way, right? 
We learned that through Pam Am 103 back in the day, the 
importance of that victim support.
    The Chairman. You are right on, that is exactly what we are 
trying to get done. And I hope people, when they look at this 
legislation, they understand that that is the kind of thing 
that we can accomplish when we can get the bill passed.
    Ms. Sanborn. And I would follow up on that, too, 
specifically for the U.S. Federal court system, in that there 
is a mechanism obviously for court-appointed counsel for 
defendants, creating a situation where a victim, who oftentimes 
would qualify, if the victim was the defendant, they would 
qualify for court-appointed counsel.
    Allowing victims and U.S. district judges to have the 
ability appoint legal guardian ad litem [indiscernible] lawyers 
are expensive. And they are expensive whether you are a 
defendant, whether you are a victim, whether you are a in a 
civil case. Having a mechanism where victims can apply for a 
legal guardian ad litem too is something that would be a policy 
change, that wouldn't necessarily be [indiscernible]. In our 
area, we have court-appointed lawyers and then we also have 
contract attorneys. There are ways to do it.
    I just have one more question to Mr. Addington. When we are 
talking about getting more people into the workforce, the other 
thing we know, and all of you in law enforcement know, it is 
one thing to have people on the ground, but years of experience 
on the ground is also very important. Law enforcement in 
general, particularly in North Dakota, we have seen high rate 
of turnover over the last 10 years.
    So one of the biggest factors that gets people 
[indiscernible] they do have on the ground then having them 
leave BIA, what can we do to better keep our good agents here 
longer to continue to do the work?
    Mr. Addington. Yes, most of these folks who we have that 
are experienced here on the ground, they don't usually leave 
unless they are either getting promoted, going somewhere to get 
a promotion, or if there is some type of conduct issues or 
something like that that causes an issue.
    It is people that we are hiring into these positions, that 
we don't get enough local people to apply for these positions. 
We are bringing people in from other areas, and they see it on 
the map, and they go, yeah, that's great, I want to go to work, 
I need a job. They show up, and we have had them leave the next 
day, we have had them leave a week later, two weeks later and 
just say, this is not for me,
    Well, we have already spent all the time of going through 
the HR process, training them, getting them on the ground and 
now we are left starting all over again. So we have tried 
recruitment incentives, we have tried different things to bring 
those folks up. But it doesn't seem to keep them here. If they 
come up and they get a recruitment incentive, they just leave 
and pay their incentive back and say, this is not for me. I am 
going somewhere else.
    Our folks that are from these areas that want to be here, 
we don't usually lose those folks, and that is the years of 
experience, until they get ready to retire. Third are people 
that are here on the ground that know the history, they work 
really good with tribal leadership and stuff. They are crucial 
to training these new folks that are coming into the system, 
because they have been here, they know how it works in certain 
areas. If you are not from somewhere, you have to know the 
culture, you have to know the region, you have to know who all 
the contacts are. We try to keep those folks on the ground.
    But what we are seeing mostly, the revolving door, is new 
people coming in, and they just don't stay long in certain 
areas. We don't get very many people on our recruitment list 
when we advertise. We may get two, three people for ten jobs. 
Then we have to re-advertise, get a couple more. They don't 
pass the background phase, then we start all over again.
    So it is kind of a lack of qualified applicants issue in 
some areas, where we just can't get enough people that are 
qualified that can make it through the process.
    Senator Cramer. [indiscernible] single best likelihood from 
your agency for us to have a guy here, a guy or girl here with 
ten years of service, is if they are from here?
    Mr. Addington. Or they have come here from somewhere else 
and they have roots in the communities. They want to be here. 
In the BIA, most of the time, people are looking to go 
somewhere they want to be, because we have agencies across the 
Nation. So they may start here, but then they go, okay, I will 
be here for five years, but then I want to go back home. If a 
job ever opens up in Arizona, I want to go back home. So we 
can't keep them here if they apply for a job out there and say, 
no, you can't go. Because they have put their time in 
somewhere. So that has an effect on it as well.
    Senator Cramer. Thank you. Anyone else?
    The Chairman. All right. I want to thank all three of you. 
We appreciate your being here. Most of all, we appreciate the 
work you do. We want to try to help you do that incredibly 
important job. Thank you.
    We will recess for a third panel.
    [Recess.]
    The Chairman. I want to thank the tribal chairmen and 
chairwomen and council members for being here today 
representing the five reservations and the tribes in North 
Dakota. Of course, two of the reservations include South 
Dakota. I really appreciate all of you being here, and again, 
the work that you do.
    Today on panel three we will hear from the Jamie Azure, 
Chairman of the Turtle Mountain Band of Chippewa. We will also 
hear from Chairman Mike Faith from Standing Rock. We will also 
hear from Councilwoman Lisa Jackson with the Sisseton Wahpeton 
Oyate Nation.
    Also, we will hear from Myra Pearson, Chairwoman of the 
Spirit Lake Nation, Fort Totten. She and I have worked together 
for a long time. Although you are still very young. You started 
when you were very, very young. You and I have worked together 
for a long time, Chairwoman. It is great to see you again.
    Ms. Pearson. Thank you.
    The Chairman. And Councilwoman Judy Brugh, with the Three 
Affiliated Tribes.
    We appreciate your being here, again, not only representing 
five reservations, but even more tribes, Mandan Hidatsa 
Arikara, Chippewa, Sioux, what am I missing. It is a lot of 
tribes. Thank you so much for being here.
    Your testimony is extremely important. We have had good 
testimony, but obviously your role in Indian Country is so 
important. You have to deal with so many things, and certainly 
the safety of your people is paramount. We look very much 
forward to your testimony, and we also want to have opportunity 
to ask you some questions and get input, again, which we feel 
is a very important part of building the record to try and pass 
legislation that can support and help you in your incredibly 
important work. So with that, we will begin with Chairman 
Faith.

  STATEMENT OF HON. MIKE FAITH, CHAIRMAN, STANDING ROCK SIOUX 
                             TRIBE

    Mr. Faith. [Greeting in Native tongue.] Good afternoon. Of 
course, I had this set up for good morning. It's been a long 
day. I tell you what, it is very important, it is a good day 
for this, because it is needed. It is so needed. I really want 
to thank the two Senators and Congressman from North Dakota. 
The site visit yesterday was awesome, at Standing Rock. I guess 
we didn't see Ben there, but we all know Ben.
    Again, having the site hearings, so much better to 
understand our needs than just coming out here. Senator Udall's 
staff was down yesterday, we had Senator Hoeven's staff. And 
again, I would say this, [phrase in Native tongue], a big 
thanks. Because they saw first-hand need.
    I would say this, that would probably be at every tribe. 
Every tribe has that need, unfortunately. Again, I want to 
thank you, the prayer this morning was awesome, the drum group. 
And of course, the veterans, the men and women of armed 
services. Without their sacrifice, ultimate sacrifice, we 
wouldn't be here today as a free people to pick and choose to 
speak all we want to. So it is them, the [phrase in Native 
tongue], the men and women of armed services, that give us that 
with their sacrifice and ultimate sacrifice.
    [Phrase in Native tongue] Standing Rock [phrase in Native 
tongue]. I just told you my Indian name, Buffalo Soldier. That 
was given to me by my elders back in the day. I have been on 
the tribal council for 18 years now in different types of, from 
council person to vice chairman to now chairman. I also had 15 
years of game and fish as a ranger and buffalo manager.
    So out of that ranger, I got 820 hours of law enforcement 
in, working with DEA, BIA, tribal. I have to take this time to 
thank Frank Landeis, long-time friend, Sioux County Sheriff, 
worked a while with us down there. What he does as far as 
cross-deputization, showing that partnerships do help and work. 
Partnering up with the Bureau of Indian Affairs, cross-
deputization on the Sioux County side, helps all around as far 
as minor traffic to drug stops. So again, Landeis, out of Sioux 
County, Sheriff, we appreciate him very, very much.
    Again, like I said, I want to thank the staff that went 
down to do the site visit yesterday. So needed down there. You 
are going to hear that probably from every tribe, law 
enforcement, tribal courts, Indian Health Service. Again, 
numbers, unbelievable.
    The law enforcement needs down at Standing Rock are coming 
around. We do have numbers picking up, boots on the ground. We 
do have a new chief down there that is in training. I think he 
might be at Artesia, he might be at police academy. Again, 
getting some jurisdiction in Indian Country.
    But I tell you what, since he cam on board, we did see some 
changes as far as discipline, arrests. I think we had, I am 
going to say $120,000 confiscated in drug money and all types 
of drugs confiscated within a four-month period. There was a 
heck of a difference there, because his officers worked well 
with him and unfortunately, most of them are just traffic stops 
that led to these.
    So again, the data out there for the drug task force, the 
Northern Plains Task Force, has to come back. He was here in 
the past--where did I see Gerald? I saw Gerald here some place, 
there he is. Gerald, good to see you. He was down at Standing 
Rock for many, many years. He is up at Three Affiliated Tribes 
now. But they have a task force up there that they do MOUs, 
MOAs with surrounding agencies from counties to States, 
Federal. I guess I would say BIA would be the only one that was 
the stumbling block out of that.
    But the other one, they are working on that now, I guess, 
to where they would get BIA to partner up with them. Sometimes 
boundaries are what they are. Some of them say they have their 
own protocol and stuff. So to have BIA part of theirs and ours, 
the task force, the support I think is going to show that 
people will end up going to jail for a long time for having 
drugs on the reservation. We have children, young ones that are 
addicted because of that. And it all goes hand in hand, when 
you run into your IHS, those people need treatment. We have a 
prevention center. If you can get somebody into a treatment 
center for 60 days days, and that is just outpatient, we don't 
have inpatient, they have grants that help. But when you come 
back from treatment healthy after a short period of time and 
you see yourself, that you need to change, you go back into an 
environment that is probably going to relapse you within two 
weeks' time because of the action still going on within the 
structure of either your home or wherever it may be.
    So again, the need for prevention is there. Our facility 
down there, I am going to say that Senator Udall's staff did 
take a tour through our IHS. They took a tour through the law 
enforcement center, the tribal court and law enforcement 
center. There is a need for new facilities. IHS for example, 
they talked about 68,000 people going through, 7,000-plus 
emergencies. If you look at the facility, built in the early 
1960s, all we get any more is band-aid effect things. Maybe put 
a room here, a room there, for a little bit more expansion. But 
it is just a band-aid.
    The need for true expansion and new facilities are probably 
on every reservation. I can't speak for them, but it is there. 
We know that. The numbers will show that, from opioid to 
marijuana to alcoholism. It is just devastating to our people.
    Again, we talk about drugs. It is good to hear that there 
are task forces coming up. I know there are going to be some 
deals going on. But again, to put it out in public, you don't 
want to put it out there that much. I think we are going to see 
some enforcement from the Federal side. Again, we appreciate 
that at Standing Rock.
    We had to give the okay for them to come in, and we did 
that. So again, the numbers out there are just staggering to 
the point of unbelievable. I think you hear that daily. 
Sometimes some of our programs show a pretty picture. 
Yesterday, I saw that at the IHS, the area director kind of 
wanted to dominate the discussion, and not have our locals 
talk, our council talk. Started saying well, the Great Plains 
is, and that. So we had to cut him off and say hey, let us do 
the taking here. Because sometimes they unfortunately do that. 
They will paint a pretty picture, saying they are doing good.
    But talking about the funding coming down, sometimes it 
gets stuck in areas like that, and it trickles down to the 
reservations of need. You don't really accomplish anything, 
because with the money that you do receive, it really doesn't 
do what it is supposed to, what your goals and objectives are 
and needs are within the boundaries of your reservation. It is 
just not there.
    Again, the key thing about tribes and tribal members is 
that we are citizens of the United States. We are citizens of 
the States that we reside in. But we are unique by treaty. That 
is where the government-to-government comes in. The panelists 
here, what I have seen, support that wholeheartedly. It touches 
the heart when you go to them and they understand that, they 
talk about this and talk about that when you go out to D.C., or 
if you see them some place. Their heart is there. You can sense 
that.
    When they bring up the fact of government-to-government 
consulting, that is so good to hear from these three gentlemen 
here. I take my hat off to them for understanding the treaty 
rights of the tribes.
    I will say this about missing women. We have missing men 
also, children. I know the laws are being pushed and passed 
through the State and then through the Federal government. But 
yesterday, we got word that one of our members, her daughter 
was found in Michigan, gone for some time. Just found 
yesterday. So again, these bills and acts that are being passed 
are so important. We have to solve this on our reservations. My 
God, some of them are probably 40, 50 years old. We have 
somebody that got stabbed 48 times, somebody is still walking 
free. Missing men, it is both men and women.
    So again, I am glad that it is being addressed. Public 
safety out there is a must. To accomplish that, though, we are 
going to have to work together. There are times we are going to 
have to put our differences aside and think for our people. 
When I say that, within our boundaries on the reservation, we 
have a mix. We have Indian and non-Indian. And a lot of these 
people grew up together. They are like brother and sister, they 
helped each other through the years come up. So drawing those 
lines, erasing lines of discrimination needs to be there.
    Public safety, even through the infrastructure of your road 
right now, this time of year coming over here, I was hitting 
potholes. But then again, getting up to the back of the county 
roads out there, the bad guy doesn't know any boundaries. So 
when they do their dealings and stuff, they are smart. That is 
their money-maker.
    So again, getting the law enforcement placed where they 
need to be in a good way and get them back in a good way is 
something that public safety does, working together as a team, 
joining forces so that we can curb those drug dealers. I hate 
to have the news at 5:00 o'clock come on and say, 13-year old 
overdosed. It is so possible, and it does happen, 
unfortunately, just because they tried something that they 
didn't know right or wrong from.
    So again, the laws and the acts that are coming forward are 
really appreciated. The panel here, I know they are pushing 
that hard. They talk about it, and when you hear them talk 
about it, you know something is going to be done. So again, I 
will say before I close, I think partnerships are going to be 
the future for us. It has been talked about. I know they are 
talking about the entities of the Federal government, FBI, BIA, 
others that need to step up and help.
    If you have a person in Bismarck, North Dakota, he is not 
going to be too much help if something happened immediately on 
the reservation. Our drug dogs, if you we get a stop and well, 
you have two drug dogs, but in Bismarck-Mandan, well, you are 
going to start messing with people's civil rights just by 
holding them there without cause. If you just think that you 
have probable cause, I guess is what it is. But it takes a 
while for people to get down there .
    So you need that on-site assistance. And having even one 
dog on-site on a reservation would help us at Standing Rock. If 
we have to purchase one ourselves and go in some type of MOU or 
MOA with somebody, and use tribal funds to pay for that, I 
think that has to be done. We can't be depending on a Federal 
government for this, for that, when what we need to do is work 
together with whatever resources we have and try to make the 
best of it, combatting the drug problems. The opioids, it is 
just unbelievable down there. The numbers that they bring out 
are just what they are, they are unbelievable.
    So again, panel, in closing, I want to say [phrase in 
Native tongue], big thanks. We appreciate your concern. I 
really appreciate the site hearing. It is so important that 
they come down. Like I said, I have been on 18 years, and I saw 
a couple of these. But they do make a difference. You make your 
people come here, your Federal agencies come here. It is what 
it is, the bottom line on everything is money. Federal funds, 
State funds, tribal funds, the problem is not going to go away 
out there. It is people's livelihoods and business.
    So we have to join forces to fight that, combat that. 
Sometimes we have to look at the resources that we are asking 
for. They have a country to look after, too. We have ours we 
have to look after. Money only goes so far.
    So joining forces with partnerships, with MOUs, MOAs, to 
me, talking to the governor, I have been up there quite often, 
I think that is the future for Standing Rock. We have to work 
together. Because we have two States, 2.3 million acres. That 
is a lot of area. It is a lot of isolated area, but again, that 
is what it is. That is Sioux County and Corson County.
    So again, working with two States, multi-jurisdictions, and 
North Dakota seems to really work well with us. Can't say too 
much about South Dakota, although, Thune, Rounds, and Johnson, 
I know their hearts are there. Sometimes there are little 
county commissioners that show where they stand at times, 
unfortunately.
    With that, I want to say thank you, I appreciate you. 
[Phrase in Native tongue] until we see each other again. Thank 
you.
    The Chairman. Thank you, Chairman.
    We will turn to Chairwoman Myra Pearson.

 STATEMENT OF HON. MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE NATION

    Ms. Pearson. Good afternoon, Senator Hoeven, Senator Cramer 
and Congressman Armstrong. It is a privilege to be here today. 
I look forward to giving you a few talking points from Spirit 
Lake. To me it is like somewhat of an historical moment, 
because you all show up here in North Dakota, so we don't have 
to travel to Washington, D.C. And you bring all the other 
entities here.
    [Applause.]
    Ms. Pearson. So I am here this afternoon to talk a little 
bit about issues on Spirit Lake. I am going to give you a 
little information on Spirit Lake. The Spirit Lake reservation 
was established by treaty in 1867, and currently consists of 
more than 250,000 acres of land. With that, we have six police 
officers that cover that. I know we are unique in our ways with 
each reservation in size. But again, we definitely all need 
more police officers. I heard it discussed earlier, and I ask 
you, I plead with you to look into that and see that we meet 
that need for each of our reservations.
    There are more than 7,250 enrolled members of the Spirit 
Lake Tribe and our reservation currently has a population of 
approximately 6,200 people, consisting of enrolled members, 
non-enrolled and non-Indian. Most of the enrolled members of 
Spirit Lake reside either on Spirit Lake Reservation or within 
the immediate region.
    The tribe has been diligently working to develop and 
strengthen our self-governance infrastructure, community-based 
services and economy. Demographics and resource deficiencies 
have presented significant obstacles, as we work to meet short-
term goals and to implement meaningful long-term plans.
    The Spirit Lake Tribe has a fully functional tribal court. 
Law enforcement services, as well as detention services, are 
provided by the BIA. The Spirit Lake Tribe exercises broad 
jurisdiction over criminal and civil matters, and the Spirit 
Lake Tribe also has a victim service program funded in large 
part through OBW competitive grant funding.
    The Spirit Lake Tribe has recently reassumed our child 
welfare and child protection services through 638. The Spirit 
Lake Tribe lacks significant and stable resources of 
governmental revenue to provide for the many community safety 
and justice system need within our community, and as such, we 
rely upon the Federal Government to fulfill its trust 
responsibility by providing assistance and developing programs 
to support such services.
    Lack of stable and adequate funding for essential justice 
system services and child and family services remains our 
biggest challenge. The historical base funds provided have 
failed to account for the needs associated with higher than 
average rates of violent crimes, substance abuse and related 
offenses. Funding for first responders and justice system 
service personnel is consistently well below the demonstrated 
and most basic need, and has been for as long as such services 
have been provided on the Spirit Lake Reservation.
    The BIA law enforcement at Spirit Lake has historically 
been under-funded in terms of equipment, training and staffing. 
The Spirit Lake Tribe has made numerous attempts to work with 
Federal partners to resolve these law enforcement deficiencies, 
and yet today, we have only approximately six full-time patrol 
officers working in shifts to provide law enforcement on our 
reservation.
    These deficiencies pose a threat to the lives of the 
officers serving our community and to the safety of our 
community as a whole. These factors directly affect the safety 
of our members, compromise our ability to diversify our 
economies, and hinder our abilities to collaborate with other 
jurisdictional authorities, thereby jeopardizing our 
sovereignty.
    Funding for holistic treatment-based facilities within our 
tribal community is also deficient. Once again, absent from 
services for court-involved individuals, we are left with a 
justice system that is ill-equipped to reduce recidivism and 
foster a healthier, safer community. Base funding for tribal 
courts through 638 is not sufficient, and outside of 
competitive DOJ funding opportunities, there is not a source of 
funds to help stabilize these systems or expand the justice 
system services. Absent funding to develop effective court 
interventions, tribal court staff, and support essential court-
related costs, violent crime and drug-related offenses continue 
to occur at an above-average rate in our community.
    Detention facilities are not readily available for 
juveniles or adults. With no access to nearby in-patient 
treatment facilities, there are significant transportation 
costs. There is rarely, if ever, sufficient funding to make in-
patient treatment for substance abuse, mental health or co-
occurring a viable option. The end result is that most 
offenders appearing before tribal court are sentenced to 
relatively short periods of detention with little to 
rehabilitative or preventive based services available to them.
    For individuals who are not facing criminalization, but 
rather civil offenses, the challenges are even greater due to 
lack of transportation and nearby services. Services for 
children, the elderly and the disabled are linked to our 
ability to foster healthier and safer communities. But funding 
for such services is again, unstable and insufficient.
    Historically, the Spirit Lake Tribe has struggled to 
provide these services due to funding shortages, which cripple 
our ability to hire and retain professional service providers. 
It comes as no surprise, given the higher than average rates of 
violence and substance abuse related offenses in our 
jurisdiction that the caseloads facing our human services are 
disproportionately high.
    The recommendations for what I have just revisited with you 
here on the tribal priority programs is a group of programs 
within the Office of Indian Program Budget that provides 
funding for BIA agency operations, 638 and BIA regional office 
field operations, all of which are essential services for our 
tribes. This funding is critical to the provision of community 
safety-based services, judicial services, human services, 
transportation, economic development and self-determination 
contracts. Stable funding is essential regardless of 
classification, as a direct service tribe or a self-governance 
tribe, and should be provided to a level that meets the needs 
of our tribal communities.
    Public safety and justice, the Federal responsibility, 
which is affirmed by our treaties and even the earliest United 
States Supreme Court cases, supports the premise that Federal 
funding needs to be substantially increased to a baseline that 
supports the provision of professional law enforcement services 
necessary to respond to crimes within our jurisdiction. 
Construction and operation of post-adjudication facilities and 
services reliant upon other forms of Federal funding offered 
through DOJ is not an answer. Such funding sources, while 
helpful, are not stable funding sources that will support the 
long-term change. Establishing an on-reservation inpatient 
treatment facility is a top priority for Spirit Lake. Treatment 
and counseling services are essential to addressing the unmet 
needs of court-involved youth, adults and families.
    Beyond incarceration, there are many programs and services 
that need to be implemented for court-involved individuals. 
While treatment-based programs are a top priority at Spirit 
Lake, we would also benefit greatly from basic alternatives to 
incarceration, such as community service programs and 
probation. The Spirit Lake Tribe needs base funding for such 
programs, which would help to hold offenders accountable while 
also providing valuable services to the tribe.
    In the tribal courts, in light of recent Federal 
legislation such as the Tribal Law and Order Act and VAWA, the 
tribal court needs increased baseline funding to support 
professional judges, public defense programs, probation, and 
reentry services as well as administrative support.
    The Spirit Lake Tribe desperately needs funding levels to 
increase in the area of children and family services if we are 
going to be able to make the systemic changes necessary to 
prevent further untimely deaths of our children and our elders. 
In the Great Plains region alone, an estimated $1.3 million is 
needed to address the unmet needs through the fiscal year 2017 
regional budget.
    These are some of our concerns. I would really appreciate 
it if you can help us, or help whoever is going to take over 
after I leave. I am done in May, and it has been a great honor 
working with you three gentlemen, especially with Senator 
Hoeven and Senator Cramer. You are new to the table there. But 
it is a great honor. I would especially appreciate it very much 
if we can flow this thing onto the lap of the next person who 
is going to succeed me here. I am open to any questions I can 
answer for you.
    Thank you for this opportunity, and thanks, everyone, for 
listening.
    [Applause.]
    The Chairman. I will say, Chairwoman, that once before you 
were leaving as chairwoman. We have worked together for a long 
time. And then you came back and you served for a long time 
again. So I understand you are leaving in May, but maybe you 
will be back again, right?
    Ms. Pearson. No.
    [Laughter.]
    The Chairman. We will see. That is what you said last time.
    Ms. Pearson. I left in 2011 and came back in 2014.
    The Chairman. You came back and you calmed the water, 
calmed the spirits. Very good. Thank you.
    Councilwoman Lisa Jackson.

 STATEMENT OF LISA JACKSON, COUNCIL MEMBER, SISSETON WAHPETON 
                             OYATE

    Ms. Jackson. Good morning, Chairman Hoeven and members of 
the Committee. My name is Lisa Jackson. I am a Councilwoman for 
Sisseton Wahpeton Oyate. I do have a law enforcement 
background. I spent six and a half years as a tribal officer, 
and during my time there, I did establish a training program 
which we are currently using today.
    So the issues and initiatives that we are talking about 
today strike an interest and passion for me. I appreciate the 
time you took to come.
    On behalf of our Chairwoman, Ella Robertson, who was unable 
to be with us today for reasons beyond her control, I would 
like to present her written statement.
    I am wearing red today to honor Savanna Greywind, missing 
and murdered indigenous women, and to bring to light the 
importance of public safety, law enforcement, and efforts to 
stop drug trafficking in Indian communities.
    At Sisseton Wahpeton, our Tribal Police have worked with 
Federal, State and local law enforcement to interdict drugs. We 
called on Federal agencies to assist us local enforcement 
training, to train our tribal police to work with drug dogs and 
to stop drug trafficking. As a result, while the tribal police 
were executive a search warrant on tribal fee lands in North 
Dakota, our drug dogs hit on a Federal Express delivery and 
stopped packages filled with drugs from being sent into our 
tribal community for trafficking.
    SWO has invested $1 million our own funds to enhance law 
enforcement, drug dogs and drug interdiction efforts. Our 
tribal attorney is cross-designated as a Special Assistant U.S. 
Attorney. SWO parole and probation officers have an agreement 
with the State of South Dakota to handle re-entry of tribal 
offenders sentenced in State courts. We cooperate with Federal 
and State law enforcement to ensure public safety throughout 
the Lake Traverse Reservation, our communities, neighbors and 
families.
    American Indians and Alaska Natives suffer violent 
victimization at two and a half times the rate of the national 
average, 124 violent crimes per 1,000 among Native people 
compared to 50 per 1,000 persons nationwide. More than four out 
of five Native women are victimized by violence in their 
lifetime. Fifty percent of American Indian and Alaska Native 
women have been sexually assaulted.
    More than a third of our Native women are raped, double the 
incidence in the general public. For Native girls and women 
aged 15 to 24, homicide is the third leading cause of death. 
Between the ages of 25 to 34 years, homicide is the fifth 
leading cause of death for Native women. Native women are 
murdered at a rate more than ten times the national average. 
Thousands of indigenous women have gone missing. Violence 
against women and other domestic violence is fueled by drug 
trafficking, alcohol and substance abuse. Some of our young 
women were sex trafficking and drug games off-reservation.
    Suicide is epidemic. At two and a half times the national 
average suicide is the second-leading cause of death for Native 
youth aged 15 to 24. Suicide is the result of drug abuse and 
domestic violence in Native communities. This epidemic of 
crime, drugs, violence, and suicide impacts everyone. It 
impacts our children, women, men and all of our families within 
Indian Country. We must all work together to stop drugs, crime 
and violence.
    The Sisseton Wahpeton supports the passage of S. 227, 
Savanna's Act, to address missing and murdered indigenous 
women. We support enactment of S. 211, the SURVIVE Act, to 
offer crime victim for program service and emergency shelter 
for native crime victims. We support the TLOA reauthorization, 
S. 210, and recommend establishment of a joint Interior, 
Justice and Indian national law enforcement commission. We 
support S. 290, to protect Native children and tribal police. 
We support S. 288, to support Native survivors of sexual 
assault. And we support the authorization of VAWA in 2019.
    I would like to say, on behalf of my Chairwoman, on behalf 
of our tribe, on behalf of all the victims that have not had a 
voice, that do not have a voice, I want to say [phrase in 
Native tongue] for allowing us to be here and giving us this 
opportunity to provide our testimony.
    Thank you.
    [The prepared statement of Ms. Robertson follows:]

    Prepared Statement of Hon. Ella Robertson, Chairwoman, Sisseton-
                             Wahpeton Oyate
    Good morning, Chairman Hoeven, Vice Chairman Udall, Members of the 
Committee, Honored Guests. My name is Ella Robertson. I serve as the 
Chairwoman of the Sisseton-Wahpeton Oyate (``SWO'') of the Lake 
Traverse Indian Reservation in North and South Dakota. I am wearing red 
today to honor Savanna Greywind, Missing and Murdered Indigenous Women, 
and to bring to light the importance of public safety, law enforcement, 
and efforts to stop drug trafficking in our Indian communities.
    With great concern for our indigenous women and all of our people, 
with a firm dedication to public safety and justice, I offer my 
testimony at this important hearing on Joint Law Enforcement Efforts to 
Build Safe Tribal Communities and Stop Dangerous Drugs From Entering 
Indian Country.
    At Sisseton Wahpeton, our Tribal Police have worked with Federal 
and state law enforcement to interdict drugs. We called upon the 
Federal law enforcement agencies, for example, to assist us with a 
Mobile Enforcement Unit Team to train our tribal police to work with 
drug dogs and stop drug trafficking. As a result of their training to 
combat drug trafficking, while the tribal police were executing a 
search warrant on tribal fee lands in North Dakota, our drug dogs hit 
on a Federal Express delivery and stopped packages filled with drugs 
from being sent into our tribal community for trafficking. SWO has 
invested $1 Million over our own funds for enhanced law enforcement, 
drug dogs and drug interdiction efforts.
    Our Tribal Attorney is cross-designated as a Special Assistant U.S. 
Attorney to handle cases arising from our area of Indian country in 
Federal court. SWO Parole and Probation Officers have an agreement with 
the State of South Dakota to handle the re-entry of tribal offenders 
sentenced in state courts. We do everything that we can to cooperate 
with Federal and state law enforcement and ensure public safety 
throughout the Lake Traverse Reserve, our neighborhoods and 
communities.
Extreme Danger for Native Americans, Especially Indigenous Women
    The Justice Department's Bureau of Justice Statistics reports that 
American Indians and Alaska Natives suffer violent victimization at two 
and a half times the rate for the Nation as a whole: 124 violent crimes 
per 1,000 persons compared to 50 per 1,000 persons nationwide.
    Among indigenous women, more than 4 out of 5 women will be 
victimized by violence in their lifetime. The National Institute for 
Justice (NIJ) reports more than 50 percent of American Indian and 
Alaska Native women have been sexually assaulted. More than a third of 
our indigenous women will be raped in their lifetime-double the 
incidence of rape among women in the general public. For Native girls 
and women aged 15 to 24, homicide is the third leading cause of death. 
For Native women between the ages of 25 and 34 years, homicide is the 
fifth leading cause of death. On some Indian reservations, Native women 
are murdered at a rate more than 10 times the national average. 
Thousands of indigenous women have gone missing.
    Typically, Violence Against Women and other domestic violence are 
fueled by drug trafficking, alcohol and substance abuse. At the 
Sisseton Wahpeton Oyate, we have experienced sex trafficking, where 
some of our young women were ``trafficked'' off-reservation through 
methamphetamine drug trafficking and abused as part of a migrant 
industry.
    Suicide is an epidemic at Sisseton Wahpeton and our sister tribes. 
At rates of 2.5x the national average, suicide has become the second-
leading cause of death for Native youth aged 15-24. Suicide is often 
the result of drug abuse and domestic violence in Native communities. 
Mental health and substance abuse services are extraordinarily under-
funded and thus severely limited. The lack of services and the 
inadequate number of culturally competent providers must be addressed.
    This epidemic of crime, drugs, violence, and danger impacts 
everyone--children, women, men and all of our families in Indian 
country. We must all work together to stop the drugs, crime and 
violence in our communities.
The Sisseton Wahpeton Oyate: Lake Traverse Reserve
    Our Tribal Headquarters is located in Agency Village, South Dakota. 
We have more than 14,000 tribal members in total and approximately 
7,000 live on or near our Lake Traverse Reservation in North and South 
Dakota. SWO provides essential governmental services to our tribal 
members and others residing, working, visiting and traveling through 
the Lake Traverse Indian Reservation and its environs in northeast 
South Dakota and southeast North Dakota.
    Minnesota, North and South Dakota are our original homeland. The 
Sisseton-Wahpeton Oyate is signatory to the 1851 Treaty with the 
Sisseton-Wahpeton Bands of Dakota Sioux (Traverse des Sioux). Our 1867 
Treaty continues our ``friendly relations with the Government and 
people of the United States,'' and recognizes our right to self-
government and to enact laws ``for the security of life and property,'' 
the ``advancement of civilization'' and ``prosperity'' among our 
Sisseton Wahpeton Dakota people. More than two decades before North and 
South Dakota statehood, the 1867 Lake Traverse Treaty set aside the 
Lake Traverse Reservation as our ``permanent reservation'' homeland:

         Beginning at the head of Lake Travers[e], and thence along the 
        treaty-line of the treaty of 1851 to Kampeska Lake; thence in a 
        direct line to Reipan or the northeast point of the Coteau des 
        Prairie[s], and thence passing north of Skunk Lake, on the most 
        direct line to the foot of Lake Traverse, and thence along the 
        treaty-line of 1851 to the place of beginning.

    Under the Allotment Policy, significant tribal lands were sold as 
surplus lands against our wishes, but under the modern Indian Self-
Determination Policy, Congress affirmed our efforts to recover that 
portion of our homeland and treats our recovered Indian trust lands as 
``on-reservation'' acquisitions within the original boundaries of the 
Lake Traverse Reservation. Public Law 93-491 (1974).
    The Lake Traverse Reservation is located in the Northeastern part 
of South Dakota and the southeastern corner of North Dakota. The 
Reservation boundaries extend across seven counties, two in North 
Dakota and five in South Dakota. The Dakota Magic Casino in Hankinson, 
North Dakota on our tribal reservation lands has been a major success 
and tourism destination for the Sisseton-Wahpeton Sioux Tribe, with 
over 750,000 visits per year and with some customers visiting 4 or 5 
times, we estimate that more than 150,000 people visit our facility 
annually. We operate Dakota Winds Golf Course, a hotel, restaurant, 
buffet and lounge at our North Dakota Resort. We employ 425 people in 
Hankinson, 55 percent of our employees are tribal members and 45 
percent are non-members from nearby towns. We also have two tribal 
housing areas near our Casino and Resort in Hankinson.
    Our Dakota Sioux Casino is located just north of Watertown, South 
Dakota and we employ 202 people, 58 percent of our employees are tribal 
members (or Indians from other tribes) and 42 percent are non-members 
from nearby towns. We also operate a convenience store and service 
station, buffalo herd, fuel company, extruded film factory, and we 
recently opened a grocery store, so we are working hard to create jobs 
and develop our economy.
Savanna's Act, S. 227
    Savanna Greywind was kidnapped and murdered by a drug addicted non-
Indian couple in Fargo, North Dakota, who killed her and took her baby 
from her womb. Senators Murkowski and Cortes Masto reintroduced 
Savanna's Act on a bi-partisan basis to honor Savanna's memory and 
promote public safety for indigenous women. Savanna's Act would 
require, among other things, annual consultations between U.S. 
Attorneys, Tribal Leaders and Tribal Law Enforcement on sexual 
violence, training and technical assistance for tribal police, and new 
rules for reporting and sharing crime data and responding to violent 
crime in and around Indian country. Savanna's Act now has 14 co-
sponsors, including Senator Hoeven and Senator Cramer.
    With appreciation for all of your efforts Mr. Chairman and Members 
of the Committee, the Sisseton Wahpeton Oyate calls upon Congress to 
immediately enact Savanna's Act.
The SURVIVE Act, S. 211
    I also want to thank you, Mr. Chairman, and the Members of the 
Committee for re-introducing the S. 211, the SURVIVE Act with its 
positive purposes to provide resources for Indian Crime Victims, 
including resources to:

        i) Respond to the emotional, psychological, or physical needs 
        of a victim of crime;

        ii)Assist a victim of crime in stabilizing his or her life 
        after victimization;

        iii) Assist a victim of crime in understanding and 
        participating in the criminal justice system; and

        iv) Restore a measure of security and safety for victims of 
        crime.

    The bill would provide continuing funding for domestic violence 
shelters, rape crisis centers, child abuse programs, child advocacy 
centers and programs to prevent and address elder abuse, transitional 
housing, medical equipment, treatment and related services, including 
emergency medical care for crime victims, alcohol and substance abuse 
therapy, and mental and behavioral health counselling.
    For several years, the President's Budget has recommended a 5 
percent Set-Aside for Indian Tribes from the Crime Victims Fund due to 
the high level of violent crime victimization among American Indians 
and Alaska Natives and the unique Federal law enforcement authority for 
areas, including North and South Dakota, Montana, New Mexico and 
Arizona, which are under the Indian Major Crimes Act, 18 USC sec. 1152, 
and the Indian Country Crimes Act, 18 USC sec. 1153.
    The SURVIVE Act would provide a continuing authorization for the 5 
percent Set-Aside of resources from the Crime Victims Fund for American 
Indian and Alaska Native victims of crime programs. Our Sisseton-
Wahpeton people, who are victimized by violent crime, suffer post-
traumatic stress akin to what some military veterans have suffered. We 
suffer high rates of suicide as a result, and Crime Victim Funding for 
counseling and support services is essential to address Indian crime 
victimization issues, including Human Trafficking.
    Again, with appreciation to the Chairman and the Committee, the 
Sisseton Wahpeton Oyate calls upon Congress to immediately enact the 
SURVIVE Act.
Tribal Law and Order Act Reauthorization, S. 210
    The Tribal Law and Order Act authorized the Justice Department's 
Tribal Law Enforcement Programs for five years, and the authorizations 
expired in 2015. S. 210, introduced by Senator Hoeven and reported on 
favorably by the Committee, would re-authorize the Tribal Law and Order 
Act. Reauthorization of this Act is critically important to law 
enforcement, and requires coordination of detention, and other law 
enforcement activities and funding programs.
    The Tribal Law and Order Act enhanced tribal sentencing authority 
to deal with the most serious offenders and we need detention cells to 
do so:

         The Tribal Law and Order Act of 2010 (TLOA) was signed into 
        law on July 29, 2010. (Pub. L. No. 111-211, 124 Stat. 2258). 
        TLOA was enacted in an effort to clarify governmental 
        responsibilities regarding crimes in Indian Country; increase 
        and improve collaboration among jurisdictions; support tribal 
        self-governance and jurisdiction; reduce the prevalence of 
        violent crime in Indian Country; combat crimes such as domestic 
        violence, sexual assault, and drug trafficking; reduce the 
        rates of substance abuse in Indian Country; and support the 
        collection and sharing of crime data among jurisdictions. . .

         [W]ith the amendments to ICRA made by TLOA, tribes now have an 
        option to enhance sentences in criminal cases by imposing 
        sentences not to exceed 3 years imprisonment, fines of up to 
        $15,000 or both for qualifying crimes so long as the tribe has 
        met the specific requirements set forth in TLOA. Sentences may 
        include a combination of incarceration and community 
        corrections such as probation and halfway houses. Under no 
        circumstance can the term of the sentence exceed 9 years. 
        Tribes are not required to implement enhanced sentencing 
        authority but rather can choose whether it is necessary for 
        their community.

         The requirements that must be satisfied by tribes opting to 
        impose enhanced sentences are set forth in Section 234 (a) (b) 
        & (c) of TLOA. Tribes can impose higher sentences if:

    <bullet> The defendant is provided effective assistance of counsel 
        at least equal to that under the United States Constitution, 
        and at the expense of the tribes for indigent defendants;

    <bullet> The defense counsel must be licensed by any jurisdiction 
        that applied appropriate licensing standards, ensure 
        competency, and has rules of professional responsibility;

    <bullet> The defendant is not subject to excessive bail, excessive 
        fines or cruel and unusual punishment;

    <bullet> The presiding judge has sufficient legal training for a 
        criminal proceeding and licensed to practice law in any 
        jurisdiction in the United States;

    <bullet> All criminal laws, rules of evidence, and rules of 
        procedure etc. are publicly available; and

    <bullet> The tribe shall maintain a record of criminal proceedings.

         See TLOA Pub. L. No. 11-211, Sec. 234 (a)(1)(2); 234 (c); see 
        also 25 U.S.C.  1302 (c); as explained by the Bureau of 
        Justice Assistance, U.S. Department of Justice, Tribal Law and 
        Order Act: Enhanced Sentencing Authority (2015).

    At great expense and effort, the Sisseton Wahpeton Oyate is 
compliant with the enhanced sentencing requirements of TLOA.
    To enhance TLOA, Congress should establish an Indian Law 
Enforcement Improvement Commission to be composed of the Justice 
Department, Interior and Indian tribes to enhance the effectiveness and 
coordination of Indian law enforcement, as follows:

  <bullet> The Department of Justice shall cooperate with the 
        Department of the Interior in providing comprehensive law 
        enforcement services to assist Indian tribes to ensure public 
        safety, maintain law and order, and administer justice in 
        Indian country, including detention facilities; and

  <bullet> The Secretary of the Interior and the Attorney General shall 
        establish a Joint Indian Country-Indian Nations Justice 
        Commission composed of Indian Country Public Safety, Law 
        Enforcement, Justice and Budgetary Components to address the 
        needs of Joint Federal-Tribal Law Enforcement, Plan with, 
        Strategize, and Coordinate with Tribal Leaders and Tribal Law 
        Enforcement on a Government-to-Government Basis;

    The TLOA Reauthorization should also include a demonstration 
project modeled upon Public Law 102-477 for Great Plains Indian tribes 
under Federal and Tribal Law Enforcement Jurisdiction:

  <bullet> Indian tribes under Federal and Tribal Law Enforcement 
        Jurisdiction with 2,000 tribal members or more (and intertribal 
        consortia serving 2,000 Indians or more) may submit 
        comprehensive plans for public safety, law enforcement and the 
        administration of justice and such comprehensive law 
        enforcement plans shall be jointly funded by Interior and 
        Justice, with unified reporting to both agencies and a unified 
        program audit, and shall be administered by Interior under 
        Public Law 93-638;

  <bullet> After consultation with the Secretary of the Interior and 
        the Indian Country Law Enforcement Improvement Commission, the 
        Attorney General may waive administrative, statutory and 
        regulatory provisions when such waivers are deemed necessary to 
        promote Indian Self-Determination and public safety, effective 
        Indian country law enforcement, and efficient administration of 
        justice in Indian country, provided that overall public safety, 
        law enforcement and criminal justice program goals shall be 
        maintained and a report shall be provided annually to Congress 
        concerning waivers.

    Such a pilot project has been shown to be practical and effective 
under Public Law 102-477 (Labor--Interior Employment Training 
Programs), and Indian tribes under Federal and tribal law enforcement 
jurisdiction need more basic assistance for law enforcement than is 
currently provided by grants.
    Again, we appreciate the Chairman's and the Committee's efforts in 
the important area of public safety, law enforcement and justice and 
the Sisseton Wahpeton Oyate calls for Congress to swiftly enact S. 210 
into law.
S. 290, To Protect Native Children and Promote Public Safety
    S. 290 finds that: ``Childhood exposure to violence has immediate 
and long term effects, including increased rates of altered 
neurological development, poor physical and mental health, poor school 
performance, substance abuse, and overrepresentation in the juvenile 
justice system.'' Violence against children, dating violence, and 
domestic violence reduce health outcomes, reduce educational 
attainment, hinder economic development, and undermine public safety. 
The U.S. Attorneys decline 52 percent of cases from Indian country, so 
this bill is critically important to stem the rising tide of violence.
    Vice Chairman Udall's Bill would restore tribal prosecutorial 
jurisdiction over non-Indians who commit crimes against Native Children 
and/or crimes against Tribal Public Safety Officers in Indian country. 
Again, the Sisseton Wahpeton Sioux Tribe supports swift passage of S. 
290 to safeguard our children and restore tribal jurisdiction, promote 
public safety and law enforcement.
S. 288, Justice for Native Survivors of Sexual Violence Act
    Senator Tina Smith together with Senators Murkowski and Udall has 
introduced S. 288, the Justice for Native Survivors of Sexual Violence 
Act. This Act restores the original jurisdiction of Indian tribes to 
try and punish sexual violence against Native women when committed by 
non-Indians. It expands the scope of tribal jurisdiction restored in 
2013 by the Violence Against Women Reauthorization Act (VAWA). 
According to GAO's report, the U.S. Attorneys declined 67 percent of 
sexual assault and abuse cases arising in Indian country, so it is 
critically important that tribal justice systems be empowered to handle 
these cases. The legislation is supported by the National Congress of 
American Indians, STOP Violence Against Women organizations, and 
regional Indian organizations. The Sisseton Wahpeton Oyate urges 
Congress to enact S. 288 to fight the rising tide of violence against 
our indigenous women.
VAWA Reauthorization Act of 2019
    The Sisseton Wahpeton Oyate supports the 2019 VAWA Reauthorization. 
VAWA is critically important to STOP Violence Against Women. Indian 
nations and tribes receive important grant funding under the Act, and 
we must continue to make progress under VAWA. NCAI adopted resolution 
ECWS-19-005, which sets forth five priorities for reauthorization of 
the Violence Against Women Act in 2019:

        1)  include provisions, like those included in the bipartisan 
        Native Youth and Tribal Officer Protection Act and Justice for 
        Native Survivors of Sexual Violence Act, that amend 25 U.S.C. 
        1304 to address jurisdictional gaps including: child abuse and 
        endangerment; assaults against law enforcement officers; sexual 
        violence; stalking; trafficking; and the exclusion of certain 
        tribes from the law;

        2)  create a permanent authorization for DOJ's Tribal Access to 
        National Crime Information Program and ensure that TAP is 
        available to all tribes;

        3)  improve the response to cases of missing and murdered women 
        in tribal communities;

        4)  identify and address the unique barriers to safety for 
        Alaska Native women and provide access to all programs; and

        5)  reauthorize VAWA's tribal grant programs and ensure that 
        funding is available to cover costs incurred by tribes who are 
        exercising jurisdiction pursuant to 25 U.S.C. 1304.

The Sisseton Wahpeton Oyate supports NCAI's principles.
    H.R. 1585, the House VAWA Reauthorization Act of 2019 reinforces 
current law and makes critical improvements to address dating violence, 
stalking and related concerns, increases protections for Native 
American women and also addresses violence against Native men and 
children. On March 13, 2019, the House Judiciary Committee favorably 
voted H.R. 1585.
    The Sisseton Wahpeton Oyate urges Congress to enact an enhanced 
VAWA Reauthorization Act of 2019.
Rising Crime Statistics Nationwide and in North and South Dakota
    The FBI UCR Crime Report finds a 6.8 percent nationwide increase in 
crime over 2013. Aggravated assaults are 65.0 percent of violent crimes 
reported to law enforcement in 2017. Robbery offenses are 25.6 percent 
of violent crime offenses; rape (legacy definition) accounts for 8.0 
percent of violent crime; and murder accounts for 1.4 percent of 
violent crime.
    In North and South Dakota crime rates are increasing: The South 
Dakota Crime Rate was up 2.7 percent per 100,000 in 2017 compared to 
2016: South Dakota 433.6 per 100,000. In North Dakota Crime Rate per 
100,000 increased by 11.6 percent to 281.3 per 100,000.
    South Dakota State 2017 Crime Reports include a 13.1 percent 
increase in rape crimes, although murder was down. Past South Dakota AG 
Marty Jackley said, ``[T]here's a meth epidemic across the Nation.. It 
affects the Reservations as well as the State when the methamphetamine 
come into the State from across the Southern borders. . . . We need to. 
. .spread the message to the youth and do everything we can for 
prevention and treatment.'' KSFY TV, Reservation Crime Would Nearly 
Double SD Crime Stats (March 20, 2017).
    The FBI, U.S. Attorneys and tribal law enforcement have 
jurisdiction over Indian reservation crime. ``The number of cases and 
number of users of methamphetamines has been rising on Indian 
reservations across the state. The increase in drug activity is 
correlating to an increase in the violent crime. Specifically, we've 
seen an increase in violent crime incidents in all of the Indian 
reservations throughout the state,'' said Matt Moore, FBI Supervisory 
Senior Resident Agent for Sioux Falls.
    In the Governor's race last year, the question arose ``Just how 
safe is South Dakota.'' Governor Noem says, ``South Dakota has grown 
increasingly unsafe,'' as the growth of violent crime has outstripped 
the growth of the population. ``Violent Crime Outpaces Population 
Growth,'' Sioux Falls Argus Leader, May 14, 2018. That was especially 
true in rural areas. Drug crime offenses in South Dakota grew 222 
percent over the last 10 years. The Governor pledged to fight drug 
crime, and at Sisseton Wahpeton, our Tribe is committed to fighting 
drug crime as well.
    Sisseton-Wahpeton Sioux Crime Statistics. At Sisseton-Wahpeton, we 
have seen continuing serious increase in drug related crime and 
violence consistent with, and more severe, than the overall pattern of 
North and South Dakota.
    Due to the drug and alcohol abuse problems affecting our 
Reservation, our tribal police made about 1400 arrests last year on the 
Lake Traverse Reservation in North and South Dakota. In recent years, 
SWO youth and adults on our Reservation have been suffering with 
chemical dependency, drug and alcohol abuse, and violent crime 
resulting in the key incarceration figures:

  <bullet> Substance abuse offenses & criminal offenses account for 
        approx. 75 percent of all adult arrests, of which 15 percent 
        exhibit highly repetitive substance abuse and criminal 
        behavior. This group uses a disproportionate amount of justice 
        (and potentially other) system resources.

  <bullet> About 80 percent of all juveniles charged have a substance 
        abuse offense, often accompanied by a curfew violation. This 
        pattern shows a lack of parental supervision and clearly 
        underscores a need to address these offenses in the context of 
        families and family networks.

Adult Detention Center
    The Sisseton Wahpeton Oyate identified our Justice Center as our 
top congressional funding priority. Concerning public safety, community 
health and wellness, we have focused on Behavioral Health, including 
addressing chemical dependency, mental health, adolescent treatment, 
detox, transitional care, inpatient/outpatient services for adult and 
youth, as our community health and wellness action area. We currently 
lack sufficient facilities and services to adequately address these 
health care needs. Our 1974 building for law enforcement services, 
which the BIA closed and decommissioned in December 2016 due to 
operational and other deficiencies.
    The BIA's closure of our jail has left us with little recourse 
against drunk driving, drug crimes and domestic abuse. In 2017, when 
former Governor Daugaard came to visit Sisseton Wahpeton, my assistant 
Scott German observed two drunk drivers travelling our roads together 
which required immediate police response, so our Chief of Police was 
not able to attend our law enforcement meeting with the Governor.
    Our tribal police have had to send home domestic violence abusers 
and recently, we had a 7 year-old bring a syringe to school, which his 
mother used for meth. We had to let the mother back on the streets 
until her trial because we have no place to detain her. Our incidents 
of drug related crime problems are serious. The BIA suggested 
contracting with nearby county detention facilities, but the counties 
are overwhelmed and have no room for our offenders.
    Priorities for Safe, Healthy Sustainable Tribal Communities. SWO 
has identified our Justice Center as our highest priority.
    Among health care, the Oyate identified Behavioral Health, 
including addressing chemical dependency, mental health, adolescent 
treatment, detox, transitional care, inpatient/outpatient services for 
adult and youth, as our top community health and wellness priority. We 
currently lack sufficient facilities and services to adequately address 
these health care needs. We had a 1974 jail, which the BIA closed in 
December 2016.
Initial Funding for Adult Detention Center
    SWO has identified our Comprehensive Justice Center-which includes 
Adult and Juvenile Detention, Detoxification, and Drug and Alcohol 
Rehabilitation-as our highest priority.
    At the end of FY 2018, the BIA Facilities Division awarded SWO 
$4.875 to plan and construct a 25 medium security bed Adult Detention 
Facility. That is the first component of our Sisseton Wahpeton Justice 
Center, and we appreciate your help with funding this important first 
step of our Justice Center.
FY 2020 Request:
    At the Sisseton Wahpeton Oyate, we need more congressional help to 
build our comprehensive Justice Center. Congressional request for FY 
2020:

  <bullet> $4 Million for High Security Detention Cells;

  <bullet> $2 Million for BIA Detention Staffing; and

  <bullet> $4.84 Million for Drug and Alcohol Rehabilitation Center.

    For FY 2020, the Sisseton Wahpeton Oyate urgently needs $4 Million 
in additional funding for: (a) high security cells for the most serious 
offenders incarcerated under Tribal Law and Order Act (TLOA) enhanced 
tribal sentencing authority; (b) $2 Million for BIA Detention Staff; 
and (c) $4.84 Million for our Alcohol and Drug Rehabilitation Center.

        a) High Security Adult Detention Cells: $4 Million

    At the outset of FY 2019, the North and South Dakota congressional 
delegations supported our request for additional funds for high 
security cells in our Adult Detention Center. We need those funds for 
12 beds for more serious adult offenders, such as rapists, other 
violent recidivists, and drug dealers.
    We are ready to sentence serious tribal offenders that the U.S. 
Attorney and the FBI have not dealt with, including drug dealers, 
rapists, other serious violent crime recidivists, and drug addicts. At 
SWO, we need $4 Million in funding for an additional 20 high security 
cells for these offenders.

        b) Detention Staffing: $2 Million to Pay for Necessary 
        Detention Officers

    The BIA knows that we need an increase in funding for Detention 
Staff for our Adult Detention Center. Last year, the Sisseton Wahpeton 
Oyate requested an increase of $2 Million in BIA Detention Staffing, 
and the Senate adopted the request to increase BIA Detention Staffing. 
Now, the BIA tells us that we cannot count on the increase without a 
clear statement from Congress directing the funding towards newly 
constructed facilities. So, we are requesting that Congress increase 
BIA Detention Staffing by $2 Million to provide Detention Officers for 
New Constructed Tribal Detention Facilities. We also need to know that 
if we fund our Juvenile Detention Facility, Congress will direct the 
BIA to include that Component of our Justice Center on the BIA 
Facilities List.

        c) Rehabilitation Center: $4.84 Million

    Priorities for Safe, Healthy Sustainable Tribal Communities. SWO 
has identified Behavioral Health, including addressing chemical 
dependency, mental health, adolescent treatment, detox, transitional 
care, inpatient/outpatient services for adult and youth, as our top 
community health and wellness priority. We need sufficient facilities 
and services to adequately address these health care needs.
    The Tribal Council adopted a Tribal Action Plan (TAP) in July 2016 
which identifies addictions as a health status priority. Development of 
a new treatment and recovery support center to expand and enhance our 
capacity. Co-occurring substance use disorders, behavioral and criminal 
justice issues are rooted in inter-generational trauma. There is 
critical need to break the cycle through intervention and healing. The 
proposed new Community Justice including Rehabilitation Center concept 
focusses on a restoration to community wellness and re-entry by 
offenders into healthy and productive family and community life.
    The Sisseton Wahpeton Oyate requests that funding to construct and 
staff the addiction treatment component of the Community Justice and 
Rehabilitation Center be provided to the Tribe consistent with the 
Indian Health Care Improvement Act and the TAP provisions of the Tribal 
Law and Order Act. The component square footage from the concept design 
work we completed in January 2017 is 15,873 square feet. The 
construction cost is $4,840,000. Inpatient capacity would be 24 and the 
increase in our concurrent outpatient treatment and prevention services 
will be substantial.
Conclusion:
    At Sisseton Wahpeton, we strongly believe that Public Safety, Law 
Enforcement, the Administration of Justice, Rehabilitation and Re-Entry 
for drug and alcohol offenders and other offenders are essential to 
health community life and healthy Indian nations. We stand ready to 
work cooperatively with Federal, state and local law enforcement 
agencies, as we have demonstrated through cooperation by our tribal law 
enforcement, officers and attorneys to interdict drugs, fight human 
trafficking, promote law enforcement, and assist with prosecutions, 
probation and parole and re-entry of rehabilitated offenders into the 
community.
    Please help us with the necessary appropriations to fully build out 
our Tribal Justice Center. It is essential to our efforts to fight drug 
trafficking, crime, and violence. Thank you for the opportunity to 
testify before the community.

    The Chairman. That is powerful testimony that I hope will 
help us pass these bills. Thank you. I appreciate that.
    Councilwoman Judy Brugh.

 STATEMENT OF JUDY BRUGH, COUNCIL MEMBER, MANDAN, HIDATSA AND 
                 ARIKARA NATION TRIBAL COUNCIL

    Ms. Brugh. Thank you. Thank you, Senators, thank you, 
Congressman, and thank you all who hung in there with us this 
afternoon. I will try to make this short and sweet.
    But I remember, Senators, years ago when I came to you, you 
were the Governor and you also were in office. We came to you 
and asked you for passage of a tax bill and you supported us. I 
really appreciate that. And I appreciate our Governor today for 
also his support. I never got to thank him personally, but 
thank you, Governor. For those of you who work for him, let him 
know that we appreciate him, from MHA Nation.
    The Chairman. It is amazing what you have done. It is 
amazing what you have done.
    Ms. Brugh. Exactly. I was going to say. There was a person 
in the House when we had to provide testimony that said, 
whatever you guys going to do with all that money? So I told 
them.
    [Laughter.]
    The Chairman. If you were a State, you would be like the 
eighth or ninth largest energy-producing State in the Country. 
You are a testament to your people.
    Ms. Brugh. Yes. So I told them, I said, you know what? Come 
back to me in a few years and I will teach you on my personal 
turf. But I haven't seen them around my personal turf.
    [Laughter.]
    Ms. Brugh. But we are here because we are all happy that 
the oil boom hit North Dakota. But with the influx of oil comes 
money. And where there is money there comes drug and drug 
dealers and our reservation has been hit so hard, our lives 
have turned upside down. I used to leave my house open, my 
doors open. Today, I have to lock my door. We used to have a 
dog that would protect us, but my poor little dog passed away, 
so I haven't found one lately. But he would alert us if anyone 
came through and we felt we were protected.
    Last night, I received a phone call that somebody was at my 
house and was arrested. They must have known I was out of town. 
So of course, they were going to come up there and see what 
they could find. Those are the kinds of things that we never 
had to deal with before. Now we are dealing with it on a daily 
basis.
    The drugs have hit our reservation so hard, Senators and 
Congressman. And they are mostly coming in from Minneapolis 
into our reservation and they have impacted our other 
neighboring reservations, too. Our MHA Nation was forced to 
pick up the slack for underfunded and unprepared BIA and 
Federal law enforcement. A lot of our funding that we have been 
fortunate enough to receive from the oil has gone into 
prevention and also incarceration. We have had to build multi-
million dollar facilities to house our juveniles, our adults. 
We have built a treatment center here in Bismarck that is going 
to provide a lot of job opportunities for the people. And we 
have more people there than the Bismarck treatment center has. 
That shows you exactly how much it has impacted our 
reservation.
    You can go out, probably, a buy a $20 pill on the street. 
But when you come to Fort Berthold, they are selling them for 
$60 to $100 a pill, because they know where the money is. And 
these pills are dangerous. Because they are laced with 
fentanyl. Everybody knows what happens when you get pills that 
are [indiscernible] and they are brought in with fentanyl in 
them, and they are coming from south of the border, the 
majority of them.
    I work on judicial, and I am the chair of the judicial 
committee. A lot of our statistics are provided by Chip White. 
We are so fortunate to have him in our drug task enforcement. 
They have done a tremendous job working with the Federal 
agencies. As we pointed out, the only one that is really 
lacking is the BIA. I hate to say that, Mr. Addington, but you 
guys better step it up. You took our person away from Fort 
Berthold, and we don't even have anyone down there any more, 
and you sent them somewhere else. We used to have two, Senator, 
that worked with us. Now we don't have anyone. So we have to go 
to Minot, or we have to find somebody in Bismarck or something.
    We have so many Federal cases now pending, because of these 
drugs. We have seen our children impacted by it. We have seen 
violent crimes that have been committed by little children all 
the way up to our adults. There has been prostitution, there 
has been sex committed on children. There has been women that 
have been beaten and raped. And we had a woman who we never 
found for a few months, and she was under the water. And that 
case is unsolved.
    And we are dealing with that. So the majority of our funds, 
Senators, are going into this type of prevention. Our tribe 
isn't becoming any more rich than we were before, if you know 
what I mean. Because we have to put our funding into these 
types of resources. So we need some more help on all our 
reservations. We are not the only one impacted by it. It is 
spreading throughout the whole State of North Dakota. All of 
us, we are all suffering.
    The new judicial center cost $17 million. Our tribe had to 
pay for it. We never received one Federal dollar. And that is a 
shame. We have had to build new schools because the BIA never 
helped out. I have a BIA road in my community that is so ripped 
up by oil traffic that all the people that live along Route 2, 
it is like traveling like that down the road over the bumps and 
everything else. Now, this year, I had to ask my fellow council 
members for monies to get that road repaired for the safety of 
our people.
    We have had, Senators, people bring over 2,000 pills in a 
week. So you see the amount of drugs that is coming into our 
reservations. And it is not just pills, it is heroin, too. I 
didn't hear anybody speaking about that today, but we are 
seeing a rise of heroin in our reservation.
    We are fortunate enough that we have a diver, a bomb dog 
and a drug dog that was purchased by our tribe. I personally as 
a council representative have funded our law enforcement 
officers with two more drug dogs and two vehicles that are 
equipped to carry drug dogs. That came out of my budget for my 
community, just to help them out.
    We need more money. Our vehicles are being run to the 
ground, because we have over those million acres to take care 
of. If there is somebody being beaten in one of our communities 
in Twin Buttes and we don't have enough law enforcement 
officers to cover it, it takes two hours to get there. By then, 
there could be a disaster.
    So, Senators, and Congressman, we are asking for your help. 
We are just asking if we can get more funding to help our law 
enforcement. We have done all we can do on our reservation to 
help out.
    Thank you.
    The Chairman. Thank you, Councilwoman. I thank you all. You 
have given very strong testimony that goes exactly to what we 
are trying to do with these bills. So I appreciate it, and it 
is very helpful.
    I would just like to ask a follow-up to Councilwoman 
Jackson, and also Chairwoman Myra Pearson. Councilwoman Jackson 
you were a law enforcement officer for six years. And also 
Chairman Pearson, because you do have some experience over a 
longer period of time looking at these issues. So you both have 
done a very good job of helping build the kinds of records that 
we need to get the help and support we need to pass the bills.
    Councilwoman, as a former law enforcement officer, what can 
we do to get more, particularly BIA, more law enforcement 
officers? We've talked about a number of things, but you have 
served in that capacity. How do we get more people into that 
role? What do you think would be useful?
    Ms. Jackson. Into the role of law enforcement?
    The Chairman. Recruit them and get them trained as BIA law 
enforcement officers and get them out there and deploy them.
    Ms. Jackson. That is an excellent question. I think it kind 
of got touched on briefly earlier. It is the training and the 
location of the training facility. I am a graduate of FLETC, 
out of Artesia, New Mexico. I'm Class IPA 71, graduated at 95. 
I was a single parent, pursuing my law enforcement career. And 
I had to travel that length of distance for four and a half 
months away from my family.
    So that was a struggle for me. Fortunately, I did have good 
training sergeants that helped me through that. But a lot of my 
fellow cadets did drop out because of the location and the 
distance, where the training facility was located. So I do 
believe if we can move, I hear talk about this facility closer. 
That is going to be a huge impact on getting officers to be 
able to make it through that training.
    The Chairman. That makes sense to me. I think it helps you 
all recruit them, I think it helps get them through the 
training, in that as one of our law enforcement officials said, 
they will stay. So I think that is right on.
    Ms. Jackson. That was my experience.
    The Chairman. So we need to figure out how to do that.
    And then, Chairwoman Pearson, again, this is just based on 
your perspective, I think you touched on this and pretty well 
covered it, but in your opinion, what is maybe the number one 
thing that BIA can do to improve their consultation and how 
they work with you and the tribal council on the reservation? 
What would come at the top of your mind of how they can do a 
better job? A better job consulting, a better job working on 
these issues?
    Ms. Pearson. In consulting with the tribes, I believe that 
they should be more open. I am going to go back in the history 
of my career here, but we used to have a superintendent that 
worked with our office. He even opened the garage doors to let 
us use the snow blades and stuff to clear the snow. He believed 
in everybody working together.
    He told me at that time, don't ever be afraid to come to my 
office, because I work for you. And if there is anything I can 
do, I am going to do it, because I work for you. I am BIA and 
we are here to help the tribes.
    So I believe that in working together, we shouldn't 
separate ourselves because I get my paycheck from this guy and 
you get yours over there. So work together, that is all it is.
    And even dealing with this drug problem we have today, if 
we all want it, we have to work in unison to achieve that. 
Everybody has to want it, we can't just do it because, I am 
doing it because I have a drug-free family. That is not the 
case in Indian Country. I have people that are involved in 
drugs in my family. And I want them all to be healthy someday.
    So at that point, I am willing to sacrifice that and get 
help there, if I have to use them. But we all need to work 
together and it is not just my problem or your problem. It is 
everyone's problem. We need to look forward to our children and 
their futures. I hear that a lot, but let's do something to 
make sure they have a safe future.
    The Chairman. I see that Chairman Azure has arrived. We 
want to make sure we give you an opportunity to speak. Thank 
you for being here.
    Senator Cramer. The keynote address.
    [Laughter.]

 STATEMENT OF HON. JAMIE AZURE, CHAIRMAN, TURTLE MOUNTAIN BAND 
                      OF CHIPPEWA INDIANS

    Mr. Azure. First of all, I would like to apologize for 
being late. Murphy's law kind of ran its course with me this 
morning, and I literally 15 minutes away was changing my tire 
on the side of the road. I may look a little bit different 
here, too. After the polar plunge last week at MHA I was 
approached by the American Indian Cancer Foundation and I let 
them know that if they raised $5,000 on behalf of some our 
counterparts in the Federal Government and State government 
that I would either shave my head or shave my beard. And they 
chose my head this morning.
    The Chairman. You made the right choice, that is a great 
look.
    [Applause.]
    Mr. Azure. And I also nominated all of the Senators to also 
shave their heads.
    [Laughter.]
    Mr. Azure. I do want to apologize to my counterparts. 
Usually when I give testimony I will cut out something that has 
already been covered. I am sure that all of the testimony given 
today covers all of our tribes. We all have similar issues.
    Same as with the counties, same as with the States. And 
Chairwoman Pearson just commented on that, I would say, it is 
an evolving issue with law enforcement. But it is not only the 
tribes that are dealing with a lot of these issues, it is 
partnerships moving forward with the Federal Government and 
State governments, counties, every faction of law enforcement.
    I am going to do something a little bit different here 
today. I usually don't read off of a prepared statement. But 
this is a very important meeting here today and I want to get 
our facts across, and I want to get everything right. So if you 
will bear with me, I am not used to reading off pieces of 
paper, even though I have practiced all night here, or last 
night. So let me get to it, and again I apologize as far as 
some of this has been covered.
    First of all, I want to thank you all for your time. I know 
your time is important. I know for our tribal leaders, time is 
all-important. So [greeting in Native tongue], thank you, 
Senators, for coming to North Dakota for this field hearing. I 
am Jamie Azure, the Chairman of the Turtle Mountain Band of 
Chippewa Indians. As you all are aware, the Turtle Mountain 
Band of Chippewa Indians resides in north central North Dakota 
on a six mile by twelve mile reservation. It is a good day, 
because we as a tribe are happy to report some of the great 
strides our nation [indiscernible] our law enforcement 
agencies. We will also touch on some needs on law enforcement 
coverage and emergency services.
    First, as it pertains to relationship building. We at 
Turtle Mountain Band of Chippewa have a unique, hybrid police 
force. Specifically, the Bureau of Indian Affairs Justice 
Services has the primary law enforcement responsibility for our 
territory. But the tribe also, this is where I get thrown out 
all the time [indiscernible], police with a number of officers. 
We have accomplished this with a number of inter-government 
agreements with the United States, COPS grants, tribal 
government funds and perseverance. The Indian Country Law 
Enforcement Reform Act, P.L. 111-211, permits tribe and BIA OJS 
to execute memorandums of understanding, MOUs, so that tribal 
law enforcement can be supervised by BIA OJS and utilize both 
equipment and law enforcement centers in order for this to 
occur. Tribal law enforcement must meet the same background 
check and training standards as BIA's law enforcement officers. 
?????
    I have attached with my testimony that will provide 
[indiscernible] a copy of our MOUs to my testimony. We passed 
the MOUs in October of 2017. We are still waiting for BIA's 
execution or adoption of these agreements. We are not sure what 
is taking so long, as we used the BIA OJS template for the 
agreements.
    In addition to this, we have two EL 638 criminal 
investigator positions. These 638 positions allow the tribe to 
maintain some of our more seasoned officers past the Federal 
law enforcement official retirement age of 57 years old. 
Second, some additional [indiscernible] from the Turtle 
Mountain is too full. A lot of Federal law enforcement 
agencies, State BCI and county agencies, the tribe permits the 
process for coordinating a drug task force. The tribe initiated 
the process and hosted discussions. The Rolette and Pierce 
County sheriff's offices hosted as well.
    We expect to continue meeting, and will be meeting in 
Bottineau County in April. We hope to have an agreement in 
place by the end of summer.
    In the course of the task force discussions, we have found 
a number of legislative voids that somewhat hinder the tribe 
and BIA OJS in coordinating with State and county entities, 
specifically the State of North Dakota law fails to include BIA 
OJS as Federal law enforcement in NDCC statute section 299-06-
05.2, which is odd, because BIA law enforcement attends the 
same law enforcement training facilities as other Federal law 
enforcement officers.
    So with the coordination of the North Dakota Indian Affairs 
office, the State Highway Patrol and the tribes, legislation 
tends to amend the code section to grant BIA the same authority 
off-reservation as needed, as every other Federal agent. We 
hope for successful passage before the close of the North 
Dakota legislative in 2019. A third of the tribe, Rolette 
County, the cities of Rolla and Rolette, negotiated a mutual 
aid agreement. We designed the mutual aid agreement to get the 
closest officer to call as soon as possible. The officer, 
regardless of department, will assist at that call until an 
officer with jurisdiction can arrive.
    While other law enforcement essentially functions the same 
way, the mutual aid agreement clarifies liability and protocol. 
So each agency may comfortably act without fear of personal 
liability. It takes about 15 to 20 minutes to reach some of the 
calls on our reservation from the appropriate monitoring 
center. These delayed response times result in negative impacts 
on the [indiscernible] aid. While we do not have the spans of 
land that Standing Rock has, we have significantly higher 
volume of police calls for serious crimes.
    Fourth, a group of community members over the course of 
three years revised our criminal code to provide more offenses, 
protection of law enforcement, protection of children, 
protection of the community as a whole. Cynthia Peach primarily 
pushed for these assignments, and now she works for United 
Tribes. We miss her in the [indiscernible] office.
    Next, I will address some of our needs. First, we have a 
shortage of officers, both tribal and BIA. It seems we cannot 
find enough people to fill the positions. This is further 
exacerbated by the length of time BIA takes to hire an officer. 
We have not had a BIA division of drug enforcement special 
agent since August of 2017. In December, we directly acquired 
with OJS direct [indiscernible] as to this position being 
filled, indicated that it was forthcoming. And here we are in 
April with a position that has not been filled. It seems to 
take more than a year to fill out our local BIA law enforcement 
positions.
    While we clearly understand the need for appropriate 
vetting and background checking, background checks and 
adjudications of officers takes three to four months. Are there 
regulatory methods that we can discuss to shorten this time?
    Furthermore, when we hire a tribal officer, we often lose 
them because we cannot pay them what the BIA, the county or 
what the cities can pay them. We seek some pay equity in our 
COPS grants regulations associated with law enforcement. We 
recently lost an officer to the city of Barnes. These men and 
women put their lives on the line for us daily. The least we 
can do is compensate them appropriately.
    Second, our law enforcement center and jail center are the 
same age as one of our [indiscernible], 66 years old. Today the 
center is closed because of electrical problems and fire 
suppression systems. At least 60 inmates are being housed 
around the area in county jails and away in other BIA 
facilities as far as Oklahoma. The jail is designed to hold 30, 
and it holds up to 60 regularly.
    Unfortunately, the facility does not have space for 
treatment, education or even exercise. The regulations 
associated with jails and prisons are stringent, and ours no 
longer meets those regulations. We look for either a new 
Federal facility or assistance finding financing for 
construction of our new one. We likely need some technical 
assistance in evaluating the feasibility of the long-term costs 
associated with that venture.
    Third, we would like to commence the Tribal Law and Order 
Act, TLOA, prosecution and defense. However, we do not have 
sufficient numbers of law [indiscernible] keep in compliance. 
Our community is preyed upon by outsiders who are embedded to 
abuse our women. A TLOA court-encouraging opportunity will 
greatly reduce those events in creating consequences for 
offenders. Ironically, while most people find [indiscernible] 
lawyers frightening, we seem to be in an attorney desert. We 
have at least 65 tribal members who have gone to law school, 
but only three licensed attorneys live in Belcourt, and four 
are retired. We have sent many numbers to law school at UMD, 
but they are not barred.
    A few non-Indian attorneys are in the area. I believe only 
two are in the city of Rolla, States Attorney Ryan Thompson and 
[indiscernible], who is also winding their practice, as they 
are ready to retire. If there is any assistance or incentives 
that we can work together to find a solution to this problem, 
we are more than open.
    Fourth, we have heard rumors that the State of North Dakota 
intends on creating regional 9-1-1 centers. This frightens our 
tribe. We are frightened because 9-1-1 centers' efficiency is 
dependent on the ability of the call center to get emergency 
services to the appropriate locations. A Devils Lake 9-1-1 
center will not serve [indiscernible]. While our roads have 
been numbered and indeed, many of our houses are numbered, 
emergency services cannot find our residences.
    Yesterday, one of our staff relayed a story of when he had 
a heart attack, his son had to run to the road to wave down the 
ambulance, because it was driving back and forth in front of 
their house. My staff member did and was resuscitated by 
defibrillator. This was only two years ago. Luckily, he 
survived. The community is concerned with the proposed regional 
Devils Lake 9-1-1 center's lack of contact with the area and 
unfamiliarity with the people that may result in many more 
negative outcomes.
    We would like the opportunity to operate a 9-1-1 call 
center from the reservation to better serve our people and 
surrounding areas. We hope that this would be funded the same 
way that areas are served through the Federal Communications 
Communication surcharge on telecommunications services.
    So that is all the legal, what they wanted me to say on the 
input, then. I think as our other chairmen put it best, I like 
to go off on this written statement and talk about what our 
people really feel. And it goes back to, as was mentioned when 
I walked up the steps here, this isn't just a tribal situation, 
this isn't just Turtle Mountain, this isn't just Standing Rock, 
this isn't just Spirit Lake. This has to be a community effort 
in the community, the State, every entity needs to come 
together.
    The sad facts are that the bad people know the loopholes 
better than the good people. We see it every day in a lot of 
our casinos, and a lot of our housing facilities. We have 
criminals that know that there is a $50,000 limit to where they 
are going to be prosecuted on drug charges. So they are at 
$49,999.99, because they know they are going to get a slap on 
the wrist then it is going to get pushed back and somebody else 
will take the fall. These are non-members coming onto our 
reservation.
    So we are basically handcuffed. We can't prosecute in our 
tribal courts. Our law enforcement is stressed to the limit. We 
do not have enough law enforcement people with badges. That is 
where these MOUs come into play. We are all sovereign nations. 
One of our greatest assets as a sovereign nation is the 
strength of the MOU. The MOUs between our tribes, they work 
with the State, they work with the Federal Government. All we 
are asking is that we all come together and take down some of 
these barriers. Because it seems like all the holdups that have 
happened in the past. We are in an age of ADA, we are in an age 
of social media, we are in a scary time with my two daughters 
that I have sitting at home waiting for me to come home today. 
I fear for what they face in the next 15 years. I fear for the 
Missing and Murdered Indigenous Women's Act, Savanna's Act. 
These are all strides moving forward, but they should have 
already been in place.
    That is why I am grateful that we could come together in 
this meeting. Because it does show that we are moving in the 
right direction. So now it is on us as leaders of the Federal 
Government, as leaders of our sovereign nations, to streamline 
these processes, to save a lot of the men and women in the 
Nation, across the Country.
    So why can't North Dakota, and why can't the great 
leadership at the Federal level and the State level and the 
leadership of the United Tribes coming together set that 
example for the rest of this Country?
    So that is the challenge I lay in front of our Senators and 
our Chairman and our representatives. Let's take that 
initiative, let's move it forward. We all know what the issues 
are. Let's take down those barriers that sadly, we have put in 
front of ourselves over the years, and a lot of which just 
hasn't been addressed. Let's just go back to common sense, 
let's go back to protecting all of our people. Because our 
Native people are also wards of the Federal Government and are 
part of North Dakota.
    So we were all elected to protect our people. I think that 
this is a unique opportunity for all of us sitting here 
together to move forward with that effort. I did put pictures 
of my little daughters inside my testimony. This is why this is 
so important, that is why we can't waste this opportunity.
    So you made the first step. I appreciate that, and I 
appreciate the invite. So let's start climbing those steps, 
let's be that beacon for the rest of this Country. I thank you 
for your time, and again, I apologize for being late. If I 
covered a lot of what my counterparts covered, I do apologize. 
But thank you for your time.
    The Chairman. Thank you. Thank you, Chairman, for your 
input and your testimony and your help in accomplishing exactly 
those things, trying to pass this legislation to help do just 
what we are talking about, and that is provide more safety to 
women, to children, to everybody, more help to law enforcement 
and to address the drug problem on the reservation. We 
appreciate your testimony, and it is an important part of 
helping accomplish it. We thank you for that.
    I would turn to Senator Cramer and Congressman Armstrong 
for any additional comments you may have, and/or questions in 
regard to the testimony.
    Senator Cramer. Thanks, John. Thanks to all of you for 
being here. You have given us an [indiscernible] of time. As 
leaders, we know this is the most precious commodity we have. 
Your testimony has all been focused on [indiscernible]. Some of 
it has been repetitive, and Jamie, that is a good thing. That 
is a good thing. There is nothing wrong with that.
    I have heard the word partnership many times, starting 
right down here, we started with MOUs and we have had 
partnerships and MOUS in a lot of that in between.
    But I want to ask you, or maybe referenced it, as you 
referenced the mutual aid agreement, first of all, way to go. 
Thank you, congratulations. I think that is a great testimony 
to what is possible and finally to decide, the best interest of 
the crisis at the moment and the best [indiscernible] want to 
get their first. We can worry about the rest after that.
    So I just post to all of you, do you have similar 
relationships, identical relationships? If not, what can we do 
to facilitate it? Maybe that is more of your issue than it is 
our issue, but it has been an ongoing one for a very long time. 
So any other thoughts on that type of an arrangement?
    Mr. Faith. Senator, I would say this, that Standing Rock 
does have a mutual aid agreement with the Bureau of Indian 
Affairs law enforcement through our game and fish, and multi-
hazard mitigation plan that we have, working together in a time 
of need to be called on. So we do have that in place for some 
years now. I would probably say eight to ten years.
    I would follow up with this. The recruitment MOUs that we 
talked about, I would say that if the State and Federal 
Government would come together and downsize their Federal regs 
of the individual and allow the State academy person to be 
recruited, and then you have what you call the bridge. I think 
it is, Charlie will probably tell me if I'm wrong or right, but 
the bridge would be one month to two-month course that that 
person would take to become an officer, Federal officer in the 
jurisdiction in Indian Country.
    So talking about MOUs, MOAs and recruitment, I think the 
Federal Government, working with the State, downsizing their, 
it is so hard to get people into that Federal status. But if 
they would allow you to pick up, recruit out of North or South 
Dakota that comes out of their academies, and then run them 
through that bridge project, that would make so much faster 
time than any other.
    Right now, we don't have the 638 contract with the Bureau 
of Indian Affairs. We depend on them simply because the funding 
and the commitment of taking over a facility that is not up to 
standard. So I would say that MOUs, recruitment.
    Senator Cramer. Before I hear from the rest of the members, 
I want to highlight what I find to be sort of new news. You are 
talking about relationship with the Rolla police department, 
the Rolette police department. By the way, I was born in 
Rolette. That is way back, 100 years ago. But anyway, that is a 
little, that is stretching it a little further even that what 
you are talking about. That is the kind of cooperation I think 
is really interesting.
    Mr. Azure. So what spurred the discussion of even starting 
this task force was the unfortunate death of one of our 
officers [indiscernible]. The Turtle Mountains is a very small 
land base. So all the counties around us, I grew up with a lot 
of the current law enforcement. The reverberating talk with all 
the law enforcement around our area was that they don't care 
who is employed by whom. When something happens, it was 
brothers in blue, we are all brothers. There was an outcry from 
not only the Turtle Mountains but surrounding communities, to 
figure out some way we can protect each other. That is how the 
discussion started.
    So once the discussion started, everybody wanted to be a 
part of it. I believe our last, well, we are going to have 
another discussion here next month. But our last discussion we 
had, everybody from the FBI to the highway patrol, sheriff's 
departments, the BIA, the tribal police, everybody wanted 
[indiscernible]. And we always run into bureaucracy. It is 
something new, there is always that little barrier that pops up 
that nobody anticipated.
    Right now it is control over the task force. I went in 
thinking it was going to be funding, and we find out that now 
the FBI is going to be involved with their policies and 
procedures, and now we have to kind of step back and figure out 
how we can all work together. Once you put that many different 
funding sources together, I will say that it takes a little 
time, sure. You have to lay that foundation, you have to lay 
that groundwork, otherwise the task force will crumble.
    So if we are going to do it, we are going to do it right. 
We are going to let everybody have their sway and everybody 
basically needs to step back a little bit and say, this isn't 
about the Turtle Mountains, this isn't about Rolette County. 
This is about everybody coming together to protect each other 
and protect our next future coming.
    So all the other tribes, too, once we get everything in 
place, we are more than happy to give the framework to 
everybody and maybe we can start another MOU with the tribes 
here.
    Senator Cramer. Great. I also heard, the other keyword I 
heard frequently was prevention. I heard it in various forms. I 
think, Myra, you actually mentioned on-reservation treatment.
    I would so much rather invest in partnerships and 
prevention and education than incarceration, obviously. And 
treatment, I would rather invest in treatment than 
incarceration, because I think [indiscernible] works 
[indiscernible] so important.
    One of the things I want to highlight we haven't talked 
about yet, and you don't hear about a lot of the good things 
that happen in Washington. I know you wonder if anything good 
does happen.
    But this year we did not only pass, but passed in both 
chambers and signed by the president the first [indiscernible] 
Act, which was serious sentencing reform that recognizes that 
not all crimes are created equal. Yes, we have violent crimes 
and violent criminals need to pay the price. But these crimes 
are of disease, crimes of addiction, they are different. And we 
have to find a better way to treat that. So I thank you for 
that testimony, I just want to highlight that as well. Thank 
you, and [indiscernible].
    The Chairman. Congressman Armstrong.
    Mr. Armstrong. I think I will go back to some of my 
statement, [indiscernible] little bit [indiscernible]. It is 
very interesting to hear how similar a lot of your challenges 
are, but also I understand the uniqueness of each one of your 
different jurisdictions. Primarily [indiscernible] on who your 
neighboring counties are [indiscernible] cooperates between 
Spirit Lake and [indiscernible] County has been going on for a 
long time, McLean County obviously is very interested. I think 
that is one thing that we always have to factor in, too, as we 
continue to go across.
    Of course, Governor Burgum has done a lot of that, and our 
own States Attorney [indiscernible] law enforcement agents. I 
think there is [indiscernible] when we are doing first step 
back, which I didn't really bring about, because I didn't get 
to vote for it, it happened before I got there. And it will 
disproportionately positively affect your tribal members 
[indiscernible] because of the nature of the Federal 
prosecution throughout.
    So I appreciate that, and anything that we can do to help 
build those relationships. Because I will allocate, one thing 
that fascinates me in Washington, D.C. is how [indiscernible] 
crime is very often [indiscernible], whether it is in tribal 
court, whether it is in county court, whether it is wherever. 
So when we deal with policy in D.C., we deal with 50 separate 
States, and then the reservations and how they deal with things 
as well. The vast majority of addiction-related crimes get 
touched at that level. So the more we can continue to work it 
before it gets to the Federal incarceration level, the better 
off we are. And that really happens here, it happens in these 
meetings.
    But more importantly, it happens with your local sheriff's 
offices, your local States attorneys. Hopefully as they go 
through some of the criminal justice reform, we continue to 
work toward areas where, I will just give this example. I stole 
it from [indiscernible], so it is not all mine. A 20-year old 
kid in Bismarck gets in trouble for what he does. A 20-year old 
kid in Indian Country oftentimes gets in trouble for what he 
doesn't do. And because the 20-year in Bismarck can't really 
hide in his mom's basement for three to six months, whereas 
they can run to Fort Yates, or [indiscernible] and nobody 
[indiscernible] at that age. So they are like, I will just have 
[indiscernible] and I will be fine.
    And six, eight months later, they get busted in 
[indiscernible] County, so they get a disproportionately large 
prison sentence. The easiest way to get a large prison sentence 
is not show up for probation, not show up for sentencing, miss 
court dates. But I think even more and more when we are talking 
about addiction and treatment, if it is an addiction-related 
crime, that is six to 18 months where they are not getting 
helped, they are not getting treatment, they are going farther 
down that spiral. The single best way to solve that is 
prosecute, that is between you all and local law enforcement, 
the Federal law enforcement agencies. The more we continue with 
that, and any way I can continue to be a part of that 
conversation I [indiscernible].
    The Chairman. Thanks to all of you. Thanks for being here 
today, thanks for your testimony, thanks for what you do. Your 
leadership is critically important, every day.
    Ms. Pearson. Senator, may I say one thing?
    The Chairman. Yes, certainly, Chairwoman.
    Ms. Pearson. The one thing that really helped the 
reservations at one time, that was a couple years back, was we 
had the reservation sweeps. I would ask you to consider that 
when you go back to Washington and see if we can possibly do 
that again throughout our reservations. But that helped a lot 
back then. And it is a reservation sweep, and it is by all 
these agencies coming together in North Dakota and sweeping the 
reservations. Consider that.
    The Chairman. Have you talked to the Attorney General about 
it?
    Ms. Pearson. No, I haven't. But I told him I am going to 
pay him visit, so maybe I will.
    The Chairman. Yes. That would be good to talk about.
    Again, thanks to all of you. Thank you to Senator Cramer. 
Thank you to Congressman Armstrong. Also to our staff that put 
a lot of work into this hearing today. Jacqueline Bissell and 
also Holmes Wayland and Mike Andrews, our Committee staff 
director, thanks for what you do. We look forward to continue 
to work on these issues and others with you. Thank you so much.
    The hearing record will be open for two weeks. With that, 
we are adjourned.
    [Whereupon, the hearing was concluded.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Charles Addington
Law Enforcement Recruitment and Retention
    Question 1. You stated there were not enough people applying for 
the vacant law enforcement positions and cited as an example the 
Standing Rock Sioux Tribe, where 13 of 27 BIA officer positions are 
currently vacant. Tribal law enforcement stakeholders often point to 
housing shortages, prolonged hiring processes, and the lack of a 
competitive pay scale as the principle barriers to recruitment and 
retention of law enforcement personnel in Indian Country. Please 
provide an estimate of the law enforcement vacancy rate percentage for 
BIA-OJS as a whole and each BIA region.
    Answer. The current estimated vacancy rates for the Bureau of 
Indian Affairs (BIA), Office of Justice Services (OJS) sworn staff in 
the field are displayed in the below table.

------------------------------------------------------------------------
                                                                Vacancy
                     Organizational Unit                         Rate %
------------------------------------------------------------------------
District 1                                                            44
District 2                                                            21
District 3                                                            41
District 4                                                            34
District 5                                                            45
District 6                                                            33
District 7                                                            25
District 8                                                            67
District 9                                                             0
OJS Overall (Field/Sworn)                                             39
------------------------------------------------------------------------

    Question 1a. Has BIA-OJS identified any additional barriers that 
limit the Department's attempts to recruit and retain law enforcement 
officers?
    Answer. Our most prominent challenges for recruitment and retention 
are (a) the length of time it takes OPM's National Background 
Investigations Bureau (NBIB) to complete background investigations; (b) 
housing shortages at remote locations; and (c) competition from State 
and Federal law enforcement agencies.

    Question 1b. Do tribally operated law enforcement agencies 
experience similar recruitment and retention issues?
    Answer. Yes, tribally operated programs experience the same 
challenges and historically high employee turnover rates (10+ percent 
annually).

    Question 1c. Is BIA-OJS able to offer competitive pay and hiring 
incentive packages compared to similar positions at other federal law 
enforcement agencies? If not, is the Bureau aware of any regulatory or 
statutory changes that would bring BIA-OJS pay scales into line with 
these other agencies?
    Answer. BIA-OJS seeks to be as competitive as possible within 
existing resources with its pay and hiring incentive packages compared 
to similar positions at other Federal law enforcement agencies. To do 
so, requests for a budget increase of $1.5 million to upgrade uniform 
police positions were submitted by BIA-OJS for inclusion in the FY 2012 
and FY 2020 budgets. Housing shortages in remote locations, prolonged 
background investigations, and above average crime rates exacerbate 
recruitment and retention issues. Police officers typically leave BIA 
and Tribal programs for employment with other State and Federal 
agencies.

    Question 1d. What recruitment and retention programs or strategies 
is the Bureau currently utilizing to address the number of law 
enforcement vacancies at OJS?
    Answer. BIA is mandated to utilize the USAJOBS website to advertise 
federal positions. We cross post the USAJOBS announcements on social 
media sites and use direct hiring authority for entry level positions 
when possible.
    Additionally, we have recently developed a program through our 
Indian Police Academy that focuses recruitment efforts at events hosted 
by universities, colleges, armed forces, and anywhere else our 
recruitment team can connect with potential applicants.

    Question 2. In response to questions from Senator Cramer, you 
voiced support for a demonstration project that would allow BIA to 
conduct its own background checks for law enforcement positions 
contained in S. 3755, a bill Senator Hoeven and I introduced last 
Congress. Please provide an estimate of the average length of time it 
takes to fill a vacant law enforcement personnel position at the Bureau 
and to complete the hiring process once a qualified applicant has been 
offered the position, including an estimate of the length of time it 
takes to receive a background check clearance for the hired applicant.
    Answer. On average, it takes BIA-OJS 6 to 18 months to fill a 
vacant law enforcement position. This includes an average of 6 to 16 
months to complete the background investigation process once a 
qualified applicant has been offered a position.

    Question 2b. Are tribally-operated law enforcement agencies 
required to use the same background check process currently in place 
for BIA-OJS positions? And, if so, do tribally-operated law enforcement 
agencies experience similar delays when trying to obtain background 
check information for new hires?
    Answer. Tribally-operated law enforcement agencies are required to 
follow a similar background investigation process as BIA-OJS. While 
many tribes utilize an outside certified background contractor or 
internal trained tribal personnel to conduct those background 
investigations, under the Tribal Law and Order Act, BIA-OJS must 
conduct background investigations if requested by a tribe. Under this 
option, tribes get their backgrounds done by BIA-OJS within 60 days 
since they do not have to use OPM's NBIB for this function.

    Question 2c. Would a demonstration project like that proposed in S. 
3755 from the 115th Congress improve the ability of the Bureau and 
Tribes to recruit and retain law enforcement personnel?
    Answer. While we believe that a demonstration project like that 
proposed in S. 3755 would have many positive benefits for BIA-OJS and 
tribes, we would encourage the two Executive Agencies with policy and 
oversight authority over background investigations to comment on the 
effect.
BIA-OJS Enforcement of Tribal Civil Arrest Warrants
    Question 1. When my staff visited the Standing Rock Sioux 
reservation, the Tribal Chairman stated BIA-OJS recently changed its 
position regarding the ability of its officers to enforce civil arrest 
warrants issued by the Tribal Court pursuant to the Tribe's legal code. 
BIA-OJS notified the Tribe that it based the decision on a Solicitor's 
opinion issued approximately three years ago that stated BIA-OJS law 
enforcement could not hold civil offenders in jail. The Tribe 
subsequently asked BIA-OJS to provide a copy of the Solicitor's 
opinion, but the Tribe informed my staff last week it has not received 
it. Please provide a copy of the Solicitor's opinion that indicates 
BIA-OJS law enforcement does not have the authority to execute Tribal 
civil warrants.
    Answer. Legal advice from the Office of the Solicitor is 
privileged.

    Question 1a When did BIA-OJS officers first inform the Standing 
Rock Sioux Tribe they would not be able to execute civil warrants 
issued by the Tribe's court? Please specifically detail if BIA-OJS 
executed civil warrants issued by the Tribe's court after issuance of 
the Solicitor's opinion and when the Bureau changed its arrest policies 
relevant to the opinion.
    Answer. In February 2016, BIA-OJS changed its process regarding 
civil detainment and informed the Standing Rock Sioux Tribe that they 
would not be able to execute civil warrants issued by the Tribe's 
court. During the subsequent change of Chiefs of Police, BIA staff did 
allow for some civil detainment after the field was notified of the 
change in practice until the February 2016 change in process was 
brought to the attention of the new Chief of Police.
    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

           Written Questions Submitted by Hon. Tom Udall to 
                              Jill Sanborn
Missing Persons Cases
    Question 1. Does the Bureau report missing persons cases it 
investigates in Indian Country into NaMUS?
Case Declination Rate
    Question 1. You testified that a large portion of priority FBI 
investigations in Indian Country involve crimes of violence, such as 
murder, violent assaults, sexual assault of adults, and child sexual 
and physical abuse.Please provide an estimate of the FBI's total number 
of Indian Country investigations related to crimes against children; 
percentage of overall Indian Country cases that involve investigation 
of crimes against children; and percentage of Indian Country cases 
involving crimes against children that are referred to U.S. Attorneys 
for prosecution.

    Question 1a. Is the Bureau able to determine what percentage of 
crimes against children that it investigates in Indian Country co-occur 
with crimes of domestic violence or violent crimes against a relative 
of the child?

    Question 1b. When a case involving crimes against children is not 
referred for prosecution, what are the top three reasons that such 
cases are not referred?

    Question 1c. Is the Bureau aware of what percentage of cases 
involving crimes against children referred for prosecution that U.S. 
Attorney's decline to prosecute?

    Question 1d. Has the Bureau worked with Tribes, the BIA Office of 
Justice Services, and the Executive Office of U.S. Attorneys to address 
the primary cases of declination rates for crimes against children in 
Indian Country investigated by the Bureau?

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
